<html>
<title> - H.R. 4360; H.R. 592; H.R. 1030; H.R. 4165; H.R. 4183; H.R. 628; H.R. 1424; H.R. 1911, AND A DRAFT BILL TO EXTEND INCREASED DEPENDENCY AND INDEMNITY COMPENSATION PAID TO SURVIVING SPOUSES OF VETERANS WHO DIE FROM ALS, AND A DRAFT BILL TO PERMIT APPELLANTS TO APPEAR BEFORE THE BOARD OF VETERANS' APPEALS VIA PICTURE AND VOICE TRANSMISSION FROM LOCATIONS OUTSIDE THE DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 H.R. 4360; H.R. 592; H.R. 1030; H.R. 4165; H.R. 4183; H.R. 628; H.R. 
 1424; H.R. 1911, AND A DRAFT BILL TO EXTEND INCREASED DEPENDENCY AND 
 INDEMNITY COMPENSATION PAID TO SURVIVING SPOUSES OF VETERANS WHO DIE 
 FROM ALS, AND A DRAFT BILL TO PERMIT APPELLANTS TO APPEAR BEFORE THE 
  BOARD OF VETERANS' APPEALS VIA PICTURE AND VOICE TRANSMISSION FROM 
          LOCATIONS OUTSIDE THE DEPARTMENT OF VETERANS AFFAIRS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, OCTOBER 22, 2019

                               __________

                           Serial No. 116-39

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 41-244              WASHINGTON : 2021 
 
 
 
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DR. PHIL ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AMATA COLEMAN RADEWAGEN, American 
MIKE LEVIN, California                   Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          DR. NEAL DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DAN MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      GREG STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                   ELAINE LURIA, Virginia, Chairwoman

GIL CISNEROS, California             MIKE BOST, Illinois, Ranking 
GREGORIO KILILI CAMACHO SABLAN,          Member
    Northern Mariana Islands         GUS M. BILIRAKIS, Florida
COLIN ALLRED, Texas                  STEVE WATKINS, Kansas
LAUREN UNDERWOOD, Illinois           GREG STEUBE, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                       Tuesday, October 22, 2019

                                                                   Page

H.R. 4360; H.R. 592; H.R. 1030; H.R. 4165; H.R. 4183; H.R. 628; 
  H.R. 1424; H.R. 1911, And A Draft Bill To Extend Increased 
  Dependency And Indemnity Compensation Paid To Surviving Spouses 
  Of Veterans Who Die From Als, And A Draft Bill To Permit 
  Appellants To Appear Before The Board Of Veterans' Appeals Via 
  Picture And Voice Transmission From Locations Outside The 
  Department Of Veterans Affairs.................................     1

                           OPENING STATEMENTS

Honorable Elaine Luria, Chairwoman...............................     1
Honorable Mike Bost, Ranking Member..............................     2
Honorable Gil Cisneros, U.S. House of Representatives, (CA-39)...     4

Honorable Julia Brownley, U.S. House of Representatives, (CA-26).     4

Honorable Antonio Delgado, U.S. House of Representatives, (NY-19)     5

Honorable Anthony Gonzalez, U.S. House of Representatives, (OH-
  16)............................................................     6

Honorable Ted Yoho, U.S. House of Representatives (FL-03)........     7

Honorable Michael Waltz, U.S. House of Representatives (FL-06)...     8

,Honorable Ro Khanna, U.S. House of Representatives (CA-17)......     9

                               WITNESSES

Mr. Ronald Burke, Executive Director, Pension & Fiduciary 
  Service, Veterans Benefits Administration......................     9
    Prepared Statement...........................................    31
        Accompanied by:

    Ms. Kimberly McLeod, Deputy Vice Chairman, Board of Veterans' 
        Appeals

Mr. Shane L. Liermann, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    15
    Prepared Statement...........................................    38

Mr. Brian Dempsey, Government Affairs Director, Wounded Warrior 
  Project........................................................    17
    Prepared Statement...........................................    43

Mr. Patrick Murray, Deputy Director, National Legislative 
  Service, Veterans of Foreign Wars..............................    19
    Prepared Statement...........................................    47

Ms. Ashlynne Haycock, Deputy Director, Policy & Legislation, 
  Tragedy Assistance Program for Survivors.......................    21
    Prepared Statement...........................................    50

                       STATEMENTS FOR THE RECORD

The Honorable Andy Kim, (NJ-03)..................................    55
Paralyzed Veterans of America (PVA)..............................    55
The American Legion (TAL)........................................    58


 H.R. 4360; H.R. 592; H.R. 1030; H.R. 4165; H.R. 4183; H.R. 628; H.R. 
 1424; H.R. 1911, AND A DRAFT BILL TO EXTEND INCREASED DEPENDENCY AND 
 INDEMNITY COMPENSATION PAID TO SURVIVING SPOUSES OF VETERANS WHO DIE 
 FROM ALS, AND A DRAFT BILL TO PERMIT APPELLANTS TO APPEAR BEFORE THE 
  BOARD OF VETERANS' APPEALS VIA PICTURE AND VOICE TRANSMISSION FROM 
          LOCATIONS OUTSIDE THE DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                       Tuesday, October 22, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:31 a.m., in 
Room 210, House Visitors Center, Hon. Elaine Luria [Chairwoman 
of the Subcommittee] presiding.
    Present: Representatives Luria, Cisneros, Sablan, 
Underwood, Bost, Bilirakis, and Steube.
    Also Present: Representative Brownley.

         OPENING STATEMENT OF ELAINE LURIA, CHAIRWOMAN

    Ms. Luria. Good morning. I call this legislative hearing to 
order. Without objection, the chair is authorized to declare a 
recess at any time.
    I would like to welcome you all to the Subcommittee on 
Disability Assistance and Memorial Affairs legislative hearing, 
where we will hear testimony on ten pieces of legislation. The 
vast majority of these proposals are bipartisan in nature, 
something that is a hallmark of this Committee.
    As chair of the Subcommittee on Disability Assistance and 
Memorial Affairs, I have heard from veterans and their families 
on the importance of getting timely and accurate decisions on 
their claims for VA benefits. I have heard how devastating it 
can be for a veteran and their family when they are victims of 
fraud. Without pause, I know that Congress and the VA must do 
more to serve our veterans and protect them from fraudulent 
practices. I am grateful to my colleagues for their bipartisan 
efforts to work towards this goal.
    One example of this is Representative Brownley's bill, H.R. 
592, the Protect Veterans from Financial Fraud Act, which would 
provide parity in protecting veterans who are victims of fraud. 
Each year, countless veterans have their benefits stolen by 
their fiduciary, but for some veterans they cannot recoup their 
benefits from the VA unless their fiduciary manages ten or more 
veterans due to a bureaucratic loophole; Ms. Brownley's bill 
puts an end to this disparity.
    I am a proud original cosponsor of Representative Khanna's 
bill, H.R. 4183, Identifying Barriers and Best Practices Study 
Act. This bill helps identify barriers and benefit disparities 
between veterans who served in the Guard, Reserve, and active 
duty, and special programs such as those who served in the 
nuclear field.
    For any barriers identified, this bill also requests 
recommendations for overcoming those barriers, so we can ease 
the pathway to benefits for those veterans.
    I also want to thank all of our witnesses for being here 
today; we look forward to hearing your testimony.
    With that, I would like to recognize Ranking Member Bost 
for his opening statement. Mr. Bost, you are recognized for 5 
minutes.

         OPENING STATEMENT OF MIKE BOST, RANKING MEMBER

    Mr. Bost. Thank you, Madam Chair. And I want to thank 
everyone for joining us here today to discuss some of these 
important pieces of legislation that will be before the 
Subcommittee. The bills on today's agenda are intended to 
address issues that are very important to veterans and their 
families.
    One of the bills is H.R. 628, it would allow Members to 
help constituents who simply want to understand the status of 
their claim for benefits. This bill would permit certain full-
time congressional staffers to look up the status of veterans' 
claims on VA's claim system, but only, only if the veterans has 
given the staffer permission. This access will provide 
congressional employees with an insight needed to quickly 
verify that the VA is working on the veteran's case and to 
provide a status update to the constituents.
    Moreover, the staffer would be able to confirm the VA has 
received important documents such as the veteran's claim form 
or private medical records.
    Back in my district, I am approached constantly by veterans 
who would like to know where their claim is and where it is at 
in the process.
    I employ a full-time caseworker--actually, I have two--
whose sole responsibility is to work on constituents' 
assistance in their VA claims, and both of them are disabled 
veterans, so they understand how difficult this can be to deal 
with. You know, frequently this means that the caseworker is 
writing to VA on behalf of veterans just to find out what is 
going on with their case.
    It can be very frustrating to wait weeks for the VA to get 
back to us when a VA employee can access this information 
within minutes.
    Representative Yoho would cut through the red tape and 
allow Members from the offices to provide veterans with 
immediate feedback. I look forward to discussing H.R. 628 and 
how it will help our constituents and serve our veterans.
    Another bill, H.R. 1424, would require VA National 
Cemeteries to allow the display of battlefield crosses, which 
is a monument that depicts a fallen servicemember by an 
inverted rifle with a helmet and dog tags on top and a pair of 
combat boots at the bottom. Many of us have seen this symbol. 
This is an image that every man and woman who has ever worn the 
uniform knows and, unfortunately, knows it too well.
    In 2017, a VA employee misinterpreted the VA's policy and 
removed a battlefield cross from the Ohio Western Reserve 
National Cemetery because it was a weapon or the symbol of a 
weapon. In response to the veterans and congressional concerns 
over the incident, the Department reinstated the monument and 
clarified the cemetery can display this image. However, this 
bill is necessary to codify this clarification and ensure that 
VA does not ban this sacred image again.
    I support this bill and appreciate Representative 
Gonzalez's leadership on this issue.
    Additionally, we will be discussing H.R. 1911, which will 
be introduced by Representative Waltz. This bill will make 
numerous changes to the VA and DoD benefits for surviving 
spouses. Today, I would like to focus on the provisions that 
would allow surviving spouses to continue to receive dependency 
and indemnity compensation or DIC should they remarry, 
regardless of age.
    We owe a solemn date to the men and women who laid down 
their lives in defense of our country and, for those that have 
made the ultimate sacrifice, our Nation has a responsibility to 
take care of their families. For that reason, the VA provides 
DIC to survivors to make up for the loss of income that results 
from the veteran's death, but can never make up for the death 
itself.
    Currently, only surviving spouses who are over the age of 
57 are able to continue receiving DIC if they are remarried. 
This is similar to other Government surviving benefits such as 
Social Security, Civil Service programs, in which the survivor 
is able to retain their benefits even if they remarry after a 
certain age. I am interested in learning more about whether it 
would be appropriate for a DIC to be the first Government 
survivor program to remove this restriction.
    I know many of my colleagues here today have worked hard on 
their proposals. I look forward to discussing how these bills 
will improve the lives of our veterans and their families.
    And, with that, I yield back. Thank you, Madam Chair.
    Ms. Luria. Thank you, Mr. Bost.
    For the first panel we will hear testimony from the Members 
who introduced some of the legislation before us today. First, 
we have Representative Cisneros from California, who sits on 
this Subcommittee; and, next, we have Representative Brownley, 
also from California, who chairs the Subcommittee on Health. 
Welcome to you both.
    Without objection, several of our colleagues will join us 
for today's hearing: Representative Delgado from New York, 
Representative Gonzalez from Ohio, Representative Yoho from 
Florida, and Representative Waltz, also from Florida.
    With that, I now recognize Representative Cisneros for 5 
minutes.

              STATEMENT OF HONORABLE GIL CISNEROS

    Mr. Cisneros. Thank you, Madam Chairwoman, for providing a 
hearing on my legislation, H.R. 4748, the Justice for ALS 
Veterans Act. I was proud to introduce this bill with my 
colleague Congressman Fitzpatrick, Chairman of the 
Congressional ALS Caucus, and want to sincerely thank him for 
his leadership on this devastating disease. Our legislation 
would help ease the financial stress surviving family members 
face when a veteran who is diagnosed with ALS dies.
    ALS, also known as Lou Gehrig's disease, affects nerve 
cells in the brain and spinal cord. This disease progresses 
quickly, eventually preventing the victims from being able to 
walk, write, speak, or even breathe on their own. Members of 
the military are twice as likely to develop ALS, with one in 
six ALS patients having served. No cure exists, no definitive 
explanation for its cause, but what we do know is that the 
disease is always fatal and devastating for the entire family 
involved.
    One such family is that of Marine Corps veteran George 
Vasiloff, who was diagnosed with ALS in September 2013. The VA 
rated him as 100 percent disabled as of November 2013. Less 
than 2 years later, he died, leaving behind is wife, Jan, and 
two children.
    Under current law, Jan is not entitled to increased 
dependency and indemnity compensation, despite caring for her 
husband's service-connected disability until the day he died. 
Currently, an eligible survivor of a veteran affected with a 
service-connected disability only qualifies for increased DIC 
if the service-connected disability was rated a total 
disability for a continuous period of at least 8 years 
immediately prior to death. But with a 2-to-5-year life 
expectancy, veterans with ALS do not live long enough to meet 
the eligibility criteria.
    The Justice for ALS Veterans Act of 2019 would correct this 
injustice by extending the increased DIC payment to surviving 
spouses of veterans who die from ALS regardless of how long the 
veteran had the disease prior to death.
    Watching a loved one's life tragically cut short by ALS 
takes incredibly strength and courage. No one should have to 
take on the emotional and financial burden of this disease 
alone, especially not family of our veterans, who are twice as 
likely to develop ALS as those who had not served.
    This is a commonsense, bipartisan legislation supported by 
the Paralyzed Veterans of America, the Wounded Warrior Project, 
and the ALS Association.
    I thank the Committee for holding this hearing and urge 
that it be marked up with deliberate speed.
    With that, I yield back my time.
    Ms. Luria. Thank you, Mr. Cisneros.
    I apologize for the initial mistake. Each Member presenting 
their bill will be given 2 minutes due to the large amount of 
legislation that we will be considering today.
    And I next recognize Ms. Brownley for 2 minutes.

             STATEMENT OF HONORABLE JULIA BROWNLEY

    Ms. Brownley. Thank you, Madam Chairwoman, and the 
Subcommittee for considering my legislation, the Protect 
Veterans from Financial Fraud Act, to ensure that every veteran 
who has served our country so bravely receive the benefits they 
have earned and deserved, and for Congress to fulfill America's 
promises.
    As you know, the VA assigns fiduciaries to assist more than 
177,000 veterans or their family members with managing their VA 
benefits. These are our most vulnerable veterans who are unable 
to manage their own financial decisions because of their age or 
their health conditions. A fiduciary helps to ensure that a 
veteran's benefits are used in the best interests of the 
veteran, and the fiduciary is a critically important role at a 
time when the veterans need their assistance the most.
    Under Federal law, VA has the authority to remove a VA-
appointed fiduciary who has misused or stolen a veteran's 
benefits. In fact, in fiscal year 2019, sadly, 975 fiduciaries 
were removed based upon a finding of misuse.
    When a fiduciary steals a veteran's benefits, this directly 
takes away money from a veteran and can result in the inability 
to pay for basic necessities such as housing and food. But, 
perhaps even more importantly, a fiduciary has stolen a 
veteran's dignity. VA can only reissue these benefits to their 
veterans if their fiduciary manages VA benefits for at least 
nine other veterans. This ten-or-more rule prevents VA from 
making all veterans whole when they have been taken advantage 
of by those entrusted to care for their finances at a very 
vulnerable time in their lives.
    My bill would ensure that all veterans in VA's fiduciary 
program can recover misused or stolen benefits. To not restore 
these benefits because someone else abused their 
responsibilities, in my opinion, is truly inexcusable and it 
must stop.
    Both VA and our VSOs support extending these protections to 
all beneficiaries in the fiduciary program, and I urge my 
colleagues to support this bill to correct this cruel injustice 
and ensure that every veteran is fully protected from any fraud 
or abuse, and I am happy to answer any questions.
    Thank you, Madam Chair, for the time, and I yield back.
    Ms. Luria. Thank you, Ms. Brownley.
    And, Mr. Delgado, you are now recognized for 2 minutes.

             STATEMENT OF HONORABLE ANTHONY DELGADO

    Mr. Delgado. Thank you, Chairwoman Luria and Ranking Member 
Bost, for the opportunity to testify today about my bill, the 
Improving Benefits for Under-Served Veterans Act, legislation 
to better understand the needs of our Nation's veterans.
    Throughout the years, our armed forces have become 
increasingly diverse, with more women and minority groups 
serving our country. In fact, in my district alone there are 
more than 40,000 veterans, nearly 10 percent of which are 
women, a trend that will only increase in the coming years. 
Female veterans are also the fastest-growing segment of the 
homeless veteran population, and in 2016 the suicide rate of 
women veterans was nearly twice the suicide rate of non-veteran 
women.
    This summer, I visited a number of veterans organizations 
and facilities in Upstate New York, including the Samaritan Day 
Top Village in Ellenville, the Catskill VA Clinic, and the 
Albany Stratton VA, to better understand the health care needs 
of women veterans and learned that many female and minority 
group veterans are unaware of their entitled benefits, leaving 
critical benefits unused.
    My legislation, the Improving Benefits for Under-Served 
Veterans Act, would direct the Secretary of Veterans Affairs to 
publish a report on veterans' benefits, disaggregating by sex 
and minority group status. This would help Congress and the VA 
better understand which benefits these groups are utilizing 
and, importantly, which benefits they are not utilizing.
    This forward-looking report will also allow Congress and 
the VA to foresee trends and needs in veterans' benefits and 
better understand how to serve them in the future.
    I am grateful to the House Veterans' Affairs Committee for 
all of its hard work and what will become the Deborah Sampson 
Act, which if enacted would be the most comprehensive 
legislation helping to serve women servicemembers, and I am so 
happy it includes the Improving Benefits for Under-Served 
Veterans Act.
    I thank the Committee for the opportunity to speak on this 
important issue. I yield back my time.
    Ms. Luria. Thank you, Mr. Delgado.
    Mr. Gonzalez, you are now recognized for 2 minutes.

            STATEMENT OF HONORABLE ANTHONY GONZALEZ

    Mr. Gonzalez. Members of the Subcommittee, thank you for 
the opportunity to speak to you today about the first piece of 
legislation I introduced as a Member of Congress, H.R. 1424, 
the Fallen Warrior Battlefield Cross Memorial Act.
    Battlefield cross memorials commemorate the service of 
fallen soldiers who have given their lives in service to our 
country. And, as Strongsville VFW Post Commander Tim Zvoncheck 
puts it, it is imperative that this custom continues to be 
displayed for as long as the sons and daughters of this Nation 
are willing to give their lives in its defense.
    I am proud to carry on the work of my predecessor, 
Congressman Jim Renacci, who introduced a version of this bill 
last Congress. As combat veteran Michael Kuhn from Massillon 
explained to me, the battlefield cross encapsulates so many of 
the most important things to a combat vet: his rifle, his 
boots, his tags, and, most of all, his fallen comrade. It is 
extremely important for us to have those things wrapped up in 
one memorial for us to kneel to, grieve with, and talk to our 
brothers in arms that have died the ultimate death.
    The presence of a battlefield cross memorial in a national 
cemetery has been a noncontroversial, time-honored tradition 
since at least the Civil War. However, in the fall of 2017, 
battlefield cross memorials in Ohio, Illinois, and Michigan 
were abruptly removed. A VA employee mistakenly said it was 
because they violated administration policy by depicting a 
replica of a rifle. This is a significant mischaracterization 
of the policy's intent.
    After pressure from veterans and widespread local support, 
the VA returned these memorials to their sites, but the future 
of the battlefield cross memorials remains uncertain. The bill 
codifies protections for battlefield cross memorials, securing 
their placement in national cemeteries across the country.
    One of the greatest champions for this cause was Elton 
Boyer, president of the 555th Honors Detachment in my district. 
He passed away this weekend, but it was Elton's mission to 
erect a battlefield cross at the Ohio Western Reserve National 
Cemetery in Seville, Ohio using the spent brass from military 
funerals. My bill protects his work, clarifying that no 
administrative policy change can allow the removal of this 
memorial.
    Thank you to the Subcommittee for holding a hearing on H.R. 
1424. I urge passage of this legislation by the Committee at 
the earliest possible opportunity.
    Thank you.
    Ms. Luria. Thank you, Mr. Gonzalez.
    Mr. Yoho, you are now recognized for 2 minutes.

                STATEMENT OF HONORABLE TED YOHO

    Mr. Yoho. Chairman Luria, Ranking Member Bost, and 
Committee Members, thank you for allowing me the opportunity to 
testify on the bill H.R. 628, the WINGMAN Act, which is an 
acronym for Working to Integrate Networks Guaranteeing Member 
Access Now. This bill is a simple, commonsense bill that allows 
the VA to focus on claims without having to act as the 
middleman when Congress needs to access a document in their 
database. This bill has had strong bipartisan support for the 
last three Congresses and has passed the House unanimously 
twice, and I look forward to it passing again.
    We spend--as Congressman brought up, we spend probably 56 
percent of our time in district and here in DC with veterans' 
cases, and we are honored to do that, and this bill, the 
genesis came out of the frustration of veterans and their 
caseworkers that there has got to be a better way or quicker 
way that we can facilitate the VA and the caseworkers. And I 
understand the VA has some concerns with this bill and that 
many people in the room have echoed them, so I would like to 
take a moment to address some of their biggest concerns.
    First, privacy. I, like everyone else in this room, believe 
that privacy is utmost and that is the number one concern. We 
are on a secure server, the same kind of security that the VA 
has, and so those databases are protected. We only are asked to 
do this by a veteran that has come to us and says can you help 
us with our claim. They have filled the privacy form, we filled 
that out, we access the same VA system.
    And it is not to interfere, it is read-only access, so that 
we can peek in and say this is the status of your claim and 
this what you--maybe you didn't fill out the form right, you 
didn't dot the I, you didn't cross the T, or you didn't sign 
it, and these are things that we can expedite it because, as we 
have heard, sometimes these cases take weeks, if not months, I 
have heard some up to 6 months to a year, and this is a way to 
expedite it and it is focused on the veteran's customer 
service.
    We are not looking to create jobs or take jobs away from 
the VA or the VSOs or any veteran organizations, we are looking 
to facilitate and give customer service to our veterans. And we 
appreciate the bipartisan support that we have had, and we look 
forward to working with you. And I appreciate the opportunity 
to come here and you looking at this and putting your eyes on 
it, because the bottom line is we have got to take care of our 
veterans, they have given us the liberties and freedoms we 
have, and I thank you for the time.
    Ms. Luria. Thank you, Mr. Yoho.
    I now recognize Mr. Waltz for 2 minutes.

              STATEMENT OF HONORABLE MICHAEL WALTZ

    Mr. Waltz. Thank you, Chairwoman Luria and Ranking Member 
Bost, for hosting today's legislative hearing.
    Earlier this year, along with Representative Seth Moulton 
and Don Bacon, I introduced H.R. 1911, the Sergeant First Class 
Brian Woods Gold Star and Military Survivors Act. This 
legislation is named in memory of a Green Beret that I had the 
honor of serving with, who was killed in Afghanistan in 2009. I 
am thankful to Armed Services Committee Chairman Adam Smith and 
Ranking Member Mac Thornberry for including several provisions 
of this legislation in the House mark of this year's Defense 
authorization bill, and I am confident that they will be 
retained in conference. Therefore, the focus of my testimony 
will be on Sections 3 and 6 of this legislation.
    And let me first state, I fully support eliminating the 
SBP/DIC offset; however, my legislation addresses a separate 
aspect of these two benefit programs for surviving spouses. You 
know, we all know that the families of our servicemembers wait 
for their loved one's safe return, often anxiously waiting to 
hear from them once more. Unfortunately, for some what they 
hear is the chilling knock on their door from a chaplain. It 
changes them forever and it makes them part of the Gold Star 
family.
    Under current law, if a Gold Star spouse remarries, as 
Representative Bost mentioned, prior to turning 55, they lose 
their SBP; if they remarry after turning 55, the SBP continues 
uninterrupted. For the DIC, a Gold Star spouse loses those 
benefits if they remarry prior to turning 57. I don't know 
where these numbers come from, but that is the law. I would 
like to highlight under a quirk of the law, Section 1311(e) of 
U.S.C. 38, surviving spouses who remarry after age 57 receive 
both SBP and DIC in full. Colleagues, this makes no sense.
    My legislation simply allows surviving spouses to continue 
to move forward with their lives, allow them to remarry free of 
fear for losing their benefits owed to them for their family's 
noble sacrifice. Instead, we now have spouses trying to move 
forward with the next phase of their lives and they should not 
be penalized.
    As a combat veteran and a Green Beret, this is personal for 
me. This is also a strategic issue for our volunteer military. 
We are 18 years into the war on terror, I firmly believe we are 
only in the beginning stages of a multi-generational war. This 
is a team effort on these constant deployments, and they are 
constantly deciding whether to continue to deploy.
    The bottom line is, if our family support starts cracking, 
the entire foundation of our modern military is in trouble. I 
ask this Committee to favorably report this important 
legislation.
    Thank you.
    Ms. Luria. Thank you, Mr. Waltz.
    I now recognize Mr. Khanna for 2 minutes.

                STATEMENT OF HONORABLE RO KHANNA

    Mr. Khanna. Thank you, Chairwoman Luria, for your 
leadership on so many issues. It has really been a pleasure 
working with you on H.R. 4183. We need more veterans like you 
in Congress and this Subcommittee is fortunate to have you as 
its chair.
    I would also like to thank Congresswoman Aumua Amata and 
Congressman Cisneros, who sit on this Subcommittee, for their 
co-sponsorship of this bill.
    The Identifying Barriers and Best Practices Act will 
require the GAO to look at disability and pension data over the 
last decade to identify what, if any, barriers exist for these 
veterans and provide recommendations for overcoming those 
barriers.
    Veterans who have served in groups such as pilots, air 
crew, drivers, and Special Forces report difficulty in 
establishing pensions, service-connection, and medical 
treatment for injuries occurred while serving. We have heard 
this happens because, for them to continue service, they avoid 
documenting their injuries.
    The bill proves our democracy still works. A constituent of 
mine, Jerry Kromrey from Sunnyvale, California, who served in 
the U.S. Air Force Reserves, literally attended every monthly 
town hall of mine. Each time he raised this issue and as a 
result of his advocacy, we are now having this legislative 
hearing in the U.S. House Veterans' Affairs Committee and 
thanks to Chairwoman Luria's leadership.
    I want to thank the many veterans service organizations who 
are supportive of this bill. I would also like to thank Sam 
Frianco, who GAO has sat on the Subcommittee, has really been 
instrumental in making this bill happen in this hearing today. 
So, thank you, Sam.
    I hope we can move this bill out of the Subcommittee and 
this bill becomes law, so that we can make sure that all our 
veterans get the treatment and care they deserve, and that 
their disabilities are addressed.
    I yield back and welcome any questions.
    Ms. Luria. Thank you, Mr. Khanna.
    We will now move to Panel 2. I will introduce the Members, 
but you are welcome to go ahead and come forward to the table.
    For our second panel we have Mr. Ronald Burke, Executive 
Director of Pension and Fiduciary Service of the Veterans 
Benefits Administration. He is accompanied by Ms. Kimberly 
McLeod, Deputy Vice Chairman of the Board of Veterans' Appeals.
    So, welcome to Mr. Burke and Ms. McLeod. And, Mr. Burke, 
you are first recognized for 5 minutes.

                   STATEMENT OF RONALD BURKE

    Mr. Burke. Thank you. Good morning, Chair Luria, Ranking 
Member Bost, and Subcommittee Members. Thank you for providing 
VA the opportunity to discuss several VA-related bills 
currently pending in Congress. In this testimony, I will be 
providing views from the Department of Veterans Affairs on 
pending legislation.
    VA supports H.R. 1030, and also supports H.R. 592, if 
amended. We would like to provide technical assistance to 
clarify language in both bills.
    VA has no objection to H.R. 1424, as the National Cemetery 
Administration allows for display of fallen soldier memorials.
    VA does not oppose H.R. 4183, but notes concerns with data 
being available from DoD, and making comparisons between 
military components that have different statutory requirements 
for service.
    VA cites concerns with Section 6(b) of H.R. 1911. This 
section resumes payment of DIC to surviving spouses remarried 
prior to age 57 even prior to enactment. This poses a 
significant administrative burden in identifying and locating 
potential beneficiaries whose names and whereabouts would need 
to be determined.
    VA also cites concerns with the Justice for ALS Veterans 
Act of 2019, as it creates disparity of benefit entitlement 
surviving spouses of veterans who passed away from other 
progressive diseases, such as cancer, in less than the 8-year 
period.
    VA does not support H.R. 4165. The data collection in this 
bill is not necessary for the administration of veterans' 
benefits and adds to the claimant's burden. Further, this bill 
would create a significant administrative hardship, as VA would 
be required to update all application forms to capture this 
data.
    VA does not support H.R. 628. This bill improperly 
conflates the concept of access to claims records with the 
concept of recognizing individuals to act as agents and 
attorneys in the VA benefits claims process. This bill requires 
that VA provide each claimant an opportunity to permit a 
congressional employee access to their records, which are 
stored behind VA's firewall. This is unnecessary, as there are 
long-standing methods for Congress to obtain the consent of a 
VA claimant to disclose information. This bill would provide 
congressional staff with greater access to VA records than is 
provided to VA employees, whose access is limited to only 
records required to perform their duties. In effect, this bill 
exempts congressional staff from all FISMA requirements, which 
would be unprecedented.
    Additionally, VA would need to redesign its systems to 
allow more than one Representative per veteran or claim, which 
would require extensive time, monetary expense, and manpower. 
VA would also have to track and adjust for changes in 
congressional seats to ensure that access is revoked timely and 
to inform veterans of such changes.
    The bill also limits VA from obligating or spending more 
than $10 million for the purposes of this bill. VA estimates 
$145.8 million would be required for implementation. These 
funds and resources could instead be utilized to support other 
system improvements such as automation.
    While VA appreciates the intent of H.R. 4360, VA does not 
support this bill. The provisions of this bill are duplicative 
of recently passed laws. VA concurs that expeditious resolution 
of erroneous reporting is essential; however, VA has already 
implemented robust procedures to do so, and partners with 
various credit agencies to repair credit when an error is 
discovered.
    VA continues to work on standardizing notifications and 
tracking metrics.
    VA has concerns as it relates to reviewing the information 
regarding dependents. In certain situations, it may not be 
appropriate for VA to provide a veteran with information about 
debts incurred by a dependent, such as when Federal tax 
information of dependents is utilized.
    VA is also working on several initiatives designed to 
reduce or eliminate opportunities for overpayments to occur. 
For example, we are utilizing new or existing data-matching 
agreements with other Federal and state agencies.
    Additional overpayment reduction could be achieved if 
Congress were to enact VA's fiscal year 2020 legislative 
proposal, which allows access to FTI for contractors who work 
in VA systems. This will allow VA to continue modernization and 
automation efforts by moving FTI into current systems.
    Finally, VA supports the use of virtual technology to 
enable veterans to participate in their appeals hearings 
without the need for travel to a specific VA hearing location, 
and would also appreciate a minor clarification of existing 
law. However, VA does not support the language in this draft 
bill without amendments.
    As written, the draft language would specifically exclude 
non-disability compensation appeals from the option to conduct 
virtual hearings. This exclusion would be arbitrary, 
complicated, and would not help to serve veterans who are in 
need of these emerging technologies. Ms. Kim McLeod is here 
from the Board to discuss this draft bill and will be happy to 
take your questions.
    VA appreciates Congress' support for our veterans and their 
survivors, and looks forward to working with you and your staff 
to provide any technical support you may request. And I am 
sorry for going over the 5 minutes.

    [The prepared statement of Ronald Burke appears in the 
Appendix]

    Ms. Luria. Thank you, Mr. Burke, for your testimony, and we 
will now begin the question portion of the hearing. I recognize 
myself for 5 minutes. And that was a perfect sequitur, because 
I wanted to ask Ms. McLeod specifically about the draft 
legislation relative to the tele-hearings for VBA processes.
    And, Ms. McLeod, can you speak to the challenges and 
successes you have had with the telehealth pilot, and do you 
think that this program can be easily expanded?
    Ms. McLeod. Thank you for the question this morning.
    So, yes, so far, we have started phase one of the testing 
of virtual hearings or tele-hearings at the Board. We started 
on July 26th and we went through September 30th. During that 
time, we held about 73 virtual hearings.
    What we saw was that for the most part the veterans loved 
it; the veterans service organizations and other private bar 
attorneys also loved it. It allowed our most remote veterans to 
have access to hearings and not have to travel, sometimes hours 
and hours away, to get to a regional office to hold a hearing. 
We have also had several homebound veterans who could not 
travel without going through some extensive hardship to get to 
an RO to have a hearing.
    And so this just opens up the aperture for those veterans 
to have hearings and to really choose how they want to hold 
their hearings with the Board and our judges.
    We believe that once we have the full integration of the IT 
system with our current new caseload system, we will be able to 
offer this as an option, and we believe it is really going to 
allow us to bring down our backlog with virtual hearings.
    Ms. Luria. Well, thank you. And it sounds like it has been 
quite successful as a pilot and we will look to reviewing the 
recommended changes for this legislation, and see what could or 
should be incorporated prior to its introduction.
    I would also like to speak to Mr. Burke specifically about 
H.R. 592, the Protect Vets from Financial Fraud Act, introduced 
by Ms. Brownley.
    Specifically with that legislation, I have a hard time 
understanding why we would protect veterans from fiduciary 
fraud only in the case where the fiduciary serviced ten or more 
veterans. Can you provide a breakdown between the number of 
veterans who have fiduciaries in each group, like how many 
fiduciaries are responsible for ten or more, is that a normal 
circumstance, and how many are responsible for fewer than that?
    Mr. Burke. Yes. Thank you for that question.
    We have about 177,000 veterans that are in the fiduciary 
program with approximately 170,000 distinct fiduciaries. So the 
predominance of the representation is less than ten per 
fiduciary.
    That said, VA does support this bill, with the exception of 
some wording that we would like to work with the Committee on. 
As written right now, we would recommend strongly that the 
language be changed from the date misuse was found to the date 
misuse occurred. If we stick with the wording that exists now, 
we will disadvantage some of those veterans that are served by 
fiduciaries in the very sense that there is a different process 
currently and, if we were to change the wording in the bill 
itself to the date the misuse occurred, it would allow us upon 
enactment of the bill to actually treat veterans the same way 
whether it was the ten count or less than ten.
    Ms. Luria. Thank you. And thank you for those 
recommendations, we will look at that for further incorporation 
and consideration in the bill.
    I now recognize Mr. Bost for 5 minutes.
    Mr. Bost. Thank you, Madam Chair.
    Mr. Burke, just real quickly, in your testimony, though you 
are in agreement with it, you said the 1424 is unnecessary 
because VA has an existing policy that allows for displaying of 
the battlefield cross in VA cemeteries; however, isn't it true 
the VA can change that policy at any time to prohibit those 
monuments?
    And in fact this legislation was prompted by VA's attempt 
in three different cemeteries to remove the memorial, and the 
only reason they went back is because there was a public 
outcry.
    Mr. Burke. Yes, sir. What I would say is you are correct 
that VA does currently have a policy; VA could change the 
policy, we have no intention to; therefore, we have no 
objection to this bill.
    Mr. Bost. Right. Hopefully, for the future, that people 
understand exactly what that monument is and what symbol is.
    So, Ms. McLeod, you touched on this a little bit, but can 
you please give details to what security measures are in place 
to protect veterans' sensitive information from being 
improperly accessed at a Board tele-hearing?
    Ms. McLeod. Well, sure. The Board and the VA currently uses 
for the virtual hearings the same platform that VHA uses for 
the telehealth appointments, and so we follow all of the 
regular IT protocols, standards, and regulations for securing 
our platform. That is very important to us, it has been very 
important to VHA, as they have been using the telehealth 
platform for the last at least 2 years, and we believe their 
privacy on the health side and the medical appointment side is 
as important as the hearing side.
    So that is very important that we maintain the level of 
security for veterans, and so we are following all of the IT 
standards and protocols for that.
    Mr. Bost. Okay. At what point do you think that--let me 
clarify this on what I am asking. At what point do you think 
that we are going to be as comfortable with the teleconference 
as we are sitting face-to-face? Are we to that point already, 
or we have still got some bugs to work out, or not?
    Ms. McLeod. So the only thing we are working out at this 
point is the integration between our new IT scheduling system 
for hearings and the telehealth platform. We were using a 
generation one platform during the testing phase, but our 
generation two is going to be integrated, and we believe at 
that point we will be fully ready, you know, for full 
implementation.
    In fact, great stories of veterans who are either homebound 
or VSOs who, instead of pick up all their veterans and 
traveling 2 hours to the nearest RO, are now holding virtual 
hearings out of their office and they don't have to travel with 
the veterans who sit, you know, waiting patiently, of course, 
all day at the RO 2 hours away from their home.
    So we believe it is a game changer, and veterans and 
veterans service organizations are really looking forward to 
opening virtual hearings at the Board.
    Mr. Bost. Yes, I think everybody is. I hope that we move as 
fast as possible, but make sure that we are secure as possible.
    Ms. McLeod. Absolutely, sir.
    Mr. Bost. Mr. Burke, regarding H.R. 4165, the VA states it 
does not collect private citizens' information on veterans such 
as minority group member status, when VA has no business and no 
need to do so. However, your testimony also mentions the VA 
Minority Veterans Report, which provides a comparison of 
benefits usage among minority and non-minority veterans. Can 
you clarify the information that VBA collects on the minority 
status of veterans?
    Mr. Burke. Yes, sir. Thank you for that question.
    Right now, the data referenced in the testimony is data 
that is collected on a voluntary basis. So the data itself is 
not representative of the aggregate of the veterans that we are 
serving. And so, in order to enact the bill as written, you 
know, our position is that we don't need that information to 
administer the delivery of benefits.
    What we do publish, again, is information that is submitted 
to us or collected on a voluntary basis; there is no mandatory 
collection. And our concern would be that putting out 
information without the total picture, without it having full 
context, may misrepresent the intent of collecting the data to 
begin with.
    Mr. Bost. Thank you.
    With that, Madam Chair, I yield back.
    Ms. Luria. Thank you, Mr. Bost.
    I now recognize Mr. Cisneros for 5 minutes.
    Mr. Cisneros. Thank you, Madam Chairwoman.
    I want to ask you about the Justice for ALS Veterans Act of 
2019, H.R. bill 4748. In the VA's testimony, it states that the 
VA understands the intent of the bill and recognizes the 
important step in caring for surviving spouses. Regarding the 
Justice for ALS Veterans Act, what has been the VA's experience 
in treatment of this aggressive disease?
    Mr. Burke. So, as you said, sir--thank you for the 
question--so, as you said, this is a terribly debilitating and 
progressive disease. This is one that VA takes seriously. But 
with respect to the bill itself, while we support the intent, 
our concern is merely about two points. It is we want to make 
sure that we are not creating disparity between this 
progressive disease and others such as cancer.
    And the other thing, that the bill would need some 
clarification on would just be a clarification in the bill 
itself that talks to whether or not the surviving spouse would 
need to be married for 8 years continuously before. We think 
with the progressive nature of the condition it could be 
problematic if the bill was not clarified on that 8-year 
requirement.
    Mr. Cisneros. In regard to other aggressive diseases, would 
the VA support legislation that included other aggressive 
diseases such as cancer, as you mentioned?
    Mr. Burke. Again, on this specific one we are supportive of 
the ALS, except for the fact that it seems to draw a disparity 
between other conditions, and we would like to see all the 
progressive conditions treated in a similar manner.
    Mr. Cisneros. And so, if the disparity was removed, the VA 
would support that type of legislation?
    Mr. Burke. Yes, sir.
    Mr. Cisneros. All right. And in regard to the spouse, you 
know, being married, if that clarification was made more clear, 
would the VA also continue to support the legislation?
    Mr. Burke. Yes, sir. We think without clarifying the 8-year 
requirement it could be problematic and actually go against the 
intent of the proposed legislation.
    Mr. Cisneros. All right. With that, I yield back my time.
    Ms. Luria. Thank you, Mr. Cisneros.
    Mr. Sablan, you are now recognized for 5 minutes.
    Mr. Sablan. Thank you. Thank you.
    Mr. Burke, again, I will come back to you. Do you know how 
many veterans are under fiduciary care in the Northern Mariana 
Islands?
    Mr. Burke. I would like to take that one for the record. I 
have overarching aggregate numbers, but not specifically for 
the areas--
    Mr. Sablan. Okay. So--
    Mr. Burke [continued]. --you are referencing, but we can 
get that.
    Mr. Sablan [continued]. --when you do that, could you also 
please tell me what kind of systems are in place to protect 
veterans, both in the inconus [phonetic] as they call it or in 
the mainland and in the territories?
    Mr. Burke. Yes, sir. And I can speak to that briefly now. 
And we will certainly follow up with the specific information 
about your area so we can get you those numbers.
    What I will tell you is that we have a very aggressive 
approach to treating allegations of misuse in our fiduciary 
program. We have steps in place to ensure that we are quick in 
removing a fiduciary and reappointing when misuse is determined 
and found. We have processes in place that would allow us to 
reimburse any money that was misused by a fiduciary.
    In fact, when a fiduciary currently that has 10 or more 
individuals is alleged of misuse, not only will we look at the 
misuse for the individual that was, you know, that raised the 
alarm, but for all veterans under that fiduciary's care.
    In fact, we do that whether the fiduciary has 1 under their 
care or none. So we do have a misuse process. We do internal 
investigative steps to ensure that we are reappointing a solid, 
dependable, reliable, trustworthy fiduciary and restoring 
benefits--
    Mr. Sablan. Okay. And that's--
    Mr. Burke [continued]. --with the--
    Mr. Sablan [continued]. --standard throughout the country?
    Mr. Burke. Yes, sir. That is correct.
    Mr. Sablan. Thank you.
    Mr. Burke. Yes, sir.
    Mr. Sablan. Madam Chair, I yield back.
    Ms. Luria. Thank you, Mr. Sablan.
    I would like thank Mr. Burke and Ms. McLeod for your 
testimony today. And we will move onto the third panel.
    [Pause]
    Ms. Luria. And while the third panel takes their seat, I 
will go ahead and make introductions.
    Appearing before us today is Shane Liermann, Assistant 
National Legislative Director of the Disabled American 
Veterans. We also have Mr. Brian Dempsey, Government Affairs 
Director of the Wounded Warrior Project, as well as Patrick 
Murray, Deputy Director at the Veterans of Foreign Wars, and 
finally Ashlynne Haycock, Deputy Director of Policy and 
Legislation at the Tragedy Assistance Program for Survivors.
    Thank you all for joining us today.
    [Pause]
    Ms. Luria. Mr. Liermann, I will recognize you first for 5 
minutes.

                  STATEMENT OF SHANE LIERMANN

    Mr. Liermann. Thank you.
    Chairwoman Luria, Ranking Member Bost and Members of the 
Subcommittee, on behalf of DAV's more than 1 million members, 
we thank you for the opportunity to present our views at 
today's legislative hearing.
    Our written testimony addresses all of the bills and 
discussion drafts. However, my oral remarks will highlight just 
a few of these.
    Madam Chair, dependency and indemnity compensation or DIC 
is paid to surviving spouses when a veteran's death is 
determined to be service-connected. An additional DIC monthly 
payment, currently $280, is paid when a veteran was 100 percent 
disabled for 8 consecutive months prior to death. This is 
commonly referred to as the DIC kicker.
    H.R. 4748, the Justice for ALS Veterans Act of 2019 would 
extend the DIC kicker to surviving spouses of veterans who died 
from ALS regardless of how long the veteran was service-
connected for the condition prior to death.
    VA regulations recognize ALS as a presumptive service-
connected disease and due to its progressive nature is 
automatically rated at 100 percent disabling once service-
connection is granted. ALS is a completely consuming disease 
process, eventually taking away the ability to walk, dress, 
write, speak, swallow and even breath. The average life 
expectancy for a person with ALS is 2 to 5 years.
    DAV supports H.R. 4748 as it will extend the DIC kicker to 
survivors of veterans who cause of death is ALS. The 
aggressiveness of ALS leaves many veterans totally 
incapacitated and reliant on family members and care givers, 
and even in the best scenarios generally does not allow life 
expectancy past 8 years.
    Madam Chair, currently there are approximately 60,000 
pending hearings before the Board of Veterans' Appeals. We are 
concerned about this backlog of hearings and the time it adds 
to the overall appeals process. The Appeals Modernization Act 
changed statutory requirements for the appeals process which 
provides only 2 options for a hearing before the board: 1, a 
hearing in person at the Board of Veterans' Appeals; and, 2, a 
video conference hearing at a VA facility where the secretary 
has provided a suitable location and equipment to conduct such 
hearings.
    Recently, the board established a pilot program that 
provides appellants the opportunity to attend a video 
conference hearing from any location rather than traveling to 
their local VA regional office or another VA location that has 
suitable facilities.
    In September the board pilot program reported an attendance 
rate of over 65 percent, which is roughly an increase of 15 
percent over the usual hearing attendance rate. The board noted 
that a video hearing was conducted for a paralyzed veteran from 
their own home, so the veteran did not have to travel 175 miles 
to attend a video hearing at the St. Petersburg VA Regional 
Office.
    This legislation would amend the statute to allow 
appellants to have a video hearing at a location selected by 
the appellant via a secure internet platform established and 
maintained by the VA. DAV would support legislation that 
provides an additional option for video hearings as this would 
increase the efficiency and timeliness of the appeals process.
    DAV, however, would recommend, as has been noted, an 
amendment to the draft to allow all appeals before the board to 
have this additional option.
    In reference to H.R. 628, the Wingman Act, DAV does not 
have a resolution on this bill and does not support or oppose 
the legislation. We recommend that covered congressional 
employees be provided training, VA accreditation or similar 
certification and have safeguards in place to ensure that a 
veteran can be made whole in any instance of unintended harm. 
VSOs, agents, and attorneys are required to complete VA 
mandated training and become accredited in order to be 
recognized by VA as being capable of assisting claimants with 
their affairs before VA. Covered congressional employees should 
meet the same standards of required VA training and 
accreditation. This will provide an increased knowledge of VA 
processes and provide accountability.
    If a covered congressional employee provides information, 
advice or their lack of timely action causes financial harm to 
a veteran or a claimant, a process should be in place to ensure 
the veteran will be made financially whole.
    Madam Chair, this concludes my testimony. I would be 
pleased to answer any questions you or Members or the 
Subcommittee may have.

    [The prepared statement of Shane Liermann appears in the 
Appendix]

    Ms. Luria. Thank you, Mr. Liermann.
    Mr. Dempsey, you are now recognized for 5 minutes.

                   STATEMENT OF BRIAN DEMPSEY

    Mr. Dempsey. Thank you.
    Good morning, Chair Luria, Ranking Member Bost, and 
distinguished Subcommittee Members. Thank you for the 
opportunity to testify at today's hearing and offer Wounded 
Warrior Project's views on legislation under your 
consideration.
    My name is Brian Dempsey and I have the privilege of 
representing Wounded Warrior Project as a government affairs 
director here in our Washington, D.C. office, and my testimony 
is informed by thousands of engagements with warriors across 
the country and overseas who have used programs and services 
delivered by our team and partners.
    The written testimony you have received reflects Wounded 
Warrior Project's views on each of the bills before you, but 
for today's hearing I will focus on 3 that we believe are most 
aligned with the way our organization is serving the community.
    First, we are pleased to support H.R. 592, the Protect 
Veterans From Financial Fraud Act and what it proposes to do 
for veterans who need a heightened degree of support to manage 
their financial affairs.
    Our organization's independence program helps warriors with 
high needs navigate public and private support programs to help 
them achieve meaningful levels of activity, purpose and 
independence in their daily lives. Many in this program can 
attest that the fiduciary program has been successful in 
helping them manage the money they receive from VA.
    However, we know that some veterans enrolled in this VA 
program have been the victim of fiduciaries who have taken 
advantage of positions of trust to personally benefit at their 
veteran's expense. The Protect Veterans From Financial Fraud 
Act would remove an arbitrary barrier that currently limits 
some veterans from recouping lost benefits as a result of fraud 
and abuse, and we believe provides a necessary and overdue 
improvement to a system that must work as efficiently as 
possible for the most vulnerable warriors.
    Wounded Warrior Project is also pleased to support H.R. 
4183, the Identifying Barriers and Best Practices Study Act. 
Our benefits services officers would share that some of the 
largest barriers to supporting National Guardsmen, reservists 
and even some special operations personnel who suffered 
injuries and illnesses in combat are poor injury reporting 
procedures and challenges with retention and accountability of 
their service records. These shortcomings create a variety of 
obstacles for VSOs to help them file for their disability 
benefits.
    As an example, a Missouri veteran struggling with 
homelessness recently reached out to Wounded Warrior Project 
for assistance, including help with securing VA disability 
benefits. In 2004, this veteran was assigned to an air guard 
unit out of Kansas, tasked with flying injured and killed in 
action soldiers out of the middle east to Germany and 
subsequently stateside. He discharged in 2005 and his unit 
reports that there are no records of the flights in which he 
participated nor can they find his records.
    He was subsequently diagnosed with PTSD and major 
depressive disorder, but due to lost records he has been 
unsuccessful in establishing service-connection after multiple 
attempts. He has lost his house, his family, he is now 
divorced, and still resides in a homeless shelter in Kansas 
City, Missouri, where fortunately Wounded Warrior Project staff 
have been working diligently to help him secure compensation 
for his injuries.
    While the Identifying Barriers and Best Practices Study Act 
may not provide immediate relief to veterans like this, we 
believe the bill would help validate many of the anecdotal 
stories we can share from the field, and we would be pleased to 
hear GAO recommendations for how to improve the care and 
benefit system for those who are struggling to achieve outcomes 
that match their sacrifices.
    Finally, Wounded Warrior Project is pleased to support H.R. 
4360, the VA Overpayment Accountability Act. One of the 
benefits of being a VSO is having the ability to work with VA 
systems such as the Veterans Benefits Management System and VA 
Share Platform that allow us to monitor our veterans' claims 
file for adverse actions that could negatively impact the 
warriors we serve.
    One of those actions is debt recoupments that most veterans 
aren't even aware they are responsible for. There is not enough 
information or transparency from VA to help veterans understand 
their duties in scenarios like these.
    Unfortunately, not every veteran will benefit from the 
vigilance of a VSO or personally track their responsibility for 
follow up when VA makes an erroneous overpayment. We believe 
this bill can mitigate the associated risks.
    Over a third of the post-9/11 wounded, ill and injured 
warriors who registered with Wounded Warrior Project carry more 
than $20,000 in debt, excluding mortgages, and when the domino 
effect of inaction begins to harm their credit or when VA 
withholds payment that they depend on, trouble can manifest in 
many ways.
    Our organization recognizes that physical and mental health 
are often built from the foundation that includes financial 
security, and we believe the VA Overpayment Accountability Act 
would correct shortcomings in the benefit system that place 
veterans at unnecessary risk.
    While further improvements to the system can still be made, 
such as policies to address the burden of debt repayment when 
it becomes necessary, we are pleased to support this bill and 
the steps it takes to protect veterans' credit.
    In closing, I wish to express Wounded Warrior Project's 
support for other initiatives being considered by the 
Subcommittee today, including those that take care to address 
issues being faced by women veterans, minority veterans, and 
veteran families. Our statement for the record reflects more 
thoughts on these bills, but we are pleased that others on 
today's panel can speak to the merits of these important pieces 
of legislation.
    We appreciate the opportunity to testify and we thank you 
for allowing us to be part of this very important work as we 
care for and serve those who have served our Nation.
    Thank you.

    [The prepared statement of Brian Dempsey appears in the 
Appendix]

    Ms. Luria. Thank you, Mr. Dempsey.
    I now recognize Mr. Murray for 5 minutes.

                  STATEMENT OF PATRICK MURRAY

    Mr. Murray. Chairwoman Luria, Ranking Member Bost, and 
Members of the Subcommittee, on behalf of the VFW thank you for 
the opportunity to testify on legislation pending before the 
Subcommittee.
    The VFW supports the VA Overpayment Accountability Act and 
has some recommendations to improve it. This legislation would 
improve VA's debt collection process, limit the authority of VA 
to recover overpayments caused by its own errors, and improve 
due process.
    Many veterans who were never indebted to VA have had 
erroneous information submitted to consumer reporting agencies 
due to VA's mistakes. It is unconscionable for a veteran to 
receive a negative credit rating as a result of VA's error.
    According, the VFW supports legislation that requires VA to 
implement safeguards to prevent the submission of false 
information and to make corrections in a timely manner.
    Furthermore, the VA was pleased to review and offer 
feedback in the crafting of new, more simply worded letters of 
potential VA debts. We also request that VA collaborate with 
and inform VSOs regarding any updates to the standardized 
format of debt letters.
    Due process requires that debt notices following 
overpayments are clear and provide concise information about 
the steps a veteran must take in order to resolve any 
outstanding debts.
    The VFW also urges this Subcommittee to incorporate 
provisions that would grant additional safeguards and more 
flexibility within the debt repayment system.
    The VFW supports the Protect Veterans From Financial Fraud 
Act of 2019. This legislation would ensure that VA repays the 
misused benefits of veterans with fiduciaries. This is a 
commonsense bill that protects our most vulnerable veterans. 
Individuals assigned to help a fiduciary--individuals assigned 
a fiduciary need help and financial protection. And anyone who 
mistreats, preys upon or otherwise causes them harm must be 
held accountable and full restitution must be made.
    Abusing the health and financial welfare of veterans in 
need must be punishable by law. Therefore, the VFW recommends 
imposing criminal and financial penalties on individuals found 
to prey upon veterans for personal gain.
    The VFW supports the Identifying Barriers and Best 
Practices Study Act and has a few recommendations to improve 
it. This legislation will require the GAO to conduct a study on 
VA disability and pension benefits provided to members of the 
National Guard and Reserves.
    In the years since the terrorist attacks of September 11th, 
2001, the Guard and Reserve have faithfully answered the call 
to service. DoD has increasingly relied upon these components 
for missions at home and overseas.
    Unfortunately, these servicemembers face unique challenges 
when applying for VA benefits. Guard and Reserve members 
frequently have trouble obtaining medical records which tend to 
be scattered and incomplete. VA disproportionally denies 
reservists and guardsmen benefits because they can't establish 
a condition that is service-connected.
    The VFW recommends this Subcommittee authorize a study on 
benefits provided to members of the Guard and Reserve for the 
entirety of the global war on terror, not just the 10 year 
period.
    Furthermore, the VFW encourages the Subcommittee to require 
VA to keep this data tracking as an ongoing analysis during the 
application and enrollment for benefits, not just simply for a 
specified amount of time.
    Additionally, the VFW supports the Improving Benefits for 
Underserved Veterans Act to further identify disparities in 
usage of VA benefits. This legislation would assist VA in 
ensuring that all veterans use the benefits to which they're 
entitled, and that access to health care and outcomes remain 
consistent across all demographics.
    Additional knowledge about the VA population and who is 
using care and benefits will help identify where gaps occur and 
where resources can be targeted.
    The VFW supports the draft legislation to permit appellants 
to appear in disability compensation cases before the Board of 
veteran Appeals by picture and voice from locations other than 
VA facilities.
    Emerging VA programs such as Telehealth and Project Atlas 
already utilize similar remote technology and veterans have 
found these programs incredibly convenient. This legislation 
would undoubtedly improve access for veteran appellants and 
would permit a greater number of veterans to attend their own 
hearings.
    Now the VFW thinks this is an important provision, but 
urges the Subcommittee to ensure that adequate internet 
security measures are implemented to prevent data breaches and 
safeguard sensitive information.
    Finally, the VFW supports the Veterans' Spouse Equal 
Treatment Act. The VFW believes that all veterans and their 
families deserve to be treated with dignity and respect, and 
the statutory language of Title 38 should be updated to conform 
to recent Supreme Court decisions.
    Chairwoman Luria, Ranking Member Bost, Members of the 
Subcommittee, this concludes my testimony. I would be more than 
happy to answer any questions that you or any of the Members 
may have.
    Thank you.

    [The prepared statement of Patrick Murray appears in the 
Appendix]

    Ms. Luria. Thank you, Mr. Murray.
    I now recognize Ms. Haycock for 5 minutes.

                 STATEMENT OF ASHLYNNE HAYCOCK

    Ms. Haycock. Chairwoman Luria, Ranking Member Bost, and 
distinguished Committee Members, thank you for the opportunity 
to speak on behalf of the surviving families of our Nation's 
fallen heroes.
    Ending the penalty on remarriage for surviving military 
spouses is one of the top legislative priorities for TAPS. We 
are incredibly thankful to Representatives Waltz, Moulton and 
Bacon for bringing it to the forefront this year. Preventing 
surviving spouses from maintaining benefits upon remarriage 
prevents them from being able to fully move forward with their 
lives and maintain financial security for themselves and their 
families. Many have children to consider and so commit to long-
term relationships or engagements instead of legally 
remarrying.
    The average age of a military widow in the post 9/11 era is 
25. They should not have to wait 32 years to legally remarry.
    Under current law, surviving spouses can legally remarry at 
age 57 and maintain all benefits except health care. If they 
choose to remarry after 57, they are no longer subjected to the 
SBP-DIC offset or widow's tax and receive both benefits in 
full. The age 57 is arbitrary and leaves spouses waiting for 
years or decades to legally remarry.
    In one case, a surviving spouse who asked to remain 
anonymous was widowed in her 30s with young children. In her 
mid-40s she met her second chance who was also an Army 
Lieutenant Colonel. After a couple of years, they got engaged, 
but still have 7 more years before they actually get married. 
Her fiance believes that taking her benefits away is 
disregarding her late husband's sacrifice and his nearly 20 
years of service.
    She also asked me to make the Committee aware of his 
situation. He got married while on leave from Afghanistan many 
years ago. They had 2 children and were only married for 4 
years. When it came time to PCS, she filed for divorce as she 
did not want to leave her home. He served well over 20 years. 
She receives 12 percent of his retired Lieutenant Colonel's 
pension for life, even if she remarries.
    In this case we hold former spouses in higher regards than 
we do those who have made the ultimate sacrifice. Many military 
spouses wanted to share their story with us, but asked to 
remain anonymous because in addition to the remarriage penalty, 
there's also a Federal statute that prevents them from holding 
themselves out to be married. The clause is incredibly vague 
and arguably VA could take away their benefits because they co-
habitats.
    While very few people have actually lost benefits due to 
this clause, surviving military spouses in long-term 
relationships live in fear of being investigated because 
someone turned them in for holding themselves out to be 
married. The clause and Federal statute should be removed 
because, honestly, it's archaic.
    TAPS also believes that several other provisions should be 
considered as well so as to fully restore benefits for 
remarried spouses. TAPS would like to see surviving military 
spouses able to retain education benefits upon remarriage. The 
Fry scholarship is one of the most important benefits we have 
given surviving spouses.
    Education benefits provide surviving spouses additional 
financial freedom. As we know, military spouses are one of the 
most unemployed and underemployed populations. Due to frequent 
moves, careers become difficult to maintain and it's almost 
impossible to fully vest in their own retirement, which is why 
the SBP benefit is so important.
    After the death of their servicemember, many choose to 
follow their own dreams and pursue a career such as going into 
mental health, teaching or nursing. Just because they find love 
again does not mean they should not be afforded the same 
economic opportunities. We have seen time and time again the 
importance of our investment into the GI Bill and this should 
be no different.
    In addition, it is not just financial benefits that 
survivors lose upon remarriage. It's access to all of the 
abilities to be their children's guardians in the eyes of DoD 
and Tricare. They do not have access to any Tricare records or 
referrals.
    The story of Kaanan Mackey-Fugler, whose husband died in 
2010 and who legally remarried in 2017 illustrates this point. 
She was fine with giving up the financial benefits, but never 
thought it would jeopardize her ability to take care of her 
children.
    In June 2018, her youngest daughter, Hannah, was 
hospitalized after having flu like symptoms and losing 20 
pounds in 2 weeks. She was only 9 years old at the time. She 
was diagnosed with Type 1 Diabetes. Tricare needed new HIPPA 
forms every time they talked to Kaanan because they did not 
view her as her child's legal guardian. Kaanan tried to change 
her daughter's primary care doctor in the system only to learn 
she no longer had access to it. She had to physically mail 
forms as she no longer had electronic access to her children's 
Tricare.
    Minor children do not have their own accounts and Kaanan 
does not have an account because she's no longer in DEERS. As 
her daughter obviously has a long-term debilitating condition 
and needs a lot of medical care, yet she cannot help her child 
and has to wait weeks for referrals instead of being able to do 
it electronically. Just because she has remarried does not make 
her any less her children's only living parent.
    TAPS request the Committee pass legislation that would end 
the hold yourself out to be married clause, reinstate education 
benefits for remarried spouses, and restore access to 
electronic medical records for those who are guardians of minor 
children in addition torestoring the SBP and DIC for remarried 
spouses.
    Thank you for the opportunity to be here today, and I look 
forward to answering any questions you may have.

    [The prepared statement of Ashlynne Haycock appears in the 
Appendix]

    Ms. Luria. Thank you, Ms. Haycock, and thank you to all of 
the witnesses for being here today.
    I will now move on to the question portion of the hearing, 
and I recognize myself for 5 minutes for questions.
    The first question for Mr. Dempsey and Mr. Murray as you 
both discussed this in your testimony. Can you provide an 
example of how the VA might provide erroneous or derogatory 
information to a consumer reporting agency due to their own 
error? And do you believe that negative credit reporting might 
produce extreme hardship, especially for lower income veterans?
    Mr. Murray. Ma'am, the credit reporting that is erroneously 
done causes years of sometimes financial hardship that if 
anybody who has had to do it knows it is a pretty burdensome 
process to chase those down and get the appropriate records. 
Having VA assist in that as actively as they can is something 
that can help ease that burden for veterans. Doing it on your 
own is a tough process.
    We recommend in this legislation adding some flexibility of 
kind of preventing VA from automatically reporting if the 
overpayment is under dispute, some flexibility so that there's 
a little bit of time for the veteran who may have had that 
erroneous overpayment notification to put a hold on that while 
the situation gets adjudicated before it gets sent to the 
reporting companies.
    Ms. Luria. And I think that you also made some 
recommendations specifically about the notification process to 
veterans so that they were better informed and could more 
clearly understand the debt to the VA. Can you comment on that?
    Mr. Murray. Yes, ma'am. We do thank VA that we were allowed 
as a collaborative effort to help to clarify the debt 
notification process. We hope that it can always improve so 
that clear and concise notification about what is owed and why 
that overpayment might have been made, the processes for 
rectifying that, maybe a payment plan or, you know, what steps 
need to be taken, those are things that we think is vitally 
important so that it's not as simple of a notification that 
they receive that is too confusing.
    Ms. Luria. Thank you and thanks for your work on that.
    Mr. Dempsey, did you have more to add?
    Mr. Dempsey. Only a minor bit. I would share many of Mr. 
Murray's comments as well. And, you know, to the point of 
improving the process of notifying a veteran, I would say that 
the typical process typically relies on regular mail these 
days. There's typically not a phone call, e-mail, and mail 
typically goes to the last known address which as we know 
veterans, like others, move around, and given the short window 
of time that this typically takes place relying on an older 
mail system, you know, would require an improvement. But I 
would obviously commend VA for efforts that they're already 
undertaking to improve the process.
    Ms. Luria. So on that, can you comment on the e-notice that 
is outlined in the bill?
    Mr. Dempsey. I can't specifically recall what the text of 
the bill says, but I would support, you know, initiatives to 
improve information technology systems that would support the 
process.
    Ms. Luria. Thank you.
    Mr. Murray, again, in your written testimony you mentioned 
that the Wingman Act does not adequately safeguard veterans' 
privacy. Can you describe the potential impact on veterans' 
privacy if the appropriate privacy controls are not put in 
place if this act were to be implemented?
    Mr. Murray. Absolutely.
    So the VFW accredits about 2500 veteran service officers 
across the country, and our collective organizations it's 
thousands. And they go through rigorous training with privacy 
safeguards in place so that, you know, something that a lay 
person might not recognize is a disclosure of sensitive 
information without training, without just the knowledge of 
what it is they're actually looking at. While it sounds like 
something that's a very easy, let me just look up your file and 
tell you where it's at, you are actually looking at someone's 
medical information. Without the proper training and just even 
letting them know what you can and can't say to your office 
mates or your, you know, your boss, whatever it might be, 
things like that could disclose information that the patient 
might not want even if they did ask you to look at their file.
    We recommend that while this sounds like a great idea, a 
little bit of training would make it even better so that 
everybody's collective staffs would know exactly what they're 
doing so that they aren't harming themselves or the patient 
they are looking after.
    Ms. Luria. Thank you.
    And Mr. Liermann, I believe you also mentioned this in your 
written testimony. Do you have any additional feedback on the 
Wingman Act and whether it would be helpful or potentially 
harmful to the privacy of veterans?
    Mr. Liermann. Thank you.
    Not so much as interest to the privacy of the veteran, more 
of we want to make sure that veterans and their claimants would 
have certain safeguards or protections.
    So, as Mr. Murray said, training really is a bit part of 
this. We want to make sure if this does move forward they are 
provided the same level and types of trainings that VSOs, 
attorneys and claims agents are so, 1, not only do they 
understand privacy issues, but more importantly, they 
understand exactly what it is they are looking at because it is 
not as simple as just opening up VBMS and knowing the status. 
You really have to understand what has been submitted, the 
process, where it is.
    So we just want to make sure that if this does move 
forward, adequate training is provided just to make sure they 
are not providing any information or misinformation that may 
harm a veteran.
    Ms. Luria. Thank you. And I believe I'm out of time for 
this round. So I will pass it to Mr. Bost for 5 minutes of 
questioning.
    Mr. Bost. Thank you, Chair.
    My first question is for Ms. Haycock. Does TAPS have any 
recommendations for the way that H.R. 1911 could be amended to 
better serve surviving family members?
    Ms. Haycock. Sure. So because parts of the bill do fall 
under DoD we know that some of the health care provisions that 
we recommend as far as access to records would fall under them, 
we do believe that they could also include a provision to allow 
surviving spouses to co-habitate, so removing the hold yourself 
out to be remarried clause, as well as including provisions to 
allow surviving spouses to maintain education benefits upon 
remarriage.
    Mr. Bost. Okay. So the next question I have is for the 
whole panel.
    Can you each describe the extent to which that your 
organization received any consultation prior to the roll out of 
the board's telehearing program? And then also any suggestions 
you might have for the roll out that might even improve it or 
speed the process up.
    Mr. Liermann, I guess you can--
    Mr. Liermann. Oh, thank you.
    Yes. DAV was invited and provided all of that information 
before it was rolled out. We have an office at the Board of 
Veterans' Appeals, our national appeals office, and they were 
involved from day one with the process, understood it. They 
have participated in several of these hearings. And we are 
getting positive feedback from our office that it is being very 
effective, especially as has been noted for veterans who have 
limited access to VA facilities due to distance or their 
disabilities.
    Mr. Bost. Okay. Mr. Dempsey.
    Mr. Dempsey. At the risk of, you know, misstating the 
amount of engagement that Wounded Warrior Project receives, I 
can't, you know, determine whether or not we were engaged at 
that stage. But what I would say is that the majority of 
assistance we are providing with veterans is at the pre-board 
of appeals stage, Board of Veterans' Appeal stage. So I would 
limit it to that for now.
    Mr. Murray. Sir, the VFW also has an office at the Board of 
Veterans' Appeals, and much like my colleagues said, we were 
involved in some of the initial origins of this. And we would 
encourage to expand this for rural and veterans effected by 
distance and their disabilities to every extent practical.
    Mr. Bost. You probably weren't affected, so that--yeah.
    So, okay. Now I have got a question also on the Wingman 
Act. The reason I am asking this is, is you are not opposed to 
the legislative office having the ability. You are just 
requesting that some education goes along with it; is that 
correct?
    Mr. Murray. Sir, recently we went out to Montana where one 
of the initial Project Atlas sites is and worked with center 
tester staff and went through a modified training course so 
that his staff knew exactly how to handle constituents and 
cases like this.
    We would be more than happy to provide some kind of a 
framework for training. It is really--we don't want just the 
average lay person to be able to open up someone's file and 
provide the wrong information and send a veteran off to the 
wrong place. Training and education would make that something 
that we could get behind.
    Mr. Liermann. And you are correct. We do not oppose the 
legislation, but training really is the big key. Personally, 
having represented veterans for 21 years, there is a lot of 
information contained within the file. You really need to 
understand not only what you are reading, but what you are 
relaying because some of the information you relay or the 
advice you give could actually be detrimental.
    So we just want to make sure that there is a lot of 
training and even possibly an accreditation or certification 
process that holds some accountability for them so that way we 
all know they are trained, they are educated, and they are 
providing good service to veterans.
    Mr. Bost. Mr. Dempsey.
    Mr. Dempsey. Yes. I would echo a lot of the statements of 
my colleagues here at the table, while adding that we clearly 
support the intent of providing the best possible constituent 
services for veterans and non-veterans alike, and that our 
reservations about the bill are mostly focused just on training 
and staff turnover for organizations that have VSO service 
officers across the country. There is a lot more capacity to 
absorb any staff turnover or ensure that, you know, anyone 
representing a veteran is adequately trained.
    And while I have no doubt that several member offices would 
be able to provide great service through covered congressional 
staff in the event that there is turnover or just, you know, 
staff that may not be as good at the job they have been 
expected to perform, just that, you know, the Wingman Act may, 
you know, provide help and support for many, but maybe at the 
possible exposure of risk in other situations.
    Mr. Bost. And I appreciate that. And my time is expired, 
but I want to just quickly say that my--I guess I am blessed 
better than most because my 2 case workers that work are both 
themselves disabled veterans and were VSOs as well. And I have 
watched, and it is kind of like when you come to this place, 
the acronyms that flow out and you have got to know what those 
acronyms are and--because sometimes I have to slow them down 
and say, okay, now give me the full word, so.
    But thank you. I yield back.
    Ms. Luria. Thank you, Ranking Member Bost.
    I now recognize Mr. Sablan for 5 minutes.
    Mr. Sablan. Yeah. Thank you very much to all of you for 
what you do for our veterans.
    Mr. Murray, VFW is the only VSO we have in the Northern 
Mariana's, and while they are organized, they are probably 
loosely organized. I stand to be corrected. But I think while 
they do provide help to other veterans, no one in the 
organization has actually received formal training on how to 
help veterans on the different aspects of a case that they may 
have.
    And having said that, I had a wounded warrior fellow in the 
office, but I don't--I doubt also that that fellow was given 
enough training to handle complex veterans' cases. But I will 
reach out to someone in the VA for more training for my veteran 
case worker.
    Mr. Liermann, my goodness, no one could say better, explain 
better how sad and difficult it is for someone who has ALS to 
say their remaining life span they have, and it is unfortunate 
for those that are service-connected. But I understand. Thank 
you also for your service.
    So as you know veterans who serve in the reserve unit 
report having harder times getting their disability benefits. I 
will tell you from personal experience, sir, that at my request 
the only record the Army had of my service was the 3 days I had 
at Fort Jackson in processing. I never served basic in AIT. I 
never served weekend trainings. I never served the annual 
trainings, although I was in the local legislature and I missed 
2 annual trainings because we are in the appropriation process 
during the summers.
    But do you think that Mr. Connor's [phonetic] view of the 
Identifying Barriers and Best Practices Study Act is helpful to 
better evaluate the hurdles that many of the veteran's face?
    Mr. Liermann. I think it will be helpful in potentially 
addressing the different MOSs and different types of military 
jobs versus their types of disabilities. Yes.
    As far as identifying barriers between active duty and 
reserve or guard, we are pretty confident we already know there 
is a big difference because the was regarding service-
connection for both of those is completely different. So we 
already know there is going to be a difference noted in the 
report if you compare somebody who solely was in the guard or 
reserves for inactive duty or active duty for training, but 
never went on active duty versus someone who spent their entire 
enlistment or career on active duty. So there will be a 
difference noted in that type of a comparison.
    Mr. Sablan. All right, which is why I tell many of our 
reservists who get deployed or our National Guard who get 
deployed that don't sign that piece of paper getting 
deactivated unless you think that all of your health conditions 
have been addressed by the Department of Defense because once 
you sign that paper and you move towards the VA, it is a whole 
new world out there.
    And so let me ask anybody who may have, I don't have very 
much time, but I know how impactful VA debt can be for veterans 
and how long it takes for the VA to correct it.
    So can you tell me in a few words how important it is for 
the VA to get debt management actions and corrections right, 
please?
    Mr. Liermann. Oh, absolutely. It's a big issue. And part of 
the--one of the biggest issues, and we testified at a hearing 
about this a few weeks ago, the way they notify a veteran is 
extremely confusing or the person who has the debt. First, they 
send out a letter from the VA Regional Office of Jurisdiction 
advising that there may have been an overpayment made without a 
lot of specific information.
    Then 30, 60 or 90 days later, they may get a debt letter 
from the debt management center telling them you owe us 
$10,000, and if you don't start paying it now, we are going to 
take what you have.
    So I think a lot of the process that gets really confusing 
is all of the information required isn't in one notice and it 
is not easily given to them as was mentioned via email or even 
through e-benefits.
    Mr. Sablan. I don't have too much time left. Anybody want 
to take a quick stab? No? All right. That is fine. Well, thank 
you, everyone, for being here today.
    And how do I get my records besides--more than the 3 days 
that I have got? Do you have any idea?
    Mr. Dempsey. I would be happy to work with you and--
    Mr. Sablan. Yeah.
    Mr. Dempsey [continued]. --connect you with folks on our 
board--
    Mr. Sablan. It took me a long time to get it. I finally got 
it from Kansas or Louisville or someplace. But it is--that is 
all they have.
    Mr. Dempsey. I would--
    Mr. Sablan. I never actually in any of the training that I 
participated in.
    Mr. Dempsey. Sir, I would be happy to follow up with you.
    Mr. Sablan. Thank you.
    I yield back, Madam Chair.
    Ms. Luria. Thank you, Mr. Sablan.
    We can continue with a second round of questions. So, Mr. 
Sablan, if you have more questions, we will get back to you in 
a few minutes.
    Okay. So, Ms. Haycock, I wanted to recognize that you are 
the surviving daughter of Army Sergeant First Class Jeffrey and 
Air Force Senior Airman Nicole Haycock, and thank you for your 
willingness to testify today and the work that you do to assist 
survivors.
    So you have mentioned several issues, and thank you for 
bringing up some that I was not aware of and that we will 
continue to investigate, you know, how we can make a remedy to 
some of these policies that seem inequitable, especially about 
remarriage of surviving spouses.
    Just if you could take a minute today, can you talk about 
what is the most common thing that you are hearing from 
surviving spouses, you know, amongst we have talked about SBP-
DIC offset, the specific remarriage clauses, but, you know, can 
you just take a few minutes to talk about, you know, what's the 
most pressing issue that you hear today from surviving spouses?
    Ms. Haycock. The widow's tax far and away is the number 1 
priority for TAPS and several other organizations. It has been 
an 18-year fight. My mom was actually on the government 
relations committee for Gold Star Wives for many years before 
she passed herself. So I have been fighting this fight since I 
was 10 years old.
    It is a huge priority for us, and it became even more 
crucial this year when there were the changes to the tax laws 
that caused the kiddie tax issue. And the kiddie tax issue, 
which of course put surviving children in a over 30 percent tax 
bracket this year, mostly--so not all surviving families would 
be made whole by ending the widow's tax, but a bulk would 
because the child option only exists to help families with 
minor children who were offset.
    So there would still be families, especially those with 
remarried spouses or those who were never married who would 
still be subjected to the kiddie tax if we don't fix both. But 
those are the two big bills that we have been really pushing in 
this space. They are long overdue. And we know that the kiddie 
tax was an unintended consequence, but we look forward to 
seeing it get done this year.
    Ms. Luria. Well, I appreciate that feedback. And, you know, 
as mentioned earlier when we discussed these, the current NDAA 
does fix the SBP-DIC offset and we are working very hard to fix 
the kiddie tax issue. I introduced a bill, H.R. 2481 which was 
incorporated in the Secure Act which passed almost unanimously 
in the House and we are waiting for the Senate to look at that 
bill and hopefully move that forward. And they have also 
considered separate legislation.
    So we are working very hard to close the loop on that and 
make sure that we get that across the finish line because I 
have had groups of surviving spouses, a group of widows in 
Virginia Beach who sat down and came to me and said, why are my 
taxes more, and I know that we have to fix this.
    And so thank you for continuing to be such a strong 
advocate for all of the families and the children who are 
affected by this. And we look forward to continuing to work 
with you to remedy these things that we think should be 
corrected.
    So thank you for being here.
    With that, I am complete with my questions.
    Mr. Bost, do you have any further questions for the panel?
    Mr. Bost. Just the only question I would have, and I know 
it is a draft bill so you, I think, Mr. Liermann, you mentioned 
4748. If it is, it just got that number, that it would be the 
one that deals with Lou Gehrig's Disease. Is that the number 
that you have?
    Mr. Liermann. Yes, sir.
    Mr. Bost. Okay. When we were talking earlier, and I think 
this is a very large concern because I think all of us see the 
problem and really want to deal with it as well as the VA 
themselves. But do you not have the same concerns that let's 
say somebody that has a fast, aggressive cancer, they don't 
qualify, but yet someone under this law would then say, but if 
they have ALS would?
    Mr. Liermann. Well, that is a big concern and that is 
something that we discussed internally, how do you separate the 
differences of those out.
    Now speaking about just ALS, ALS is a very unique disease 
process within the VA community for the fact that it is the 
only presumptive that applies to all veterans regardless of 
time, service, or generation or exposures. So given that it is 
a unique disease process as a presumptive, and that it is an 
automatically 100 percent disability due to the severity of it, 
we support that because we know it is not going to be much 
longer.
    As far as other diseases and other disease processes, that 
is something that, yes, we are willing to consider and discuss. 
Right now I would be badly armed if I tried to engage that 
completely. But, yes, that is something that we would be open 
to discuss.
    Mr. Bost. Right. And that is kind of where we--the concerns 
probably all of us have are wanting to make sure that we get 
the right numbers together. We want them to be provided for. We 
don't want to just all of a sudden pull a rug out that all of a 
sudden, oh, well, you weren't diagnosed long enough for your 
surviving spouse to--you know, that's a problem. That's a real 
problem, especially if it is due them.
    So hopefully we can all work together to try to figure out 
some kind of answer there. Of course, then you have to come up 
with the offset to try to figure out that as well. That is kind 
of our responsibility, so.
    Mr. Bost. With that I yield back.
    Ms. Luria. Okay. Thank you, Mr. Bost.
    Since there are no more questions, we will conclude this 
hearing. I want to thank the Members of both panels for your 
participation today as well as all of the other Members who 
attended to present testimony on their bills that are under 
consideration.
    All Members will have 5 legislative days to revise and 
extend their remarks, including extraneous materials.
    Without objection the Subcommittee stands adjourned.

    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

                   Prepared Statement of Ronald Burke
    Good morning, Chair Luria, Ranking Member Bost, and Subcommittee 
Members. Thank you for providing us the opportunity to discuss the 
Department of Veterans Affairs' (VA) commitment to providing all 
Veterans, their families, and survivors with timely, accurate, and fair 
decisions on their benefits claims and appeals. I want to thank the 
Subcommittee for considering legislation on critical issues such as 
debt management, remedying fiduciary misuse, and expanding access to 
telehearings before the Board of Veterans' Appeals (Board), among other 
important topics. In this testimony we are providing background 
information on many of our ongoing efforts and strategies for 
addressing these important issues, so that we can provide context for 
our analysis of the proposals before the Subcommittee today.
                                H.R. 592
    H.R. 592, the ``Protect Veterans from Financial Fraud Act of 
2019,'' would ensure that VA repays the misused benefits of Veterans 
with fiduciaries and provides an appeals process for determinations of 
Veterans' mental capacity. VA supports this bill if amended and can 
provide technical assistance.
    Section 2 would authorize VA to reimburse all beneficiaries in the 
fiduciary program who have experienced benefits misuse by a fiduciary, 
regardless of the number of individuals the fiduciary served. VA 
supports extending such protections to individuals whose fiduciaries 
served fewer than ten Veterans. However, VA has concerns about the 
applicability date of the provision. As written, this paragraph would 
require the Veterans Benefits Administration (VBA) to determine the 
misuse date of the funds and would have to follow a different 
reimbursement process depending on if the funds were misused prior to 
or on/after the effective date of the bill. VA recommends that this 
language be changed to, ``(b) Application - The amendments made by 
subsection (a) shall apply with respect to the misuse of benefits by a 
fiduciary discovered on or after the date of the enactment of this 
Act.'' Benefit costs for section 2 are estimated to be $3.5 million in 
2021, $19.2 million over five years, and $43.1 million over ten years.
    Section 3 would provide appeal rights in accordance with chapters 
71 and 72 of title 38, United States Code, for determinations made by 
VA regarding mental competence for VA benefits purposes. VA believes 
that this provision is unnecessary, as these determinations are already 
appealable in accordance with chapters 71 and 72 of title 38. In 
addition, a beneficiary found to be incompetent can submit medical 
evidence to VBA at any time and request that VA find the beneficiary 
competent.
                                H.R. 628
    H.R. 628, the Working to Integrate Networks Guaranteeing Member 
Access Now (WINGMAN) Act, would require VA to provide a permanent, 
full-time congressional staffer designated by a Member of Congress with 
remote, read-only access to VBA's electronic records of the Member's 
constituents. The bill states that no more than two staffers of the 
Member may be designated. Staffers designated under this provision must 
satisfy the requirements to be recognized by VA as an agent or attorney 
but may not actually be recognized as an agent or attorney to assist 
Veterans with their benefits claims. VA may not impose any other 
requirements before treating a designated staffer as a covered 
congressional employee authorized to electronically access VBA's 
records.
    VA opposes this bill for several reasons. First, it improperly 
conflates the concept of access to claims records, which is addressed 
in chapter 57 of title 38, United States Code, with the concept of 
recognizing individuals to act as agents and attorneys in the 
preparation, presentation, and prosecution of benefits claims before 
VA, which is addressed in chapter 59 of title 38.
    The purpose of VA's recognition is to ensure that claimants for VA 
benefits have responsible, qualified representation in the preparation, 
presentation, and prosecution of claims for Veterans' benefits. The 
laws governing recognition do not address the issue of access to 
claimants' records, which are governed separately by privacy and 
information security laws. Instead, the provisions in chapter 59 of 
title 38, United States Code, and VA's implementing regulations address 
the regulation and oversight of persons providing representation before 
VA, including the ethical standards of professional conduct for 
representatives, requirements for continuing legal education, and 
whether fees may be charged in a particular case. Making congressional 
staffers' access subject to the criteria for recognition as an agent or 
attorney would subject them to provisions that are not relevant to 
their official duties as congressional staffers.
    In providing remote read-only access to VBA records to a Veteran's 
agent or attorney, VA requires satisfaction of different criteria that 
are unrelated to, and without regard for, the individual's status as 
being ``recognized.'' Although VA does provide read-only electronic 
access to recognized attorneys and agents who meet other relevant 
qualifications, the requirement that a congressional employee satisfy 
the criteria for recognition as an agent or attorney would have no 
logical relationship to the goals of ensuring access in a manner that 
is efficient, effective, and appropriately safeguards the security of 
the records. Incorporating a new proposed section in chapter 59, which 
pertains solely to claims representation, and requiring congressional 
staffers to satisfy the same criteria required by VA for recognition of 
agents and attorneys can only create confusion about ``recognition'' in 
general and the role of congressional staffers in the claims process. 
Moreover, making the requirements for congressional employees to gain 
access to claimant records a function of VA's recognition program would 
unnecessarily complicate the operation of that program.
    This bill includes a requirement that VA provide to each Veteran 
who submits a claim an opportunity to permit a covered congressional 
employee access to all of his or her records through direct access to 
VBA databases. This is unnecessary from a privacy or confidentiality 
perspective as there are longstanding methods, such as authorizations 
to release information, for Congress to obtain the consent of a VA 
claimant to disclose information to a congressperson and their staff. 
Moreover, the bill appears to impose a new burden on VA to contact 
every Veteran to ``provide them an opportunity to permit'' access to 
VBA databases by a congressional staffer. This requirement would delay 
the Veteran's claim since VA would be required in many cases to send 
additional letters to claimants to solicit their consent. Further, it 
imposes a significant burden on VA to modify claims forms and corporate 
systems to track these consents. The extent of this burden would be 
partially dependent on if, and when, a congressional seat was to change 
hands. In those cases, VA would be required to resolicit consent with 
regard to the staffers of the newly selected Member of Congress because 
the Veterans' decision to authorize access to their VA records could 
change based on who is holding the congressional seat.
    Furthermore, based on the current capabilities of VA systems, this 
bill, if implemented, would provide congressional staff who assist 
constituents of a Member of Congress with greater access to VA records 
than is provided to a VA employee. Under the Privacy Act, Federal 
employees may access private records only when necessary to perform 
their duties. This bill would impose no similar restriction on access 
by congressional staff. This generally means that a Veteran's record 
could be accessed by the congressional employee at any time without 
being targeted to the particular Veteran's specific needs. From a 
privacy and information security standpoint, granting congressional 
staff unrestricted access to the private information of Veterans and 
other VA claimants who have permitted such access with the 
understanding that it would be used to provide claim assistance could 
have serious unintended negative consequences for Veterans and their 
families who have entrusted VA with their personal medical and other 
information.
    Similarly, although a Veteran's authorization or consent to 
disclose information to a congressional staffer under the Privacy Act 
and other applicable confidentiality laws would provide sufficient 
authority for VA to provide access to VBA databases, the WINGMAN Act 
confuses the Veteran's or other VA claimant's right to control the 
appropriate disclosure of information with their ability to control the 
access or available means to disclose the information. The bill removes 
the read-only form of congressional staff access from under the 
information security requirements of the Federal Information Security 
Modernization Act of 2014 (FISMA), the E-Government Act of 2002, 38 
United States Code (U.S.C.) chapter 57, subchapter III, Information 
Security, and security baseline standards required by the National 
Institute of Standards and Technology (NIST). In effect, this 
legislation exempts congressional staff access to broad VBA databases 
from all requirements for VA to provide information security. Such an 
exemption from Federal information security requirements would be 
unprecedented.
    Additionally, VA would be required to address serious technological 
obstacles to implement this bill. Currently, the VBA system provides 
access to one representative per Veteran or claim and for only the 
records of a Veteran who has specifically authorized access. To 
implement the WINGMAN Act, VA would need to redesign its system 
architecture to allow more than one representative per Veteran or 
claim, which would require extensive time, monetary expense, and 
manpower. Absent such system changes, in order to provide the type of 
electronic access to congressional staff contemplated by the bill, VA 
would have to displace the electronic access of current 
representatives-Veterans Service Organization representatives, private 
attorneys, and claims agents-causing substantial administrative burdens 
on VA and hardships on those representing Veterans and the Veterans 
they represent, while also interfering with the relationship between 
Veterans and their representatives.
    Due to the above-described limitations on VA systems, the only way 
VA could provide the access contemplated by this bill in the near term 
would be if the bill language is modified to permit VA to provide 
congressional staffers with unfettered access to all Veterans' 
electronic claims records, as opposed to limited access based on power 
of attorney code, which would obviously be harmful to the privacy of 
Veterans who had not consented to or permitted such access, in 
violation of the existing privacy laws, and beyond the scope of the 
current version of the subject bill.
    In addition, the bill prohibits VA from obligating or expending 
more than $10 million for the period of fiscal years 2019 through 2022 
for the purposes of this bill. However, VA estimates that, for the 
period of fiscal years 2020 through 2022, implementation will require 
VA to expend an estimated $145.8 million.
                               H.R. 1030
    H.R. 1030, the ``Veteran Spouses Equal Treatment Act,'' would amend 
provisions of title 38, United States Code, relating to VA's 
recognition of marriages as valid.
    Current section 101(3) and (31) of title 38, U.S.C., limit the 
definitions of ``surviving spouse'' and ``spouse'' for purposes of 
title 38 to only a person of the opposite sex of the Veteran. The 
language in these provisions is substantively identical to the language 
in section 3 of the Defense of Marriage Act (DOMA), 1 U.S.C. Sec.  7, 
which the Supreme Court, in United States v. Windsor, 570 U.S. 744, 775 
(2013), declared to be unconstitutional because it discriminates 
against legally-married, same-sex couples. On September 4, 2013, the 
United States Attorney General informed Congress that the President had 
directed the Executive Branch to cease enforcement of sections 101(3) 
and (31) of title 38 to the extent that those provisions preclude the 
recognition of legally-valid marriages of same-sex couples. Pursuant to 
this direction, VA is no longer enforcing the title 38 provisions to 
the extent that they require a ``spouse'' or a ``surviving spouse'' to 
be a person of the opposite sex. Therefore, VA supports this bill as a 
means to amend the law to be consistent with the Supreme Court's 
decision and current practice.
    VA supports the general intent of section 2(b) of the bill to 
revise the criteria for determining the validity of a marriage. Section 
103(c) of title 38, United States Code, which provides that, in 
determining whether or not a person was a spouse of a Veteran, 
``marriage shall be proven as valid for the purposes of all laws 
administered by the Secretary according to the law of the place where 
the parties resided at the time of the marriage or the law of the place 
where the parties resided when the right to benefits accrued,'' is 
specific to title 38 and is different than the standard used by nearly 
all other Federal agencies, including the Department of Defense. 
However, while VA supports the bill's intent to change to the current 
marriage-validity criteria, VA is concerned that the marriage-validity 
criteria in section 2(2) of the bill may be overly restrictive. For 
example, VA notes that the bill is silent as to the applicability of 
tribal law to marriage validity. Under section 103(c), tribal law would 
be considered as ``the law of the place where the parties resided.'' 
However, VA would only consider the law of the ``State'' in determining 
if a marriage is valid for the purpose of Veterans' benefits. This 
could lead to the exclusion of some couples with valid marriages under 
tribal law. VA welcomes the opportunity to work with the Committee on 
this bill.
    Since VA is currently using the amended definition to define 
marriage, no costs or savings are associated with the proposed bill.
                               H.R. 1424
    H.R. 1424, the ``Fallen Warrior Battlefield Cross Memorial Act,'' 
would provide that VA may not prohibit the display of the ``Fallen 
Soldier Display'' in any national cemetery, subject to standards 
established by the Secretary. The bill defines the ``Fallen Soldier 
Display'' as a ``memorial monument in honor of fallen members of the 
Armed Forces that may include a replica of an inverted rifle, boots, 
helmets, and identification tag.''
    VA has no objection to the passage of H.R. 1424 in its current form 
because it allows VA to exercise discretion to establish standards for 
the display of these monuments, which VA refers to as ``fallen soldier 
displays.'' However, we believe the legislation is unnecessary because 
VA has an existing policy that allows for acceptance of such memorials 
and includes standards, such as those related to size and construction 
materials, that allow these monuments to be displayed in a manner that 
would enhance the appearance and operation of the national cemeteries.
    In recent years, VA has noted an increased interest in donations of 
the fallen soldier display to several national cemeteries. However, 
review and acceptance of these donation offers was inconsistent across 
cemeteries, based on varying interpretations of the National Cemetery 
Administration's (NCA) long-standing policy, established to facilitate 
a reflective and peaceful atmosphere for visitors, that prohibits 
acceptance of donations of military equipment or implements of war in 
VA national cemeteries as well as NCA guidelines that restricted 
acceptance of memorials featuring actual or realistic replicas of 
ordnance.
    Upon review, NCA determined that the familiarity of the fallen 
soldier display and its particular use of a rifle was sufficient to 
warrant an exception from the established policy, with some additional 
guidelines regarding size and construction of the monument. For 
example, NCA policy notes that the fallen soldier display may be a 
three-dimensional replica or it may be an engraved image on a stone. 
The policy also includes specifications regarding size and construction 
materials. These requirements ensure a consistency in appearance, 
durability of the monument, and ease of maintenance for cemetery 
personnel.
    VA estimates that VA would not incur any significant additional 
cost if H.R. 1424 were enacted because VA already has statutory 
authority to accept donations of monuments to VA. Maintenance for 
donated memorials is part of VA's overall operational expenses for the 
national cemeteries.
                               H.R. 1911
    Section 6 of H.R. 1911, the ``SFC Brian Woods Gold Star and 
Military Survivors Act,'' would expand the population of eligible 
beneficiaries for dependency and indemnity compensation (DIC) benefits 
by permitting VA to continue recognizing an individual as a surviving 
spouse for purposes of DIC, despite remarriage, regardless of the 
individual's age at the time of remarriage. Under current law, an 
individual will no longer be recognized as a surviving spouse for 
purposes of DIC if that individual remarries prior to the age of 57.
    VA cites concerns with the provisions in section 6 of the bill that 
would require VA, within one month of the bill's enactment, to resume 
DIC payments to surviving spouses who previously remarried before age 
57. VBA would experience a significant administrative burden related to 
identifying and locating all surviving spouses whose benefits were 
terminated due to remarriage before the age of 57. VBA does not 
maintain current contact information for surviving spouses whose 
benefits were previously terminated. Confirming the beneficiary's 
whereabouts would involve substantial outreach efforts and resource 
investment. Further, while we believe the provision for resumption of 
benefits necessarily must be construed to apply only to persons 
previously found entitled to DIC, that limitation is not expressly 
stated in the bill.
    Benefit costs associated with section 6 are estimated to be $7.2 
million in 2021, $43.7 million over five years, and $109.4 million over 
ten years.
    VA defers to the Department of Defense regarding the remainder of 
this bill.
                               H.R. 4165
    H.R. 4165, the ``Improving Benefits for Underserved Veterans Act,'' 
would require that, not later than 180 days after the date of 
enactment, the Secretary shall publish a report regarding Veterans who 
receive benefits under laws administered by the Secretary. The report 
would be required to contain data disaggregated by sex and minority 
group status. ``Minority group member'' is defined in section 544(d) of 
title 38 of the United States Code as an individual who is: Asian 
American, Black, Hispanic, Native American (including American Indian, 
Alaskan Native, and Native Hawaiian); or Pacific-Islander American.
    VA does not support the bill, as currently written. Under section 1 
of the bill, the title, ``Improving Benefits for Underserved Veterans 
Act,'' implies VA is not adequately serving certain groups of Veterans. 
Without empirical data to support this assertion, VA suggests amending 
the language from ``Underserved Veterans'' to ``Minority Veterans'' or 
``Minority and Women Veterans.''
    With respect to programs administered by VA, VA already publishes 
data regarding minority and women Veterans. Regarding gender, the 
Department added several gender tables to the Annual Benefits Report 
2018, available online at https://  www.benefits.va.gov/  REPORTS/abr/  
docs/2018-abr.pdf, for most business lines, and VA will continue to add 
additional gender information to the report as appropriate. Regarding 
minority group usage of benefits, the Department, specifically the 
National Center for Veterans Analysis and Statistics (NCVAS), 
periodically produces a report that addresses benefit usage by minority 
groups. The latest version can be found at https://  www.va.gov/
vetdata/docs/  SpecialReports/  Minority--Veterans--Report.pdf. 
Therefore, the Department does not need additional guidance from 
legislation.
    Moreover, typically, VA does not collect private citizen 
information (sex and minority group member status) when we have no 
business need to do so. Generally, VA cannot and should not collect 
information unless there is a legitimate government interest or need. 
The Privacy Act of 1974, which protects information held by the Federal 
government that pertains to individuals, requires agencies to maintain 
``only such information about an individual as is relevant and 
necessary to accomplish a purpose of the agency required to be 
accomplished by statute or by executive order,'' 5 U.S.C. Sec.  
552a(e)(1). Historically, it has been VA's policy to gather data 
(demographic or identifying data) only when necessary to determine 
benefit eligibility.
    In addition, it is unclear what data elements Congress is seeking 
to meet this requirement. Moreover, VA is concerned about the value of 
and the public perceptions gained from publishing aggregate benefits 
data without the proper context also being provided. For example, 
merely providing counts of Hispanic Veterans in receipt of disability 
compensation would not prove valuable unless other comprehensive 
comparative analyses were conducted, taking into account variables such 
as Veteran population, geography, culture, age, etc.
    While VA supports efforts to improve the delivery of benefits to 
minority Veterans, the aim and title of the bill, as well as the 
reporting requirements contained in the bill, are unclear. VA does not 
support this bill since this data collection is not necessary for the 
delivery of benefits to Veterans.
                               H.R. 4183
    H.R. 4183, the ``Identifying Barriers and Best Practices Study 
Act,'' would require the Government Accountability Office (GAO), not 
later than 36 months after the bill's enactment, to complete a study on 
disability and pension benefits provided to Reserve Component (RC) 
members. In conducting the study, GAO would review various quantitative 
and qualitative data between January 1, 2008, and December 31, 2018, 
and would provide Congress a preliminary report not later than 18 
months after the date of the enactment of this bill.
    VA does not oppose the bill, which aims to identify barriers and 
best practices as it pertains to the administration of compensation and 
pension benefits for RC members. However, VA has concerns with section 
2, paragraph (a)(2).
    Paragraph (a)(2)(A) would require a comparison of disability 
percentages between RC members and Veterans who served in the regular 
components of the Armed Forces. VA notes concerns on this approach as 
many RC members have prior active duty service for which service-
connected injuries or illnesses were incurred. It is not clear how such 
comparisons, without delineating such prior service, will be 
meaningful. Further, in comparing grant and denial rates between these 
cohorts, as stipulated in paragraph (a)(2)(D), VA notes the statutory 
requirements (see 38 U.S.C. Sec.  101(21) through (27)) necessary to 
establish Veteran status for purposes of receiving service-connection 
for a claimed disability for a RC member, whose duty involves part-time 
duty, versus those Veterans who performed full-time duty in the Armed 
Forces.
    Further, paragraph (a)(2)(C) of the bill would require a comparison 
by military occupational specialty (MOS) such as pilots, special 
forces, and Veterans who underwent diving or flight physicals. VA notes 
that such data elements are not stored in its corporate databases, and 
any efforts to conduct such analyses would require labor-intensive 
reviews of individual claims records in order to ascertain the 
Veteran's MOS. VA defers to the DoD on the availability of lists of 
service members and Veterans who served in a certain MOS.
                               H.R. 4360
    H.R. 4360, the ``VA Overpayment Accountability Act,'' would require 
VA to correct erroneous information submitted to consumer reporting 
agencies, provide certain notifications to persons who are entitled to 
benefits under a program administered by VA who incur debts to the 
United States due to participation in that program, track certain 
metrics relating to debts arising from participation in a VA benefits 
program, and conduct an audit of erroneous payments.
    While VA appreciates the intent of this bill and is continuing to 
work with Committee staff to mature VA debt management, VA does not 
support this bill in its current form. We believe some provisions are 
duplicative of current laws, such as the Energy and Water, Legislative 
Branch, and Military Construction and Veterans Affairs Appropriations 
Act of 2019, enacted September 21, 2018, the Veterans Benefits and 
Transition Act of 2018, enacted December 31, 2018, and the Economic 
Growth, Regulatory Relief, and Consumer Protection Act, enacted May 24, 
2018.
    Further, other provisions present technical and implementation 
issues as detailed below. Regarding Section 2 (a), which would require 
VA to correct erroneous reporting to consumer reporting agencies, we 
concur that expeditious resolution of erroneous reporting is essential; 
however, VA has already implemented robust procedures to do so.
    In accordance with the Debt Collection Improvement Act of 1996 
(DCIA), VA submits debt information to consumer reporting agencies. 
When we discover our characterization of the debt to be erroneous, we 
use the Online Solution for Complete and Accurate Reporting (eOSCAR) in 
partnership with Equifax, Experian, Innovis and Transunion to 
electronically and expeditiously repair Veteran credit. Where the need 
is immediate, we also provide Veterans with a letter addressed to their 
creditor explaining the error.
    While VA is authorized to use third-party debt collectors, the 
Department remains steadfast in using only VA employees or those of the 
Treasury for those debts referred pursuant to the DCIA to service 
Veteran debts. Therefore, 38 U.S.C. Sec.  5320(b), as proposed to be 
added by this bill, would not be applicable to the Department.
    VA appreciates the efforts this Congress is making to ensure 
erroneous reporting is corrected and has engaged with consumer 
reporting agencies to find solutions to mitigate derogatory credit 
reporting by third party medical providers using private collection 
agencies. On January 29, 2016, VA established the Veteran credit repair 
hotline for medical-related credit concerns. Currently, Transunion, 
Equifax, and Military.com have this hotline (877-881-7618) posted on 
their websites. Experian provides this number to those customers who 
contact them, and the Consumer Financial Protection Bureau is adding 
the information to their website.
    Regarding Section 3(1) and 3(3), which would require VA to improve 
information technology to allow for Veteran notification of debts 
incurred, VA is already required to provide this notification. VA 
continues to make progress in creating notifications to Veterans who 
receive more financial assistance than they are entitled to by law, to 
include providing more standardized electronic and standard mail 
notifications. Due to the complexity of VA's enterprise and the number 
of systems involved in delivering healthcare, benefits, and services to 
Veterans and beneficiaries, VA tracks the amounts, ages, averages and 
other statistical attributes of overpayments independently in each 
Administration. We are working to improve our systems, so Veterans will 
be able to view their debt online within the next year.
    The Veterans Health Administration (VHA) is developing an 
electronic option to permit viewing of monthly Patient Medical 
Statements via the MyHealtheVet portal. We expect Veterans will be able 
to view or print their medical patient statements electronically via 
the portal within the next 3-4 months. By early to mid-2020, VBA 
anticipates launching the option for Veterans to opt-in to receive 
electronic correspondence. This project will initially encompass 
disability compensation and pension overpayments and later extend to 
all VBA lines of business. We intend to send electronic correspondence 
initially to Veterans who have opted in; however, some correspondence 
may remain solely in hard copy form to meet statutory requirements 
related to certain notifications. Ultimately, we intend to bring all 
debt together in one location by calendar year 2022.
    VA has concerns with Section 3(2), Review of Information Regarding 
Dependents, which would require VA to allow a ``person entitled to a 
payment from the Secretary under a benefits program administered by the 
Secretary'' the ability to review ``information relating to dependents 
of that person.'' In certain situations, it may not be appropriate for 
VA to provide a Veteran with information about debts incurred by a 
dependent. While VA routinely discloses information that affects the 
payment or potential payment to a claimant, such as the number of 
dependents, we recommend editing this section to require sharing of 
only information that pertains to the Veteran, not beneficiary 
information that is not about the Veteran, such as Federal Tax 
Information (FTI) of dependents.
    Section 4 would require VA to conduct a benefit error audit, and 
then submit to committees of Congress a plan and description of 
resources required to align information systems to ensure errors 
identified are not the result of or caused by the lack of communication 
among information systems. VBA has numerous independent systems for the 
many benefits provided (Compensation, Education, Vocational 
Rehabilitation and Employment, etc.). None of these systems currently 
have the capability to delineate the amount of debt due to the 
Veteran's lack of/delayed response or VA benefit error. Funding and 
development time allotment would be required for both system 
enhancements and system integration, as well as to fund additional 
staff for training and operations.
    We estimate an upfront IT improvement cost of $1.75 million, with 
roughly $500,000 annually thereafter for sustainment, and related FTE 
costs of roughly $90,000 in the first year and $20,000 annually 
thereafter ($5.5 million over an 8 year period - please note these 
estimates are very preliminary, high-level, and would be subject to 
change if this legislation is enacted). VBA does not track nor have a 
metric to measure the degree to which vacant positions impact the 
frequency of errors that result in overpayments of benefits.
    VA has been working with the Committee staff on these important 
issues and looks forward to continuing to work with the Committee for 
the benefit of Veterans.
                  Justice for ALS Veterans Act of 2019
    The Justice for ALS Veterans Act of 2019 would entitle surviving 
spouses of Veterans who died of service-connected amyotrophic lateral 
sclerosis (ALS) to an additional $246 per month in DIC. Under current 
law, the higher rate of DIC is only payable if the Veteran was rated 
totally disabled for a continuous period of at least eight years 
immediately preceding death.
    VA has concerns with this bill. VA understands the intent of the 
bill - to ensure payment of the increased monthly DIC benefit to the 
surviving spouse due to the difficult and progressive nature of ALS - 
and recognizes this as an important step in caring for surviving 
spouses. However, VA notes the potential disparity of treatment related 
to other progressive diseases that may result in death in less than the 
eight-year period, such as cancer. Furthermore, clarification would be 
needed to determine if the bill would still require that the surviving 
spouse meet the marriage requirement (eight years immediately preceding 
death) to qualify for the increased benefit under this proposal.
                        Board Telehearings Bill
    Under current law, the Board of Veterans Appeals may hold hearings 
either in person at its principal location, or through picture and 
voice transmission at a VA facility where VA has provided suitable 
equipment and facilities. 38 U.S.C. Sec.  7107(c). This bill would 1) 
amend current law to permit such hearings to be conducted over a secure 
internet platform established and maintained by VA; 2) limit virtual 
hearing use to only disability compensation appeals; and 3) provide 
specific VA reporting requirements for appeals hearings at the Board 
that utilize remote technologies.
    VA does not support this bill unless amended. VA supports the use 
of virtual technology to enable Veterans to participate in their 
appeals hearings without the need for travel to a specific VA hearing 
location and also supports clarifying language in current law to codify 
emerging practices for the use of virtual hearing environments. 
However, the Board does adjudicate non-disability compensation appeals 
originating from VBA, as well as appeals from VHA, NCA, and the Office 
of General Counsel. These types of appeals would be specifically 
excluded from using virtual hearing technology under this draft 
language. It is not clear if this limitation is a drafting error or is 
intended. VA is also supportive of specific reporting requirements, but 
expresses preference for reporting this information through the 
existing Annual Report process, as opposed to providing a partially 
redundant Congressional report. The Board also seeks clarification for 
reporting on statistical outcomes of cases heard, as this would 
establish a broad reporting requirement without clear guidance as to 
specific intent.
    The technology needed for virtual hearings already exists, so no 
additional development cost would be incurred by the Department. Costs 
associated with the reporting requirements proposed in this legislative 
draft would be de minimis and also part of existing operations.
    This concludes my testimony. We appreciate the opportunity to 
present our views on these bills and look forward to working with the 
Subcommittee.

                                 <F-dash>
                Prepared Statement of Shane L. Liermann
    Madame Chair, Ranking Member Bost and Members of the Subcommittee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this legislative hearing of the Subcommittee on Disability 
Assistance and Memorial Affairs. As you know, DAV is a non-profit 
veterans service organization comprised of over one million wartime 
service-disabled veterans that is dedicated to a single purpose: 
empowering veterans to lead high-quality lives with respect and 
dignity. DAV is pleased to offer our views on the bills under 
consideration by the Subcommittee.
      H.R. 592, Protect Veterans from Financial Fraud Act of 2019
    This bill would amend title 38, United States Code, Sec.  6107(b) 
by clarifying the procedures to reissuance benefits to a beneficiary 
with a fiduciary when there is negligent failure by the Secretary and a 
misuse of benefits by a fiduciary.
    Currently title 38, United States Code, Sec.  5501A notes the 
beneficiary is entitled to a notice of the proposed adverse decision, a 
hearing, opportunity to present additional medical evidence, and a 
witness to the hearing. This bill would clearly add the right to appeal 
adverse or negative decisions.
    DAV strongly supports both amendments of this bill as they are in 
agreement with DAV Resolution No. 363, calling for improvement of the 
Department of Veterans Affairs (VA) Fiduciary Program. It suggests 
improvements to the VA Fiduciary Program by creating a better 
monitoring system, a timely dispute resolution system when 
beneficiaries make complaints, initiation of investigations based on 
suspected reports of fiduciary fraud rather than putting the burden of 
proof on the vulnerable veteran, and assignment of an outside agency, 
such as VA Office of Inspector General, responsibility for 
investigating complaints of VA employees who work in the VA Fiduciary 
Program and Fiduciary Hubs.
    Our most vulnerable veterans must be protected from abuses of 
fiduciaries and negligent failures by the Secretary and be given the 
right to appeal adverse competency decisions.
H.R. 628, Working to Integrate Networks Guaranteeing Member Access Now 
                                  Act
    H.R. 628 would allow veterans submitting a claim for benefits, to 
permit a covered congressional employee in the office of the Member of 
Congress representing the district where the veteran resides to have 
access to all of the records of the veteran in the databases of the 
Veterans Benefits Administration.
    The covered congressional employee would have read-only access to 
the electronic records, similar to accredited veteran service 
organizations (VSO) and the covered congressional employee would not be 
considered an attorney or agent.

Recommendations

    DAV does not have a resolution on this issue; however, we are 
concerned that this access could lead to negative consequences for 
veterans and their families, therefore, we recommend that covered 
congressional employees be provided training, VA accreditation or 
similar certification, and have safeguards in place to ensure that a 
veteran can be made whole.

    1. Training. If a covered congressional employee in the office of 
the Member of Congress will have access to a veteran's or claimant's 
electronic claims folders and be advising veterans and claimants on 
their claims and appeals, they need to be trained to lessen the 
potential for misinformation. Accredited VSOs, agents, and attorneys 
all must go through a training and accreditation process which includes 
VA's Training, Responsibility, Involvement and Preparation of Claims 
(TRIP) training and VA's Talent Management System (TMS). Covered 
congressional employees need to be required to complete the same level 
of training as accredited VSOs, agents, and attorneys.

    2. Accreditation. As a covered congressional employee in the office 
of the Member of Congress will be providing claims and appeals 
information to a veteran or claimant, they need to be held to the same 
standard as VSOs, agents, and attorneys. An accredited representative 
is an individual who has undergone a formal application and training 
process and is recognized by VA as being capable of assisting claimants 
with their affairs before VA. Accredited representatives may also work 
for state or county government entities.
    As the covered congressional employee will be providing assistance 
to veterans and claimants already represented by VSOs, agents, and 
attorneys, we are concerned that if the congressional employee is not 
adequately trained or accredited they may provide information or advice 
counter to their duly appointed representatives.

    3. Making Veterans and Claimants Whole. If actions or delayed 
actions by an accredited VA representative cause financial harm to a 
veteran or claimant, they retain liability insurance to ensure that a 
veteran or claimant is made whole if there is a loss of benefits or 
other financial harm. We are concerned that if a covered congressional 
employee provides information, advice, or their lack of timely action 
causes financial harm to a veteran or claimant, the veteran or claimant 
will not be made financially whole.
    The U.S. Supreme Court, in Gravel v. United States, held ``that it 
is literally impossible, in view of the complexities of the modern 
legislative process, with Congress almost constantly in session and 
matters of legislative concern constantly proliferating, for Members of 
Congress to perform their legislative tasks without the help of aides 
and assistants; that the day-to-day work of such aides is so critical 
to the Members' performance that they must be treated as the latter's 
alter ego; and that if they are not so recognized, the central role of 
the Speech or Debate Clause . . . will inevitably be diminished and 
frustrated.'' Therefore, the Court held ``that the Speech or Debate 
Clause applies not only to a Member but also to his aides insofar as 
the conduct of the latter would be a protected legislative act if 
performed by the Member himself.''
    Although the Constitution's Speech or Debate clause provides 
Members of Congress and their aides immunity to lawsuits arising out of 
protected legislative actions, providing assistance to veterans and 
claimants on VA claims and appeals would not be protected legislative 
actions, thus, we are concerned on how a veteran will be made 
financially whole if the covered congressional employee is liable.
             H.R. 1030, Veteran Spouses Equal Treatment Act
    H.R. 1030 would amend the definition of a spouse and surviving 
spouse in title 38, United States Code, Sec.  101 paragraphs (3) and 
(31) by striking the phrase ``of the opposite sex.'' This bill would 
codify VA's current mandate and practice of recognizing spouses of the 
same sex without regard to a veteran's state of residence.
    Section 3 of the Defense of Marriage Act (DOMA) defined 
``marriage'' and ``spouse'' for purposes of Federal law to preclude 
recognition of marriages of same-sex couples. On June 26, 2013, the 
Supreme Court held, in United States v. Windsor, that Section 3 of DOMA 
violates the Fifth Amendment of the U.S. Constitution by discriminating 
against same-sex couples who are lawfully married under state law.
    For purposes of VA benefits, title 38, United States Code, Sec.  
101(3) and Sec.  101(31) define ``surviving spouse'' and ``spouse'' as 
persons ``of the opposite sex.'' These definitions (codified separately 
from DOMA) were not specifically addressed in the Supreme Court's 
Windsor decision. On September 4, 2013, the United States Attorney 
General announced that the President had directed the Executive Branch 
to cease enforcement of title 38, United States Code, Sec. Sec.  101(3) 
and 101(31), to the extent they preclude provision of veterans' 
benefits to same-sex married couples.
    This announcement allowed VA to administer spousal and survivors' 
benefits to same-sex married couples, provided their marriages met the 
requirements of title 38, United States Code, Sec.  103(c). It states, 
``[i]n determining whether or not a person is or was the spouse of a 
Veteran, their marriage shall be proven as valid for the purposes of 
all laws administered by the Secretary according to the law of the 
place where the parties resided at the time of the marriage or the law 
of the place where the parties resided when the right to benefits 
accrued.'' As such, prior to Obergefell, this provision precluded VA 
from recognizing a veteran's same sex marriage where both the veteran 
and the veteran's spouse resided in a state that did not recognize 
same-sex marriage at the time of the marriage, and at the time when the 
claimant's right to benefits accrued, i.e., when the claimant became 
eligible for benefits or the date of claim, consistent with GC 
Precedent Opinion 4-2014.
    On June 26, 2015, the Supreme Court held in Obergefell v. Hodges 
that the Fourteenth Amendment of the U.S. Constitution requires a state 
to license a marriage between two people of the same sex and to 
recognize a marriage between two people of the same sex when their 
marriage was lawfully licensed and performed out-of-state.
    In order to protect these existing benefits for veterans and 
spouses from future legal challenges or changes in interpretation of 
existing practices, DAV supports H.R. 1030, which is consistent with 
our mandate to resist any efforts to deprive disabled veterans or their 
dependents of benefits already provided by VA. This bill would codify 
the U.S. Supreme Court's holdings in Windsor and in Obergefell and is 
consistent with VA's current practice of recognizing same sex marriages 
without regard to a veteran's state of residence.
      H.R. 1424, the Fallen Warrior Battlefield Cross Memorial Act
    H.R. 1424 would amend title 38, United States Code, Sec.  2403 for 
the Secretary to permit the Fallen Soldier Display, also known as the 
battlefield cross. The bill defines the Fallen Soldier Display as a 
memorial in honor of fallen members of the Armed Forces that may 
include a replica of an inverted rifle, boots, helmets, and 
identifications tags.
    Battlefield crosses were created to honor the fallen. A deceased 
soldier's rifle is planted, barrel-first, into their boots (or, in some 
cases, the ground) and their helmet is placed atop the rifle. Like all 
things military, this cross is part of a long-standing tradition that 
has evolved since its first use on the battlefields of the American 
Civil War. This tradition has found its way into the United States Army 
Field Manual. Under the Memorial Section, the battlefield cross is 
advised to be displayed during memorials and demonstrations are 
provided.
    VA initially banned the battlefield cross as it violated their rule 
about realistic replicas of weapons within National Cemeteries. However 
at the September 5, 2018, House Veterans' Affairs Subcommittee on 
Disability Assistance and Memorial Affairs hearing, Matthew Sullivan, 
NCA Deputy Under Secretary for Finance and Planning, indicated that VA 
does not support the Fallen Warrior Battlefield Cross Memorial Act as 
it would not allow VA any discretion to establish standards for the 
display of these monuments, which VA refers to as ``fallen soldier 
displays.'' VA has an existing policy that includes standards, such as 
those related to size and construction materials that allow these 
monuments to be displayed in a manner that would enhance the appearance 
and operation of the national cemeteries. These standards may be 
rendered unenforceable under this bill as currently drafted.
    DAV does not have a resolution on this issue; however, we would not 
oppose enactment of H.R. 1424.
  H.R. 1911, the SFC Brian Woods Gold Star and Military Survivors Act
    This bill would strengthen and expand various benefits affecting 
the survivors of those killed on active duty and disabled veterans who 
have died due to a service-connected condition.
    Section 2 would allow survivors of a deceased military member or 
veteran to continue to have access to on-base facilities once they 
remarry if they have dependent children. Currently, once a surviving 
spouse remarries they lose all commissary and exchange privileges. This 
bill would allow those who still have guardianship of dependent 
children of the deceased service member to retain their entitlement to 
use commissary stores and Morale, Welfare, and Recreation (MWR) 
facilities to the same extent and on the same basis as surviving 
spouses that have not re-married. While DAV does not have a resolution 
specific to this issue, we would not oppose its enactment.
    Section 3 would allow surviving spouses of service members who die 
while on active duty to continue to receive their Survivor Benefit Plan 
(SBP) should they re-marry before the age of 55. Under current law, a 
surviving spouse of veteran or service member who is in receipt of SBP 
would lose their benefits if they choose to re-marry before the age of 
55. This section would eliminate this bar to benefits. DAV does not 
have a resolution specific to this issue but would not oppose its 
enactment.
    Section 4 would direct the Pentagon to pay the transportation costs 
of remains for those killed in the line of duty to their hometown for 
memorials or services and then to a national cemetery for internment. 
If a service member passes away while overseas, the Pentagon will only 
pay for transportation costs to the hometown or a National Cemetery but 
not both. However, many surviving loved ones choose to have a memorial 
service or funeral in their hometown prior to internment at a National 
Cemetery. This provision would require the Department of Defense to 
transport the remains for the fallen service member from Dover AFB, to 
the hometown, and then to their final resting place in a National 
Cemetery if requested by the surviving family members. DAV does not 
have a resolution specific to this issue, but would not oppose its 
enactment.
    Section 5 would amend the existing child care service assistance 
program for civilian providers to include providers serving survivors 
of service members that die in the line of duty. Currently, this 
program only gives financial assistance to civilian child care 
providers of active duty service members and government employees. DAV 
does not have a resolution specific to this issue, but would not oppose 
its enactment.
    Finally, Section 6 would remove the bar of Dependency Indemnity 
Compensation (DIC) benefits to the surviving spouses of veterans who 
have re-married prior to the age of 57. We consider this bar unduly 
punitive when you consider that Federal employee survivors, who are in 
receipt of Civil Service Retirement System, a similar benefit to DIC 
and veterans who are signed up for the SBP, both allow the surviving 
spouse to remarry at 55 without loss of benefits. Section 6 would allow 
a spouse of a service member who died while on active duty to continue 
to receive their DIC benefits even if the surviving spouse re-marries. 
DAV strongly supports this provision in accordance with Resolution No. 
360, which supports legislation to improve and reform DIC benefits for 
survivors to include reducing the age that surviving spouses can re-
marry without losing their survivor's benefits.
     H.R. 4165, the Improving Benefits for Underserved Veterans Act
    This bill would require the VA to publish a report regarding 
veterans who receive VA benefits disaggregated by sex and minority 
group status. This report would include those benefits administered 
through the Transition Assistance Program.
    DAV does not have a resolution on this issue; however, we are 
concerned with the potential reliability of such a report. The VA does 
not currently track information regarding sex or minority group status 
and would have to rely on either diagnostic code ratings or be required 
to review every veteran's case to determine the sex or minority group 
status.
    H.R. 4183, the Identifying Barriers and Best Practices Study Act
    H.R. 4183 would require the Comptroller General to conduct a study 
on disability and pension benefits provided to members of the National 
Guard and members of reserve components for the period of January 1, 
2008, to December 31, 2018.
    This bill would require comparisons between the National Guard and 
members of the reserve to those who served in regular components. The 
comparisons would include:

    <bullet>  The percentage of each group of veterans with service-
connected disabilities;
    <bullet>  The number of veterans in each group with each disability 
rating;
    <bullet>  The number of veterans in each group with a service-
connected disability for pilots, special forces, veterans who 
participated in the Personnel Reliability Program, veterans who 
underwent flight physicals and who have muscular-skeletal or mental 
health conditions.

    The bill would further require the identification of barriers for 
members of the National Guard and members of the reserve components in 
obtaining disability benefits.
    DAV does not have a resolution on this issue; however, such a 
report will indicate a difference on disability benefits provided to 
members of the National Guard and members of reserve components versus 
those who served in the regular Armed Forces, because the statutory 
requirements for service-connection for those who served in the regular 
Armed Forces versus members of the National Guard and members of 
reserve components are very different.
    For those who served in the regular Armed Forces, VA will award 
service-connection for a chronic disease or the residuals of an injury 
incurred coincident with service. For members of the National Guard and 
members of the reserve components VA will award service-connection from 
an injury or covered disease, while performing active duty for training 
or inactive duty training with a line of duty determination. However, 
when a member of the National Guard and members of the reserve 
components are called to active duty, their disabilities and injuries 
will be considered as the same as those serving in the regular Armed 
Forces.
            H.R. 4360, the VA Overpayment Accountability Act
    H.R. 4360 would amend Chapter 53 of title 38 to add a new section 
requiring the Secretary to correct any erroneous information submitted 
to consumer reporting agencies including information submitted by a 
third party collection agency. It would further require the Secretary 
to notify the beneficiary of VA's request for correction.
    The bill would require VA to improve its information technology to 
allow beneficiaries to receive notice of any debts through electronic 
means such as VA's eBenefits system to include any successor programs. 
This improvement would include adding the ability to track all payments 
made to beneficiaries, the average debt incurred, as well how 
frequently waivers of debt or relief are granted. This bill would 
further require the Secretary to provide reports regarding VA's errors 
made in payment of benefits.
    DAV supports H.R. 4360 as it is in accord with DAV Resolution No. 
108, calling for reforms relating to recovery of debts by the VA and 
would bring necessary reforms to the VA collection and reporting 
processes. Erroneous reporting to consumer reporting agencies can have 
serious negative consequences for veterans and their families and this 
bill would provide protections and corrections to credit reporting.
       Discussion Draft, the Justice for ALS Veterans Act of 2019
    This draft legislation would extend increased dependency and 
indemnity compensation (DIC) paid to surviving spouses of veterans who 
die from amyotrophic lateral sclerosis (ALS), regardless of how long 
the veterans had ALS prior to death.
    Currently, title 38, United States Code, Sec.  1311(a)(2) allows an 
additional DIC monthly payment of $246 to survivors in the case of a 
veteran who at the time of death was in receipt of or was entitled to 
receive compensation for a service-connected disability that was rated 
totally disabling for a continuous period of at least eight years 
immediately preceding death. This is commonly referred to as the DIC 
``kicker.''
    This proposed legislation would amend the statute to provide the 
DIC kicker to a survivor of a veteran whom the Secretary determines 
died from amyotrophic lateral sclerosis (ALS) without regard for how 
long the veteran had such disease prior to death.
    Per the ALS Association, ``once ALS starts, it almost always 
progresses, eventually taking away the ability to walk, dress, write, 
speak, swallow, and breathe, and shortening the life span.'' They 
acknowledge the average life expectancy for a person with ALS is two to 
five years. VA regulations recognize ALS as a presumptive service-
connected disease and due to its progressive nature is automatically 
rated at 100 percent disabling once service-connected.
    DAV would support legislation to extend the DIC kicker to survivors 
of veterans whose cause of death is ALS as it is in agreement with DAV 
Resolution No. 360, calling for improvement and reform of DIC benefits. 
The aggressiveness of ALS leaves many veterans totally incapacitated 
and reliant on family members and caregivers and even in the best 
scenarios, generally does not allow life expectancy past eight years.
       Discussion Draft, Board of Veterans' Appeals TeleHearings
    This proposed legislation would permit appellants to appear in 
disability compensation cases before the Board of Veterans' Appeals 
(Board) by video from locations other than VA facilities.
    Title 38, United States Code, Sec.  7107 (c)(2) allows appellants 
to choose a hearing before the Board at their principal location or a 
video hearing at a VA facility where the Secretary has provided 
suitable facilities and equipment to conduct such hearings.
    This proposed legislation would amend the statute to allow 
appellants to have a video hearing at a location selected by the 
appellant via a secure internet platform established and maintained by 
the Secretary. This proposal would also require the Secretary to 
provide biannual reports to the Congress on the number of hearings held 
under the proposed provision as well as the number of cancellations.
    Starting in August of this year, the Board has established a pilot 
program, the ``Board of Veterans' Appeals Tele-Hearing.'' The Board's 
user guide states their mission, ``the tele-hearing conference system 
will provide an opportunity for Veterans to attend a Video conference 
hearing from any location, rather than traveling to their local 
regional office.''
    The presiding Veterans Law Judge (VLJ) has the ability to control 
all aspects of the hearing as well as allowing witnesses from locations 
other than the appellant's. A voice recording, not a video recording, 
is made of the hearing for transcription. As of September 19, 2019, the 
Board reported that 94 such hearings were scheduled, 62 were conducted, 
four failed and 25 cancelled or opted for a different type of hearing. 
The Board noted that a tele-hearing was conducted for a paralyzed 
appellant from their home so they did not have to travel 175 miles to 
attend a video hearing at the St. Petersburg VA Regional Office.
    As the pilot program of the Board has shown to increase appellant 
hearing participation, it will also increase the efficiency and 
timeliness of requested hearings. This aligns with DAV Resolution No. 
017, calling for meaningful appeals processing reform. DAV would 
support legislation to amend the statute to allow appellants to have a 
video hearing at a location selected by the appellant via a secure 
internet platform established and maintained by the Secretary.
    Madame Chair, this concludes my testimony on behalf of DAV. I would 
be happy to answer any questions you or other members of the 
Subcommittee may have.

                                 <F-dash>
                  Prepared Statement of Brian Dempsey
    Chair Luria, Ranking Member Bost, and distinguished members of the 
House Committee on Veterans' Affairs Subcommittee on Disability 
Assistance and Memorial Affairs - thank you for the opportunity to 
present Wounded Warrior Project's positions and perspectives on key 
issues and legislation before the Subcommittee.
    Wounded Warrior Project (WWP) is transforming the way America's 
injured veterans are empowered, employed, and engaged in our 
communities. Since our inception in 2003, we have grown from a small 
group of friends and volunteers to an organization of nearly 700 
employees spread across the country and overseas delivering over a 
dozen direct-service programs to warriors and families in need. As part 
of our mission to connect, serve, and empower wounded warriors and 
those who support them, we are continually engaging with those we serve 
and commit ourselves to capturing an informed perspective on the 
challenges this community faces. We are pleased to share that 
perspective for this hearing on pending legislation.

H.R. 592, the Protect Veterans from Financial Fraud Act

    Many in our nation maintain a deep respect for those who have 
served and sacrificed; however, there are others who seek to leverage 
positions of trust for their personal gain and benefit. The Department 
of Veterans Affairs' (VA) Fiduciary Program connects veterans who are 
unable to manage their financial affairs with fiduciaries who can 
supervise VA income and ensure that their veteran-beneficiary's debts 
are paid. Although VA enforces strict standards for fiduciaries and 
conducts thorough investigations to determine their fitness to serve, 
fraud and abuse still occur. A significant consequence of that fraud on 
many occasions is that veterans do not receive benefits they are 
entitled to and become exposed to risks associated with not paying 
bills.
    Under current law, VA can re-issue benefits to a veteran when their 
benefits are misused by a fiduciary who manages benefits for 10 or more 
veterans. There is no similar authority for VA to re-issue benefits to 
a veteran whose funds were misused by a fiduciary that manages benefits 
for fewer than 10 veterans. The Protect Veterans from Financial Fraud 
Act would remove this inequity and create parity for all veterans who 
have been the victim of fraud or abuse by a VA-recognized fiduciary.
    Wounded Warrior Project supports the Protect Veterans from 
Financial Fraud Act. Many warriors who participate in our Independence 
Program - a long-term, community-based support program available to 
warriors living with a moderate to severe traumatic brain injury, 
spinal cord injury, or other neurological condition that impacts 
independence - use fiduciaries to manage their VA benefit payments and 
would benefit from a system that better protects their assets should an 
unfortunate circumstance arise. This legislation would help minimize 
financial hardship on defrauded veterans and provide relief when 
looking to find a replacement fiduciary.

H.R. 628, the Working to Integrate Networks Guaranteeing Member Access 
    Now Act, or the WINGMAN Act

    Members of Congress have a long history of advocating for 
constituents who face delays when seeking VA benefits. As every veteran 
claim is unique, many member offices feel compelled to carefully review 
a constituent's VA case file in order to provide the best possible 
assistance.
    There is no authority under current law for VA to provide expedited 
access to a veteran's claim file to a Member of Congress. To provide 
such access, the WINGMAN Act would authorize VA to give a veteran the 
option of allowing VA to provide read-only access to his or her file to 
their Member of Congress. A designated ``covered congressional 
employee,'' whose responsibilities would have to include assisting 
constituents with Federal agency case work, would be required to meet 
VA criteria for recognition as an agent or attorney in order to access 
the read-only claims file.
    Under the changes proposed by the WINGMAN Act, veterans would 
conceivably have an easier time working with their Member of Congress 
to resolve issues related to their VA benefit claims. WWP agrees with 
this aspirational goal but cautions against its practical 
implementation. New Members of Congress may assume office with staff 
unfamiliar with a complex VA benefit process, just as more seasoned 
members may be affected by staff turnover. Having easy access to claims 
files and the ability to work with VA congressional liaisons will 
afford more opportunities for covered congressional staff to learn, 
understand, and navigate the claims process; however, there are risks 
associated with creating more opportunities for these employees to 
provide misguided claims advice, misinterpret nuanced details in the 
claims file, inadvertently misplace personally identifiable 
information, or hamper interactions with highly trained service 
officers at veteran service organizations or state-level veterans' 
agencies who may have stricter standards to adhere to in order to 
remain certified as agents. For these reasons, WWP does not urge 
passage of the WINGMAN Act at this time.

H.R. 1030, the Veteran Spouses Equal Treatment Act

    In June 2013, the U.S. Supreme Court held in United States v. 
Windsor that Section 3 of the Defense of Marriage Act (1 U.S.C. Sec.  
7), which defined the term ``marriage'' for purposes under Federal law 
as ``only a legal union between one man and one woman as husband and 
wife,'' was unconstitutional. Given Windsor's scope, which was limited 
to the Defense of Marriage Act, other state and Federal laws - 
including those that govern veterans' benefits - were not immediately 
affected. The Veteran Spouses Equal Treatment Act was first introduced 
shortly thereafter in order to bring alignment between the Windsor 
holding and veterans' benefits laws.
    Under current law, VA defines a ``surviving spouse'' as ``a person 
of the opposite sex'' along with other criteria. Similarly, a 
``spouse'' is defined as a person ``of the opposite sex who is a wife 
or husband.'' The Veteran Spouses Equal Treatment Act would strike ``of 
the opposite sex'' in the definition of a surviving spouse and, for 
living spouses, refers to 38 U.S.C. Sec.  103 for marriage references 
while striking ``who is a husband or wife.'' The bill would further 
amend 38 U.S.C. Sec.  103 to require VA to recognize a marriage based 
on the law of the State where the marriage occurred or, if it occurred 
outside a State, a lawful marriage that could have entered into under 
the laws of any State.
    Wounded Warrior Project supports the Veteran Spouses Equal 
Treatment Act. Although VA provides clear guidance at https:  //  
www.benefits.va.gov/  persona/lgbt.asp to explain to veterans that the 
agency will recognize all same-sex marriages without regard to a 
veteran's state of residence, this legislation would remove any doubt 
that veterans' spouses will receive equal treatment under the laws 
governing VA benefits.

H.R. 1424, the Fallen Warrior Battlefield Cross Memorial Act

    Wounded Warrior Project's mission to honor and empower wounded 
warriors brings our focus to providing free programs and services for 
warriors and advocating for their current and long-term health and 
wellness. Within this context, we also recognize the need to 
memorialize those veterans who are no longer with us. For some who 
share this view, the ``Battlefield Cross'' has become a fitting 
memorial in VA's national cemeteries.
    Under current law, VA has regulatory discretion to develop and 
maintain memorial areas for veterans in national cemeteries. In the 
relatively recent past, VA exercised its discretion to prohibit 
realistic looking depictions of firearms in ``Fallen Soldier Displays'' 
(the Battlefield Cross). More recently, VA updated its policy to allow 
an exception for the Fallen Soldier Display. The Fallen Warrior 
Battlefield Cross Memorial Act would create a statutory obligation to 
continue a special exception for the Fallen Soldier Display subject to 
standards established by VA.
    Wounded Warrior Project supports the Fallen Warrior Battlefield 
Cross Memorial Act. This legislation offers a healthy balance between 
VA's interest in properly maintaining national cemeteries while 
preserving the ability of local communities around the country to 
continue using the Battlefield Cross to memorialize the veterans and 
soldiers who gave the ultimate sacrifice for our nation.

H.R. 1911, the SFC Brian Woods Gold Star and Military Survivors Act

    The SFC Brian Woods Gold Star and Military Survivors Act proposes 
several amendments to Title 10 U.S. Code that WWP was unable to 
adequately review with the Department of Defense or the House Committee 
on Armed Services staff prior to this Subcommittee hearing. For these 
reasons, WWP is not able to provide a position on the bill at this 
time.

H.R. 4165, the Improving Benefits for Underserved Veterans Act

    The Improving Benefits for Underserved Veterans Act would create 
new reporting requirements for VA to help identify minority veteran 
groups who are or who may be underserved by VA services and benefits. 
The bill lists women veterans as well as Asian, Black, Hispanic, Native 
American, and Pacific-Islander American veterans as groups that would 
be subjects of the new reporting requirements.
    Wounded Warrior Project appreciates the need to monitor and assess 
the needs of the veteran population which is why we invest in 
developing the nation's largest and most comprehensive survey of Post-
9/11 veterans and service members. According to survey data gathered 
for our 2018 survey, WWP has several salient points to share that 
inform our position on the Improving Benefits for Underserved Veterans 
Act.

    <bullet>  Women veterans not using VA as their primary health care 
provider report higher rates of difficulty accessing VA (51% compared 
to 44% of male veterans not using VA as primary)
    <bullet>  Across race/ethnicity, veterans who do not use VA as 
their primary care health provider reported the same top reasons why: 
bad prior experience, VA care is difficult to access, too much trouble 
or red tape, don't think VA health care would be as good as that 
available elsewhere, and don't trust VA
    <bullet>  Black or African American (73%) and Hispanic (72%) 
veterans reported utilizing VA as their primary health care provider at 
a higher rate than White (67%) veterans
    <bullet>  Across gender and race/ethnicity, similar rates of 
veterans have VA health care coverage (75%-79%)

    As these results begin to illustrate\1\, there are veterans who are 
underserved by VA's programs and services - but that there is also 
demographic parity in many instances. While we appreciate the desire to 
have more data to explore these issues further, we would rather see the 
staff hours and resources required to gather the information for these 
proposed reporting requirements be utilized to serve these identified 
populations. Additionally, any reports generated by this proposal would 
only reflect information about who has reached out to VA for care or 
benefits, and would not necessarily reflect who is being underserved 
when one considers all who have chosen not to engage with VA. Outreach 
to these underserved population groups may be a better use of resources 
as it would actively engage a population which is known to be 
underserved. While we appreciate the intent and support the Improving 
Benefits for Underserved Veterans Act, WWP would rather see VA 
resources used for outreach to connect with underserved populations.
---------------------------------------------------------------------------
    \1\ WWP prepared this specific data after being engaged by the U.S. 
Government Accountability Office in January 2019. GAO indicated that it 
was undertaking a review of whether VA provides quality and culturally 
appropriate care for minority veterans, to include making 
recommendations on how VA can structure its next generation electronic 
health record system to collect data on quality and patient experience 
data by race and ethnicity. [Source of mandate: P.L 115-141 
Consolidated Appropriations Act, 2018. H. Rpt. 115-188 to Accompany 
H.R. 2998, Military Construction, Veterans Affairs, and Related 
Agencies Appropriations Act, 2018.]

---------------------------------------------------------------------------
H.R. 4183, the Identifying Barriers and Best Practices Study Act

    One of the largest barriers that WWP national service officers face 
when supporting current and former special operators and other United 
States Special Operations Command personnel who suffered injury or 
illness in combat is locating official documentation of their injuries 
in service. Similarly, the process for documenting injuries for Guard 
and Reservists could be improved to help veterans establish service-
connection for their injuries later in life.
    While many issues surrounding this population should be left to the 
Department of Defense, the Identifying Barriers and Best Practices 
Study Act proposes to have the U.S. Comptroller General develop a 
three-year study of disability and pension benefits that were provided 
to veteran members who served in special missions, such as pilots and 
divers, and who served on reserve components of the Armed Forces while 
on active duty. This report would also seek to identify common barriers 
that Guard and Reservists face when applying for VA disability 
benefits, including documentation of injuries incurred while serving.
    Wounded Warrior Project supports the Identifying Barriers and Best 
Practices Study Act. Lack of medical evidence from service and the 
difficulties of working with the military to retrieve any available 
documents inform our perspective from an anecdotal point of view. We 
are confident that a Government Accountability Office report addressing 
how these populations are interacting with VA's benefit system will 
validate our beliefs and experiences, and we urge stakeholders to 
consider additional policies to help assist them as the report is being 
developed.

H.R. 4360, the VA Overpayment Accountability Act

    In support of our mission to honor and empower our nation's 
wounded, ill, and injured veterans and service members, WWP recognizes 
that physical health and mental wellness are often built from a 
foundation that includes financial security. VA disability compensation 
offers significant relief to many veterans, but the peace of mind that 
compensation offers can be interrupted when payments are unexpectedly 
withheld and credit is harmed. For veterans managing bills and other 
obligations, disruptions to expected income can quickly become a 
significant stressor.
    According to WWP's 2019 Annual Warrior Alumni Survey, nearly all 
(97.1%) warriors who have registered for WWP programs and services 
carry some amount of debt. Among warriors with debt, excluding 
mortgages on primary residences, about a third (31.2%) pay less than 
$1,000 per month on total household debt they owe, and another 36.7 
percent make monthly payments ranging from $1,000 to less than $2,500 
(36.5% in 2018). However, more than half (54.4%) of warriors with debt 
owe $20,000 or more, excluding mortgages. In this context, we believe 
many of our warriors are at a heightened risk of being placed in the 
precarious position of being unable to pay bills and having their 
credit score damaged if VA benefits are withheld because of a previous 
erroneous overpayment by VA.
    The VA Overpayment Accountability Act would address this problem 
through three distinct components. First, if VA determines that it has 
delivered erroneous information to a credit agency, it would be 
required to work with the credit agency to remove the erroneous 
information from a veteran's credit report. A similar process would 
ensue if VA has delivered erroneous information to a debt collector 
that subsequently reports to a credit agency. Second, the bill proposes 
IT improvements relating to debt notification and metrics tracking 
focused on debt, debt averages, and requests for debt relief. Third, 
the bill would require an audit of erroneous payments to determine the 
frequency of errors and whether, or to what degree, vacant positions at 
the Veterans Benefits Administration affect the frequency.
    Wounded Warrior Project supports the VA Overpayment Accountability 
Act. This bill would provide adequate retrospective and prospective 
protection of veterans' credit scores in the event of an overpayment 
and mitigate the risk of potential hardship on veterans. While we 
maintain an interest in seeing policies that would ease the burden of 
debt repayment in instances when VA must recoup overpayment, this is a 
sound proposal in its current form.

H.R. --------, a draft bill to extend increased dependency and 
    indemnity compensation paid to surviving spouses of veterans who 
    die from ALS

    According to the Amyotrophic Lateral Sclerosis (ALS) Association, 
approximately 5,000 Americans are diagnosed with ALS each year. The 
incidence of ALS is two per 100,000 people, and it is estimated that at 
least 16,000 Americans may be living with ALS at any given time - and 
research sadly shows that military veterans, regardless of branch or 
era of service, are nearly twice as likely as non-veterans to develop 
ALS\2\.
---------------------------------------------------------------------------
    \2\ ALS Association at http://  www.alsa.org/  als-care/veterans/  
military-white-paper.html.

    Once ALS starts it almost always progresses, eventually taking away 
the ability to walk, dress, write, speak, swallow, and breathe, and 
shortening the life span. How fast and in what order this occurs is 
very different from person to person. While the average survival time 
is three years, about 20 percent of people with ALS live five years, 10 
percent will survive 10 years and 5 percent will live 20 years or 
longer.\3\
---------------------------------------------------------------------------
    \3\ ALS Association at http://  www.alsa.org/  about-als/  facts-
you-should-know.html.

    Under current law, VA can pay an additional monthly allowance of 
Dependency and Indemnity Compensation (DIC) to surviving spouses of 
veterans who die from a service-connected disability if that disability 
was rated as totally disabling for continuous period of at least eight 
years immediately preceding death. This draft bill proposes to remove 
the eight-year criteria for spouses of veterans who died of service-
connected ALS.
    Wounded Warrior Project supports this draft legislation because it 
recognizes that the tragically accelerated disease process of ALS keeps 
many deserving spouses from receiving important DIC benefits that they 
should otherwise be entitled to.

H.R. --------, a draft bill to permit appellants to appear before the 
    Board of Veterans' Appeals via picture and voice transmission from 
    locations outside the Department of Veterans Affairs

    Under current law, veterans are limited to two types of hearings 
during their appeal before the Board of Veterans' Appeals: (1) in-
person hearings at the Board's principal location, or (2) by picture/
voice transmission at a facility where VA has provided suitable 
equipment and facilities. Under this draft legislation, VA would 
continue to initially offer these types of hearings, but a veteran 
would gain the ability to request a hearing at a place of their own 
choice provided there is a secure internet platform established and 
maintained by VA that protects sensitive personal information from a 
data breach. Reporting requirements are included to track success rates 
and cancellations.
    Wounded Warrior Project supports this draft legislation. The Board 
of Veterans' Appeals has been diligently working through a backlog of 
appeals for years, and efforts like this that reduce the likelihood of 
hearing cancellations should help more veterans receive timely 
consideration of their appeals.
                                CLOSING
    Wounded Warrior Project thanks the Subcommittee on Disability 
Assistance and Memorial Affairs, its distinguished members, and all who 
have contributed to the discussions surrounding today's hearing. We 
share a sacred obligation to serve our nation's veterans, and WWP 
appreciates the Committee's effort to identify and address the issues 
that challenge our ability to carry out that obligation as effectively 
as possible. We are grateful for the invitation to testify and stand 
ready to assist when needed on these issues and any others that may 
arise.

                                 <F-dash>
                  Prepared Statement of Patrick Murray
    Chairwoman Luria, Ranking Member Bost, and members of the 
Subcommittee, on behalf of the women and men of the Veterans of Foreign 
Wars of the United States (VFW) and its Auxiliary, thank you for the 
opportunity to provide our remarks on legislation pending before this 
Subcommittee.

H.R. 4360, VA Overpayment Accountability Act

    This legislation would improve the Department of Veterans Affairs 
(VA) debt collection process, limit the authority of the Secretary of 
Veterans Affairs to recover overpayments caused by VA errors, and 
improve the due process afforded veterans with respect to such 
recovery. The VFW supports this legislation and has a recommendation to 
improve it.
    The VFW understands that benefits overpayments must be recouped 
from veterans in order to ensure that VA programs are properly 
administered. However, many veterans who were not indebted to VA have 
had erroneous derogatory information submitted to consumer reporting 
agencies due to a VA mistake. It is unconscionable for a veteran to 
receive a negative credit rating as a result of VA's erroneous 
submission of information. Furthermore, correcting inaccurate credit 
reports entails a lengthy and burdensome procedure. Accordingly, the 
VFW supports legislation that requires VA to implement safeguards to 
prevent the erroneous submission of information to consumer reporting 
agencies, and to correct this information in a timely manner.
    The VFW appreciates VA's acknowledging the importance of 
collaboration with the veterans service organization community 
regarding benefits or potential debts. The VFW was pleased to review 
and offer constructive feedback in the crafting of new, more simply 
worded letters and notices regarding potential VA debts. We also 
request that VA collaborate with and inform veterans service 
organizations regarding any updates to the standardized format of debt 
letters. Due process requires that debt notices following overpayments 
are clear and provide concise information regarding the steps a veteran 
must take in order to resolve any outstanding debts in a timely manner.
    Finally, the VFW urges this Subcommittee to incorporate into this 
legislation the additional safeguards of subsections (a), (b), and (c) 
of section 3 of S. 805, Veteran Fairness Act of 2019. These provisions 
would grant additional protections to veterans concerning debt 
repayment and would provide more flexibility concerning the timing of 
repayment.

H.R. 592, Protect Veterans from Financial Fraud Act of 2019

    The VFW supports this legislation, which would ensure that VA 
repays the misused benefits of veterans with fiduciaries. This is a 
common sense bill to protect some of our most vulnerable veterans. 
Veterans assigned a fiduciary need help and financial protection, and 
any individual who mistreats, preys upon, or otherwise causes them harm 
must be held accountable, and restitution must be made to make the 
veteran whole.
    To further protect vulnerable veterans, the VFW recommends 
including a provision in this legislation to impose criminal and 
financial penalties on individuals found to maliciously prey on 
veterans for any financial gain, not just fiduciary fraud. Abusing the 
health and financial welfare of veterans in need must be punishable by 
law. The VFW supports legislation that protects all veterans from any 
individual who commits financial malfeasance, sets substantial 
penalties for doing so, and ensures veterans receive any owed 
compensation as a result of the crime.

H.R. 1030, Veteran Spouses Equal Treatment Act

    The VFW supports this legislation, which would align the definition 
of ``spouse'' in title 38, United States Code, with the Supreme Court's 
ruling in Obergefell v. Hodges. The statutory language of title 38 
should be updated to conform to recent Supreme Court decisions 
regarding the Federal recognition of same-sex marriage. The VFW 
believes that all veterans and their families deserve to be treated 
with dignity and respect.

H.R. 4165, Improving Benefits for Underserved Veterans Act

    This legislation would direct VA to publish a report regarding 
veterans who receive benefits under laws administered by the Secretary, 
disaggregated by sex and minority group member status. The VFW supports 
this legislation and has a recommendation to improve it.
    According to recent Department of Veterans Affairs data, more than 
1.6 million veterans are women, which is roughly nine percent of the 
total veteran population. The percentage of women veterans has 
increased since the start of the Global War on Terrorism, and is 
expected to grow in the near future. Although VA has made vast 
improvements to address the needs of women veterans, more work is 
needed to ensure that female veterans utilize benefits at the same rate 
as males, especially in health care. More specifically, our members 
have routinely stated that VA must improve privacy at women's health 
clinics, access to gender-specific health care, prenatal and maternity 
care, mental health care to treat military sexual trauma, and targeted 
outreach to women to ensure that no veteran is left to wonder what 
benefits she is eligible to receive. Accordingly, the VFW believes that 
the future needs of women veterans can only be met through continued 
research and studies specifically tailored toward women veterans.
    Similarly, minority veterans face challenges when accessing VA 
benefits, particularly with health care. According to VA's Office of 
Research and Development, health care is distributed unevenly in the 
United States. Minority populations often receive less care or care of 
lesser quality compared to their Caucasian peers. The minority veteran 
population makes up 22 percent of all veterans and accounts for over 34 
percent of the women veteran population. Unequal health outcomes faced 
by racial and ethnic minorities include higher rates of chronic 
illnesses such as diabetes and high blood pressure, higher rates of 
cancer, and mental illness diagnosis. These disparities are ubiquitous 
within the entire American health care system and are still prevalent 
within VA, where many financial barriers to receiving care are 
minimized. Therefore, more research is required to understand and 
eliminate racial and ethnic disparities in the VA health care system.
    A study on veterans who receive VA benefits, disaggregated by sex 
and minority group member status will help identify disparities in 
usage of VA benefits. The VFW recommends that this Subcommittee 
authorize a study to determine the cause of such disparities in 
addition to overall VA benefits usage. This will assist VA in ensuring 
that all veterans use the benefits to which they are entitled, and that 
access to health care and health outcomes remain consistent across all 
demographics.

H.R. 4183, Identifying Barriers and Best Practices Study Act

    This legislation would require the Government Accountability Office 
to conduct a study on VA disability and pension benefits provided to 
members of the National Guard and Reserve components of the armed 
forces. The VFW supports this legislation and has a recommendation to 
improve it.
    In the years since the terrorist attacks of September 11, 2001, 
National Guard and Reserve forces have consistently answered the call 
to service. The Department of Defense has increasingly relied upon 
these components for national security missions at home and overseas. 
Unfortunately, these service members face unique challenges when 
applying for VA benefits. National Guard and Reserve component members 
frequently have difficulty obtaining medical records, which tend to be 
scattered and are often incomplete. VA disproportionately denies 
reservists and guardsmen benefits because they cannot establish that a 
condition is service-connected due to missing Line of Duty (LOD) 
determinations. An LOD determination is an administrative tool for 
determining a member's duty status at the time of injury, illness, 
disability, or death, and is the gateway to VA benefits.
    A comprehensive study on disability benefits provided to members of 
the National Guard and Reserve components will help identify barriers 
to filing successful claims and will ensure that these veterans receive 
the VA benefits to which they are entitled. The VFW recommends that 
this Subcommittee authorize a study on disability and pension benefits 
provided to members of these components for the entire period of the 
Global War on Terrorism. Furthermore, the VFW encourages this 
Subcommittee to require VA to conduct an ongoing analysis of 
application for benefits and enrollment for members of the National 
Guard and Reserve components.

H.R. 628, Working to Integrate Networks Guaranteeing Member Access Now 
    (WINGMAN) Act

    This legislation would authorize congressional employees to easily 
access veterans' sensitive information with few restrictions. The VFW 
does not support this legislation.
    Firstly, while we agree there should be a more efficient way for 
congressional constituent services staff to assist veterans, there are 
current privacy controls in place to limit access to veterans' records, 
and those controls must be preserved under any expansion of access due 
to the complexities of the compensation and benefits process. The VFW 
insists that the authorized congressional staff be required to obtain a 
VA-specific privacy release from veterans they seek to assist before 
accessing records for those veterans.
    Secondly, access to veterans' records and any resulting action by 
the Department of Veterans Affairs due to congressional involvement 
must be shared with whomever holds power of attorney for such veterans. 
Doing so would mitigate duplication of efforts and ensure that 
congressional staffers are not abusing or otherwise exceeding their 
authority.
    Lastly, VA must have a tracking system to ensure that congressional 
employees are assisting only their own congressional constituents. 
There are level-sensitive restrictions on most VA employees and 
accredited service officers, preventing access to files for which 
expressed consent has not been granted. These restrictions must extend 
to any proposed accredited staffers as well.

H.R. 1424, Fallen Warrior Battlefield Cross Memorial Act

    The VFW supports this bill, which would require the Department of 
Veterans Affairs to permit fallen soldier displays in VA national 
cemeteries.
    Two years ago, VFW members from VFW Post 3345 in Strongsville, 
Ohio, erected a battlefield cross by the Ohio Western Reserve National 
Cemetery chapel as a sign of respect for their fallen comrades. They 
were later disheartened to learn that the former director improperly 
removed the memorial, claiming that it depicted violence. To VFW 
members, all of whom have deployed into harm's way in a foreign land, 
the battlefield cross bears a sacred significance and is used to honor 
and remember our brothers and sisters who have made the ultimate 
sacrifice in service to our nation.
    The VFW is pleased that VA reversed the Ohio Western Reserve 
National Cemetery director's decision and issued a notice to all 
national cemetery directors entitled ``Acceptance of Donations 
Featuring the Fallen Solider Display,'' which makes clear VA's policy 
to allow the display of the battlefield cross at any VA national 
cemetery. VFW Post 3345 members report that the unfortunate Ohio 
Western Reserve National Cemetery incident was resolved within three 
days and has not reoccurred. To prevent similar incidents in the 
future, the VFW supports legislation that safeguards a veteran's right 
to honor fallen brothers and sisters.

H.R. 1911, SFC Brian Woods Gold Star and Military Survivors Act

    This bill would expand survivors' benefits for spouses and children 
of service members who die in the line of duty. The VFW has 
consistently advocated for the expansion of child care benefits for 
military and veteran families, and encourages this Subcommittee to do 
everything it can to ensure that survivors receive adequate support and 
assistance. Additionally, the VFW supports section 4 of this 
legislation, which would provide for the transportation of remains of 
fallen service members to no more than two locations if the second 
location is a national cemetery.

Draft Legislation to Permit Appellants to Appear in Disability 
    Compensation Cases Before the Board of Veterans' Appeals by Picture 
    and Voice Transmission from Locations Other Than Facilities of the 
    Department of Veterans Affairs

    The VFW supports this draft legislation, which would permit 
appellants in disability compensation cases before the Board of 
Veterans' Appeals to appear remotely by picture and voice transmission 
from locations other than VA facilities. VA programs such as Telehealth 
and Project Atlas already utilize similar remote access technology, 
which many veterans find incredibly convenient.
    Currently, veterans may appear remotely from one of roughly 65 
locations in Board of Veterans' Appeals cases. This legislation would 
undoubtedly improve access for veteran appellants in disability 
compensation cases and would permit a greater number of veterans to 
attend their own hearings. The VFW also strongly urges this 
Subcommittee to ensure that adequate internet security measures are 
implemented in order to prevent data breaches and safeguard sensitive 
personal information.

Draft Legislation, Justice for ALS Veterans Act of 2019

    This draft legislation would extend increased dependency and 
indemnity compensation paid to surviving spouses of veterans who die 
from amyotrophic lateral sclerosis (ALS), regardless of how long the 
veterans had such disease prior to death. Although the VFW cannot 
support this draft legislation, we recommend that this Subcommittee 
consider legislation that would grant a similar exception for surviving 
spouses or family members of veterans who die from service-connected 
diseases or injuries.

                                 <F-dash>
                 Prepared Statement of Ashlynne Haycock
    The Tragedy Assistance Program for Survivors (TAPS) is the national 
nonprofit organization providing compassionate care for the families of 
America's fallen military heroes. TAPS provides peer-based emotional 
support, grief and trauma resources, grief seminars and retreats for 
adults; Good Grief Camps for children; and casework assistance, 
connections to community-based care, online and in-person support 
groups, and a 24/7 resource and information helpline for all who have 
been affected by a death in the Armed Forces. Services are provided 
free of charge.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 85,000 bereaved 
surviving family members. For more information, please visit TAPS.org.
    TAPS receives no government grants or funding.
    Chairman Luria, Ranking Member Bost, and distinguished members of 
the House Veterans Affairs Committee, the Tragedy Assistance Program 
for Survivors (TAPS) thanks you for the opportunity to make you aware 
of issues and concerns of importance to the families we serve, the 
families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD), the 
Department of Veterans Affairs (VA), Department of Education (DoED), 
Department of Labor, state governments, government contractors, and 
local communities for the families of the fallen - those who fall in 
combat, those who fall from invisible wounds and those who die from 
accidents, illness or disease.
    TAPS was honored to enter into a new and expanded Memorandum of 
Agreement with the Department of Veterans Affairs in 2017. This 
agreement formalizes what has been a long-standing, informal working 
relationship between TAPS and the VA. The services provided by TAPS and 
VA are complementary, and in this public-private partnership each will 
continue to provide extraordinary services through closer 
collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.

H.R 1911- SFC Brian Woods Gold Star & Military Spouses Act

    One of the top 3 legislative priorities for TAPS in 2019 is 
allowing surviving military spouses to remarry and retain benefits. The 
SFC Brian Woods Gold Star & Military Spouses Act addresses some of the 
issues related to remarriage. In addition, TAPS would like to highlight 
other issues related to remarriage that have not been brought up before 
the committee.
    Many surviving military spouses opt not to remarry after the death 
of their service member because the loss of financial benefits would 
have a negative impact on them, especially those with children. Many 
choose to cohabitate instead of legally remarrying to retain their 
benefits. If a surviving spouse waits until age 57 to remarry, not only 
do they retain benefits but they are no longer offset. In 2013 the 
United Kingdom eliminated the remarriage penalty for surviving spouses.

Remarried Surviving Military Spouses

    Surviving military spouses who choose to remarry lose virtually 
everything afforded to them by the service and ultimate sacrifice of 
their service member spouse, this includes their healthcare, DIC, SBP, 
education benefits, military ID cards, etc. While they choose to 
remarry for a second chance at love, surviving military spouses should 
not have to pay this penalty. They would much rather have their spouse 
back.
    The average age of a surviving spouse is 25 years old. They should 
not have to wait 32 years to get remarried, if they choose to, in order 
not to lose the benefits their spouse earned in service to their 
country.
    Here are just some of the testimonials TAPS has received from 
surviving military spouses who have chosen to remarry, and what it 
would mean to them to have these benefits restored:
    ``I was 22 years old when my husband, 1LT Jonathan Rozier, was 
killed in a firefight in Baghdad. I was always afraid of remarriage 
because I never wanted to lose the ability to care and provide for 
myself or my child - these are things that America gave us when 
Jonathan died. I decided to remarry when I was 11 years out from my 
first husband's death. It was a hard and terrifying decision to sign 
away the healthcare, the education benefits and the monetary 
compensation. I never understood why the price of my husband's life 
changed because I remarried. Widows should retain their VA benefits 
regardless of remarriage because the life exchanged for those benefits 
does not change when or if a widow decides to remarry.''
    ``The military spouse gives up their lives to spend by their 
husband's side. Their career is often put on hold to move and be there 
for the kids during training and deployments. When tragedy strikes the 
benefits are what we rely on to make up for the years of career we 
lost. We shouldn't be penalized for moving forward with our lives, 
years later. I chose to live my life as my late husband asked me to do. 
I shouldn't be penalized financially because I chose to live and 
love.''
    ``If we were civilians and entitled to a benefit from our spouses' 
work we would not forfeit those benefits if we remarried yet we lose 
everything. Many of us have lost our loved ones in our mid 20's and 
they are asking us to stay widowed for the rest of our lives. That is 
unfair and unrealistic. Several of us will not remarry out of fear of 
losing, so we lose out on the legal benefits of our new relationship 
based on the fear of losing the benefits of our deceased loved one.''

Surviving Military Spouses Who Remarry After Age 57

    If a surviving military spouse waits until age 57 to remarry, not 
only do they retain their survivor benefits they are exempt from the 
Survivor Benefit Plan (SBP) - Dependency and Indemnity Compensation 
(DIC) offset. Current Federal law requires a $1 reduction in SBP 
annuity for each $1 received in DIC.
    On December 16, 2003, the Veterans' Benefits Act of 2003, P.L. 108-
183, repealed the DIC offset for widows/widowers who remarry after the 
age of 57. On July 19, 2007, three widows sued the U.S. government, 
arguing that the Act applies equally to the DIC offset of SBP. On 
August 26, 2009, in Sharp versus the United States, the United States 
Court of Appeals for the Federal Circuit ruled that widows/widowers who 
remarry after age 57 must receive full SBP and DIC payments without an 
offset.
    The ruling created two distinct classes of widows/widowers affected 
by the SBP-DIC offset, those who remarry after age 57 and those who do 
not. If a surviving spouse does not remarry after age 57 their SBP 
continues to be offset.

Unremarried Surviving Military Spouses

    Many military surviving spouses have long term relationships but 
choose not to legally remarry because they financially cannot afford to 
due to the remarriage penalty. They may have 20 year engagements, have 
children with their new significant others, some even have commitment 
ceremonies but being legally married is not something they can do as 
the benefits do not outweigh the consequences.
    We know that military spouses are the most unemployed or 
underemployed population due to frequent moves and everything that 
comes with the military lifestyle. This does not change because they 
become widowed. Adding to this reality are additional layers of grief, 
helping children grieve, and becoming the only parent in many cases. It 
makes it significantly harder for a spouse who was already unemployed 
to then go back to work.
    Many military spouses are unable to fully vest in their own 
retirement and were banking on the retirement of their spouse as a 
joint venture. They struggle with wanting to find a new normal and a 
second chance at love and making the best financial decisions for them 
and their families. In addition, choosing not to remarry has other 
negative impacts on their family as they can be viewed as ``living in 
sin'' by family and churches. Because the VA can take away benefits 
from surviving military spouses for ``holding themselves out to be 
married'' all of the stories we are sharing here will be unattributed:
    ``Not being able to remarry without losing everything has left me 
with hard choices that have broken my heart. My fiance's family has 
disowned us for ``living in sin''- this includes my fiance's 3 adult 
daughters. For practical reasons, I can't remarry. I have too much to 
lose. However, it is a punch in the stomach that the reason for this is 
the government has decided my sacrifice - the loss of my husband - no 
longer matters if I remarry. The 19 years and 9 months he served, the 
overseas moves, the constant disruptions to our family, the delay of 
any education or career pursuits for myself, the absence of sound 
mental health help for my husband, all become meaningless to the 
government if I remarry. My husband's sacrifice would become forgotten 
just as I would be. On principle, I can't live with that. But, that 
principle (and my practical needs) costs me dearly in the relationship 
with my fiance's family. I'm surprised he even chooses to stay with me 
sometimes. It is a lot to ask of him.''
    ``Disallowing spouses to maintain the benefits earned during their 
marriage supports the archaic notion that a woman will/should be 
supported by the next man. It ignores the fact that they knowingly 
contributed to the success of the family they intended to keep, and 
forces them into a position where they must stay alone, or rely on 
someone else to commit to the burden of support that their husband 
fulfilled. Removing benefits with remarriage signifies that their 
previous contribution was worthless. The benefits we received were 
earned through commitment to the military. Our contribution should not 
be regarded as less based on relationship status.''
    ``At the time of my husband's death, we had been married for 18 
years, all served on active duty. His military career was all I'd ever 
known and our family's only financial future. Multiple deployments and 
overseas moves greatly limited my ability to work. When he died, I 
found myself raising 3 kids alone without the means to financially 
support them myself. Giving up his benefits for a choice of remarriage 
is not something I feel that I could ever do. Not only did he serve for 
those benefits, I served alongside him too. His benefits are also my 
benefits and the only retirement plan that I have.''
    TAPS strongly supports ending the remarriage penalty for all 
surviving spouses. We would also like to address our views on ending 
the ``Hold yourself out to be married'' clause, electronic medical 
record access for surviving military spouses, and adding education 
benefits to the bill.

Hold Yourself Out to be Married

    A top priority for TAPS and The Military Coalition (TMC) survivor 
committee is the removal of the ``hold yourself out to be married'' 
clause within the definition of surviving spouse and the removal of the 
term ``opposite sex'' in Title 38 U.S. Code, section 101, paragraph 3.
    According to 38 U.S. Code Sec.  101 Paragraph 3:
    (3) The term ``surviving spouse'' means (except for purposes of 
chapter 19 of this title) a person of the opposite sex who was the 
spouse of a veteran at the time of the veteran's death, and who lived 
with the veteran continuously from the date of marriage to the date of 
the veteran's death (except where there was a separation which was due 
to the misconduct of, or procured by, the veteran without the fault of 
the spouse) and who has not remarried or (in cases not involving 
remarriage) has not since the death of the veteran, and after September 
19, 1962, lived with another person and held himself or herself out 
openly to the public to be the spouse of such other person.
    We believe this language unduly penalizes surviving military 
spouses and may cause them to lose their survivor benefits. Many 
military widows/widowers choose not to remarry to protect their 
survivor benefits. Instead, some choose to live together with their 
boyfriend or girlfriend without marriage but still live in fear of 
losing their benefits.
    TAPS has collected stories from surviving military spouses that 
helps illustrate this issue. Here are just a few of their personal 
testimonials:
    ``I have been engaged to my boyfriend since June 2011. We have not 
married due to the penalty nor do we live in the same household because 
I am in fear of common law marriage if we lived together. We have been 
together for 14 years. He has been very supportive in my decision to 
not remarry. I made this decision so that I do not have to work full 
time and have more time to spend with my daughter. Being so young it 
has been difficult over the past 15 years. I am now 35 years old, still 
unmarried and with no other children.''
    ``I was widowed when I was 24. The single most pervasive issue I 
have faced besides losing my husband, has been the knowledge that I 
will not be able to remarry without losing eligibility for my health 
insurance/access to crucial mental health services that I have relied 
on at places such as Home Base and the Vet Center in Boston. After my 
husband's death, I chose to return home to live near my family in the 
North Shore of Massachusetts. This is not an easily affordable place to 
live, and even with a bachelor's degree and a 9-5 job, I depend very 
heavily on my monthly DIC allotment to help me survive. I do not have 
an extravagant lifestyle; I do not own a car, I have a condo, and I am 
in love with a man I cannot afford to marry, because despite how hard 
he works, his income would not cover the losses that marriage would 
bring to my life. As I approach my mid 30's, I feel that my 
relationship is valued less by others in our community because we are 
not married. It feels infantilizing to always have to refer to my 33-
year-old partner, as a `boyfriend' because to call him anything else 
threatens my ability to live comfortably and independently near my 
family and my husband's resting place.''
    ``I won't remarry because it affects what I can provide for my 
children but it's greatly awkward to have to tell people the man I have 
3 children and one more on the way that he is just a boyfriend. I think 
he also feels a little less important without the `husband' title and 
some part of me yearns to be a wife again, but this penalty would hurt 
financially. I think it also affected me when I started dating. Having 
to make it clear I would not be able to remarry probably discouraged 
some type of men. As a woman, being married isn't everything but it's 
sure a part of a feeling of being whole again.''
    ``I have been a widow for 10 years this coming Christmas Day. I 
have been in a relationship with my boyfriend for 6 years now. Though 
he has asked, I've asked him to `postpone' his proposal as I do not 
want to risk losing my VA Benefits. It's unfortunate that I have to 
choose money over love, but it is being stuck between a rock and a hard 
place as the VA benefits are my source of income and healthcare. And 
though he would be able to provide for me, I have 3 children that I 
still provide for so it would not be fair to him to have to compensate 
if I lost my benefits. Therefore, we choose not to marry at this time. 
Do I think it's fair? No. My husband fought and died for, well, a lot. 
And to make sure his family was secured in the event of his death 
brought him comfort on his deployments. He was taken from me. I didn't 
leave him. I don't think it's fair that I would lose everything my 
husband fought and died for simply because I want to move forward with 
my life. Those benefits are owed to me. And though I'm not the type of 
person to feel entitled to anything, the truth is I am. My husband died 
under the U.S. Government's watch.''
    ``At the time of my husband's death, we had been married for 18 
years, all served on active duty. His military career was all I'd ever 
known and our families only financial future. Multiple deployments and 
overseas moves greatly limited my ability to work. When he died, I 
found myself raising 3 kids alone without the means to financially 
support them myself. Giving up his benefits for a choice of remarriage 
is not something I feel that I could ever do. Not only did he serve for 
those benefits, I served alongside him too. His benefits are also my 
benefits and the only retirement plan that I have.''
    ``I'm engaged with a plan to get married next year. My fiance is 
nervous to even set a date because he feels guilty of me losing my 
benefits. My son has no security legally without Chris and I being 
married. I have made my will so that Chris will become his legal 
guardian if something happens to me. It's scary living in a way where 
there's no foundation, because we're not able to build one with the way 
our benefits are set up. It feels like we're `playing house'.''

Access to Children's Medical Records

    In addition to losing financial benefits, ID cards and TRICARE for 
themselves, surviving military spouses lose access to electronic 
medical records and referrals for their children. The referrals have to 
be physically mailed as opposed to being able to immediately access it. 
In addition, they no longer have access to the electronic records. 
Minor children do not have their own accounts, its under their parents' 
account. If the parent is no longer in the system under TRICARE the 
remaining parent cannot access them.
    The story of Kaanan Mackey-Fugler is representative of so many 
surviving military spouses who have remarried and been hit with the 
penalties to their children. Had she known that her daughter was going 
to be diagnosed with T1 diabetes and almost die, and she could not 
access any of her medical records, she may have waited to legally 
remarry (her words). Here is her story:
    ``June of 2018, my then 9-year-old daughter was admitted to ICU in 
DKA and diagnosed with T1 diabetes. While at the hospital I learned 
that Tricare would not speak to me. Why? Because as their only living 
parent I needed to sign a new HIPPA form as their guardian to allow me 
to talk to someone. That was only the beginning of what I would 
encounter since that day! My status as their only living parent did not 
change only my marital status. Let that sink in; while my child is in 
critical condition in ICU I had to fill out a new HIPPA form just to 
have someone that would speak to me!"
    ``The next was trying to change her PCM from one that had left her 
in a room for 4 hours and doing no tests on her that could have 
prevented my daughter from almost dying. After trying to log on to the 
website to change her PCM, I discovered I no longer had access to her 
``privilege'' information to be able to access, change, or even view 
referrals. I called DMDC and was told that I'm no longer privileged to 
that information on my minor children. I would have to call, make a 
request, and wait for the mail referrals. Once I finally got someone to 
help me transfer PCM, I learned that I could only get the referrals for 
my children sent to my mail. Why? Because I was no longer granted 
access to any of their electronic files through DMDC.''
    ``After numerous referrals had to go through for nutrition, 
dietitian, and an endocrinologist and I had to wait for it to come in 
the mail to schedule these things (all of which are specialties and are 
backlogged normally) it further put my child behind on adequate 
healthcare. Because I was punished by DoD for getting remarried and 
giving up my benefits. I was unable to access their Survivor Benefit 
Plan online, their MyBenefit portal is no longer something I can 
access. If my child needs anything medically I have to hope I can get 
someone on the phone after a long wait time hoping they don't 
disconnect in the middle of the call and then I have to wait for a 
mailed out form to say whether it's granted or not. If they need proof 
of anything, I CAN NOT provide them with copies. I can't even get them 
a copy showing they have dental insurance because I have no access.''
    ``I truly just want electronic access to her referrals so I can set 
up appointments for specialty doctors and equipment like her insulin 
pump and continuous glucose monitor (both of which took over a month to 
get a paper copy to send and get these lifesaving things ordered even 
though the referral was approved in days.) Further, to be able to 
access my children's MyBenefit and to be able to access their survivor 
benefit plan through DMDC are all things that my children should have 
access to as it's their benefits and as minors they can't access for 
themselves. That should not be too much to ask as I am their ONLY 
living parent. It shouldn't matter if I'm remarried or not, I am still 
the ONLY living parent that these children have left.''

Maintaining Education Benefits After Remarriage

    One of the things TAPS would like to see added to the bill is the 
inclusion of allowing surviving military spouses to maintain education 
benefits after remarriage. As many studies have shown, the GI Bill is 
an investment into the future for both the student and the economy. 
It's why we have done so much to strengthen it over the past 10 years. 
Remarried spouses are no different. They would like the opportunity to 
use those benefits to pursue a degree and career. Many may not have had 
the opportunity to pursue them while being a military spouse, and if 
they are losing all other benefits due to remarriage, they will need 
the ability to financially help their family.
    ``At the time of my remarriage, I had just finished my bachelors 
degree and wasn't sure what to do. I had a child who required multiple 
doctors and therapy appointments, making going to school hard and 
graduate school impossible. I still had time to use my benefits, which 
had made it possible for me to return to school as a single parent. 
After graduation, I was given the opportunity to serve my community as 
a police officer. My plan had always been to go back to school, as I am 
now a Ph.D. candidate, and had saved a portion of my education benefits 
for that purpose but at the time, I had to make a choice. I could stay 
widowed and risk state intervention if I died on duty or I could 
remarry to protect my son and lose my benefits. I chose my son. As a 
result, the benefits that would have helped me get my masters and 
doctorate disappeared, and I have had to pay for it myself. The 
assistantship I have barely covers rent and bills, much less anything 
extra my son may need.''
    TAPS knows that ending the remarriage penalty as a whole will be a 
difficult and expensive bill to get done. We believe doing a smaller 
bill that handles education benefits, holding yourself out to be 
married, and the medical records would be a good foot in the door to 
start building support for eventually ending the remarriage penalty, 
and would have a huge impact on many surviving military families. 
However, we still hope to see pieces of the remarriage penalty 
eliminated this year and support built for eventually doing away with 
it completely, just like our friends in the UK.
    TAPS thanks the committee for starting the conversation on this 
important legislation, and thanks Representative Walz & Representative 
Bacon for introducing a bill that is a good starting point. We greatly 
appreciate your thoughtful consideration of the needs of our nation's 
veterans and surviving families.
    It is the responsibility of the nation to provide for the support 
of the loved ones of those who have paid the highest price for freedom. 
Thank you for allowing us to speak on their behalf.

                                 <F-dash>
                       STATEMENTS FOR THE RECORD

                           Honorable Andy Kim
    America's veterans deserve America's best. They deserve the best 
health care and the best government service.
    I introduced the bipartisan VA Overpayment Accountability Act with 
Congressman French Hill because sometimes, our veterans do not receive 
the best.
    Through several programs, the Department of Veterans Affairs 
provides monthly payments to veterans and other beneficiaries. Because 
the VA often relies on outdated systems to provide those payments, 
those recipients sometimes receive overpayments at no fault of their 
own.
    When this happens, it's the veterans who pay a price. In order to 
compensate for their mistake, the VA will withhold payments from 
veterans. At a time in which 1.4 million veterans across the United 
States are struggling with poverty issues, withholding payment can have 
severe consequences for Americans who earned these benefits.
    Because there is no limit on how much the VA can ask a vet to 
repay, and no limit on how far back it can go to collect the debt, 
these sums can impact the credit and financial stability of veterans.
    The VA Overpayment Accountability Act aims to fix these issues by 
improving VA IT systems that are often the cause of these overpayments. 
It also provides credit protections for veterans who are the victims of 
overpayments and become targets of unfair VA practices.
    As a grateful nation, we should aim to honor our veterans, not send 
debt collectors after them because of a failure at the Department of 
Veterans Affairs.
    Barbara Kim-Hagemann, the State Commander of the Department of New 
Jersey Veterans of Foreign Wars said in her endorsement remarks of this 
bill, that it is imperative that Congress work to correct, ``harsh 
Veterans Administration procedures in recouping benefit overpayments 
from veterans who are barely living paycheck to paycheck.''
    On behalf of the thousands of veterans that Barbara fights for 
every day, and the millions across our country who sacrificed in their 
service, I call on the members of this committee to join me and 
Congressman Hill in this bipartisan effort to make the VA work and 
honor our veterans.

                                 <F-dash>
                  PARALYZED VETERANS OF AMERICA (PVA)
    Chairwoman Luria, Ranking Member Bost, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to submit our views on some of the pending 
legislation impacting the Department of Veterans Affairs (VA) that is 
before the Subcommittee. PVA is proud of its rich history and no group 
of veterans understand the full scope of care and benefits provided by 
the VA better than PVA's members-veterans who have incurred a spinal 
cord injury or disorder, such as Amyotrophic Lateral Sclerosis (ALS).
      H.R. 592, the ``Protect Veterans from Financial Fraud Act''
    PVA supports H.R. 592 which will ensure that every veteran 
participating in VA's Fiduciary Program can recover their benefits in 
cases of fiduciary misuse and fraud. Studies show veterans are 
particularly vulnerable to scams, including those perpetrated by 
someone entrusted with their care. Too often we hear about a VA 
appointed fiduciary failing to honor the trust given them and illegally 
misusing a veterans funds for their own personal gain.
    Unfortunately, not all veterans who have VA-appointed fiduciaries 
are treated equally under Federal law. If a fiduciary misuses a 
veteran's benefits, the VA will remove the fiduciary, but it can only 
re-issue stolen benefits to the veteran if the fiduciary manages 
benefits for ten or more veterans. According to the VA however, 80 
percent of beneficiaries have a one-on-one relationship with their 
fiduciary. The ``10 or more'' requirement leaves thousands of veterans 
and unable to recoup benefits lost through no fault of their own.
    H.R. 592 clarifies existing procedures for the reissuance of 
benefits by VA in all cases of negligence or fraud, and adds the right 
to appeal adverse or negative decisions. Both actions are consistent 
with PVA's efforts to improve the current fiduciary program.
   H.R. 628, the ``Working to Integrate Networks Guaranteeing Member 
                       Access Now (WINGMAN) Act''
    PVA supports the goal of ensuring veterans receive timely 
information regarding the status of their claims. H.R. 628 would allow 
veterans submitting a claim for benefits, to permit a covered 
congressional employee in the office of the member of Congress 
representing the district where the veteran resides to have access to 
all of the records of the veteran in the databases of the Veterans 
Benefits Administration.
    We appreciate that this bill ensures that congressional employees 
granted access to such a program undergo the same training and 
certification program that VA currently uses to certify veterans 
service organization representatives and attorneys representing 
claimants. This legislation, however, allows access to a claimant's 
information regardless of whether the covered employees are acting 
under a power of attorney.
    Claims files contain the most private information about that 
particular veteran and, often times, information of other individuals 
consulted during the claim's development. PVA believes that in the 
interest of maintaining strict protection of such private information, 
this legislation should be limited to those who hold a power of 
attorney. Other logistical issues may also arise in the form of the 
added administrative burden on VA of managing the certification process 
and tracking users. Certainly we do not want to see resources that 
should be applied to adjudicating claims shifted to facilitating 
congressional involvement unless it produces a significant increase in 
productivity.
H.R. 1911, the ``SFC Brian Woods Gold Star and Military Survivors Act''
    PVA supports H.R. 1911, which seeks to improve benefits and 
services for the surviving family members of those killed in the line 
of duty. If passed, H.R. 1911 would:

    <bullet>  Allow survivors that re-married to continue to have 
access to on-base facilities if they have dependent children;
    <bullet>  Allow surviving spouses of servicemembers who were killed 
while on duty to continue to receive Dependency and Indemnity 
Compensation (DIC) or military Surrvivor Benefit Plan (SBP) payments 
should they re-marry and ensures survivors that re-married before the 
bill becomes law are eligible to collect benefits moving forward;
    <bullet>  Direct the Department of Defense (DoD) to pay the 
transportation costs of remains for those killed in combat back to 
their hometown for any memorial services and then to a national 
cemetery of the surviving family's choice for final internment (current 
law only authorizes one trip); and
    <bullet>  Authorize DoD to extend the existing child care service 
assistance program (for civilian providers) to survivors of 
servicemembers that die in the line of duty.

    Surviving spouses should not have to forfeit lifesaving benefits 
afforded to them and we support this effort to keep their existing 
benefits intact. It's an equity issue as well and repealing the 
remarriage penalty would make eligibility requirements for DIC and SBP 
consistent with other Federal programs
    H.R. 4183, ``Identifying Barriers and Best Practices Study Act''
    PVA supports H.R. 4183, which would require the Comptroller General 
to conduct a study on disability and pension benefits provided to 
members of the National Guard and members of reserve components for the 
period of January 1, 2008, to December 31, 2018. Specifically, the bill 
would require comparisons between the National Guard and members of the 
reserve to those who served in regular components. The comparisons 
would include the percentage of each group of veterans with service-
connected disabilities; the number of veterans in each group with each 
disability rating; and the number of veterans in each group with a 
service-connected disability for pilots, special forces, veterans who 
participated in the Personnel Reliability Program, veterans who 
underwent flight physicals, and who have muscular-skeletal or mental 
health conditions.
     H.R. 4165, ``Improving Benefits for Underserved Veterans Act''
    PVA supports H.R. 4165, which would require VA to publish a report 
regarding veterans who receive VA benefits disaggregated by sex and 
minority group status. This report would include those benefits 
administered through the Transition Assistance Program. A key to 
understanding the health care needs of veterans is first knowing what 
services VA offers to veterans, especially women and minority veterans. 
With this information Congress can ensure VA has the appropriate 
resources to meet the needs of all veterans.
          H.R. 4360, the ``VA Overpayment Accountability Act''
    PVA supports H.R. 4360, which would amend Chapter 53 of title 38 to 
add a new section requiring the VA Secretary to correct any erroneous 
information submitted to consumer reporting agencies including 
information submitted by a third party collection agency. It would also 
require VA to notify the beneficiary of the Department's request for 
correction. Too many individuals receiving VA benefits have had their 
credit history tarnished by unnecessary mistakes made by debt 
collectors. PVA applauds Congress for taking this action to protect our 
veterans and their survivors.
     Discussion Draft, the ``Justice for ALS Veterans Act of 2019"
    PVA gives its strongest endorsement to this proposed Act, which 
seeks to expand eligibility for increased DIC paid to the surviving 
spouse of a veteran who dies from ALS regardless of how long the 
veteran had been receiving VA disability compensation for the disease 
prior to death.
    Under current law, increased DIC, commonly known as the the ``DIC 
kicker,'' is available to an eligible survivor of a veteran with a 
service-connected disability rated as totally disabled, which ALS is, 
for a continuous period of at least eight years immediately preceding 
death. Unfortunately, ALS is a disease that progresses rapidly once it 
is diagnosed, and most patients die within three to five years.\1\ Some 
veterans may live longer but the mortality rate for the disease is 100 
percent and the overwhelming majority of veterans with ALS do not live 
long enough to meet the eligibility critera required for the DIC 
kicker.
---------------------------------------------------------------------------
    \1\ Muscular Dystropy Association, Amyotrophic Lateral Sclerosis 
(ALS): https://  www.mda.org/  disease/  amyotrophic- lateral-sclerosis
---------------------------------------------------------------------------
    This was the case with George Vasiloff, a veteran of the United 
States Marine Corps, and his widow, Jann. George was diagnosed with ALS 
in September 2013 and VA rated him as 100 percent disabled for ALS in 
November of that year. He passed away from ALS in March 2015. Shortly 
thereafter,his wife began to receive DIC benefits but not the kicker 
like other surviving spouses because her husband did not live eight 
years with ALS.
    Jann contacted her congressional representatives in August 2015 and 
even met with some of her elected official's staffers. In March 2018, 
she contacted the VA Office of Regulation Policy and Management to ask 
that requirement be changed since victims of ALS do not generally 
survive eight years with this disease. In their response, they 
acknowledged the problem and stated that only Congress could change the 
rule.
    VA's response eventually brought her to PVA and led to the drafting 
of this legislation. Jann's effort to pursue passage of this blll is an 
honorable one. She would not benefit from it. Her desire is to change 
this rule is so future surviving spouses of ALS victims receive the 
same DIC benefits that others receive whose veterans have survived for 
the required eight years with their service-connected disability before 
dying. Again, that survival rate is not attainable for the overwhelming 
majority of ALS victims.
    The additional assistance afforded through the DIC kicker may not 
be a lot of money, currently $280.09, but none of us knows the 
circumstances of our veterans' families who are left to cope after this 
devastating disease and loss. For some, it could be a car payment, food 
on the table, or a utility payment. Few diseases are as catastrophic as 
ALS, emotionally, physically, and financially for the entire family. 
Surviving families should not be denied a benefit others receive simply 
because the service-connected disease their loved one contracted made 
it impossible for them to meet a life expectancy of eight years. We 
thank Representatives Cisneros and Fitzpatrick for reintroducing this 
important legislation, and urge the House to pass it quickly.
      Discussion Draft on Board of Veterans' Appeals Telehearings
    PVA generally supports this proposed legislation which would amend 
Title 38 to permit appellants to appear in hearings before the Board of 
Veterans' Appeals (BVA) by video and voice transmission from locations 
other than VA facilities. Hearing no shows are a big problem for the 
Board and add to large backlogs of cases. However, for many veterans, 
it can be very challenging to travel to a VA Regional Office. Use of 
telehearings may increase the likelihood of veterans making their BVA 
hearings as scheduled. Although it is too early to assess, a 
telehearing pilot program started by BVA in August of this year 
suggests that this option does indeed produce higher rates of 
participation. Also, in order to best preserve the evidence of record 
of the ``telehearing,'' VA should be directed to preserve any and all 
forms of communication between the veteran, the veteran's 
representative, and the Board employees conducting the hearing. This 
should include transcription of any chat functions embodied within the 
technology used to conduct the hearings or any other communication 
methods in addition to the transcribed hearing.
    Again, PVA would once again like to thank the Subcommittee for the 
opportunity to submit our views on the legislation considered today. 
Enactment of much of this proposed legislation will significantly 
enhance the benefits available to veterans, service members, and their 
families. We look forward to working with the Committee on their 
passage and would be happy to take any questions you have for the 
record.

                                 <F-dash>
                       THE AMERICAN LEGION (TAL)
H.R.592, ``Protect Veterans from Financial Fraud Act of 2019"
Support

H.R.628, ``Working to Integrate Networks Guaranteeing Member Access Now 
    (WINGMAN) Act''
Oppose

H.R.1030, ``Veteran Spouses Equal Treatment Act''
No position

H.R.1424, ``Fallen Warrior Battlefield Cross Memorial Act''
Support

H.R.1911, ``SFC Brian Woods Gold Star and Military Survivors Act''
Support

H.R.4165, ``Improving Benefits for Underserved Veterans Act''
No position

H.R.4183, ``Identifying Barriers and Best Practices Study Act''
Support

H.R.4360, ``VA Overpayment Accountability Act''
Support

Draft: Legislation to permit appellants to appear before the Board of 
    Veterans' Appeals via picture and voice transmission from locations 
    outside the Veterans Affairs Department.
Support w/amdt

    Chair Luria, Ranking Member Bost, and distinguished members of the 
Subcommittee, on behalf of our National Commander, James W. ``Bill'' 
Oxford and our nearly 2 million members, we thank you for inviting The 
American Legion to submit the following testimony.
    The American Legion is directed by millions of active Legionnaires 
who dedicate their time and resources to the continued service of 
veterans and their families. As a resolution-based organization, our 
positions are guided by more than 100 years of advocacy and resolutions 
that originate at the grassroots level of our organization. Every time 
The American Legion testifies, we offer a direct voice from the veteran 
community to Congress.
  H.R. 592 - The ``Protect Veterans from Financial Fraud Act of 2019"

    To amend title 38, United States Code, to ensure that the Secretary 
of Veterans Affairs repays the misused benefits of veterans with 
fiduciaries, to establish an appeals process for determinations by the 
Secretary of Veterans Affairs of veterans' mental capacity, and for 
other purposes.

    The VA's Fiduciary Program was established to protect veterans and 
other beneficiaries who are unable to manage their financial affairs by 
appointing a fiduciary to assist in managing benefit payments. 
Currently, the VA can remove the fiduciary if they mismanage or steal a 
veteran's benefits but can only re-issue benefits to the veteran if the 
appointed fiduciary manages benefits for 10 or more veterans. Under 
this current policy, a veteran's only recourse is to sue the fiduciary 
in an attempt to recoup the lost or mismanaged funds. There is also no 
process to appeal a determination of the need for a fiduciary based on 
a veteran's mental capacity.
    The American Legion believes that no veteran should be harmed or 
put in a financial hardship through no fault of their own. The American 
Legion is aware that mismanagement and theft of veteran's funds by 
fiduciaries does happen on occasion. When a veterans funds are 
mismanaged or stolen by a VA-appointed and vetted fiduciary, the VA 
should re-pay the benefit to the veteran. H.R. 592 will require the 
Secretary of Veteran Affairs to repay the misused benefits of veterans 
with fiduciaries and to establish an appeals process for determinations 
of a veterans' mental capacity by the VA. Through Resolution No. 377: 
Support for Veteran Quality of Life, The American Legion urges Congress 
and the VA to enact legislation and programs within the VA that will 
enhance, promote, restore or preserve benefits for veterans and their 
dependents.\1\
---------------------------------------------------------------------------
    \1\ https://  archive.legion.org/  handle/20.500.12203/5696

---------------------------------------------------------------------------
The American Legion supports this legislation as currently written.

  H.R. 628 - ``The Working To Integrate Networks Guaranteeing Member 
                Access Now Act'' or the ``WINGMAN Act''

    To amend title 38, United States Code, to permit veterans to grant 
access to their records in the databases of the Veterans Benefits 
Administration to certain designated congressional employees, and for 
other purposes.

    The WINGMAN Act would permit veterans to grant certain 
congressional employees in the office of a member of Congress to have 
read-only access to all of the veteran's records in the Department of 
Veterans Affairs (VA) Veterans Benefits Management System (VBMS) for 
the purpose of assisting constituents. A Member may designate up to two 
such congressional employees, but the employees may not be recognized 
as an agent or attorney with respect to veterans' benefit claims. Funds 
under this bill may not be used to design or administer any training 
for congressional employees.
    The American Legion has more than 3,600 accredited representatives 
who assist veterans with their claims located throughout the nation. 
These professionals receive regular professional training ensuring they 
have the most current understanding of the impact of changes in 
statutes, regulations, and case law. It is simply not a matter of 
receiving initial training and meeting the requirement of being 
accredited, like many professions, it requires on-going, thorough 
training. Additionally, veterans are repeatedly advised of their 
opportunity to elect to have a Veterans Service Organization (VSO) 
represent them in their quest to receive VA disability benefits at no 
cost. The American Legion does not have a resolution to support the 
enactment of this bill; however, we urge Congress to consider the long-
term ramifications of supporting legislation that requires their own 
employees to have a minimal level of understanding in veterans' law 
assisting their constituents. To ensure our veterans receive the 
assistance they deserve, we highly recommend that a VSO advocate on 
their veterans' behalf.

The American Legion opposes this legislation.

          H.R. 1030 - ``Veteran Spouses Equal Treatment Act''

    To amend title 38, United States Code, to amend the definition of 
the term ``spouse'' to recognize new State definitions of such term for 
the purpose of the laws administered by the Secretary of Veterans 
Affairs, and for other purposes.

    The provisions of this bill fall outside the scope of established 
resolutions of The American Legion. The American Legion is a resolution 
based, grassroots organization that takes positions on legislation 
based on resolutions passed by the membership or in meetings of the 
National Executive Committee. The American Legion has no current 
position on H.R. 1030 dictated by resolution, however, as laws evolve 
we expect VA to act in accordance with them.

The American Legion has no current position on H.R. 1030.

     H.R. 1424 - ``Fallen Warrior Battlefield Cross Memorial Act''

    To amend title 38, United States Code, to ensure the Secretary of 
Veterans Affairs permits the display of Fallen Soldier Displays in 
national cemeteries.

    The proposed legislation would allow the Secretary of VA to display 
the ``Fallen Warrior Battlefield Cross Memorial'' at all national 
cemeteries. The Fallen Warrior Battlefield Cross Memorial consists of 
helmet, rifle (inverted), boots, and identification tags (dog tags) 
draped from the rifle. A U.S. Army field manual notes: ``The helmet and 
identification tags signify the dead soldier. The inverted rifle with 
bayonet signals a time for prayer, a break in the action to pay tribute 
to our comrade. The combat boots represent the final march of the last 
battle.''\2\
---------------------------------------------------------------------------
    \2\ https://  www.milsci.ucsb.edu/sites/  
secure.lsit.ucsb.edu.mili.d7/files/  sitefiles/  resources/FM%207-
21.13%20Soldier%27s%20Guide.pdf
---------------------------------------------------------------------------
    The tradition of inverting the rifle into the ground dates back to 
the Revolutionary War as a crude way of marking the position of a 
fallen soldier. The custom continues to this day; units in theater 
traditionally hold a remembrance ceremony in country (as the body is 
flown back stateside for burial) to allow the unit to pay last respects 
to those killed in action (KIA).
    In October 2017, at Ohio's Western Reserve National Cemetery, a 
battlefield cross was removed by cemetery officials. The National 
Cemetery Administration (NCA) cited the reason for removal as a 
violation of the administration's policy regarding monuments depicting 
weaponry. The cemetery ultimately decided to restore the cross.
    The Fallen Warrior Battlefield Cross Memorial Act (H.R. 1424) would 
permit the display of the weapon when accompanying the other items that 
make up the Battlefield Cross. NCA currently allows for the display of 
the cross, however, it does not specifically mention the Battlefield 
Cross. The passage of H.R. 1424 would prevent another NCA cemetery/
official from misinterpreting the policy and disallowing the display of 
the Battlefield Cross.
    Relevant here is the recent U.S. Supreme Case decision in American 
Legion v. American Humanist Association, No. 17-1717, 588 U.S. ------ 
(2019), dealing with the separation of church and state related to 
maintaining the Bladensburg Peace Cross, a World War I memorial shaped 
after a Latin cross, on government-owned land, though initially built 
with private funds on private lands.\3\ In a landmark victory for The 
American Legion, the Court ruled 7-2 that the 40-foot memorial can 
remain on public land in Prince George's County, Md., where it has 
stood since 1925.
---------------------------------------------------------------------------
    \3\ https://  www.legion.org/honor/246061/  legion-wins-
bladensburg-memorial-  supreme-court-case
---------------------------------------------------------------------------
    ``This was not just about a single cross,'' then American Legion 
National Commander Brett Reistad said of the victory. ``This was about 
the right of a community to honor its fallen heroes. And that's why the 
World War I veterans of Bladensburg sacrificed their lives, to protect 
the freedom of others.''
    Additionally, The American Legion supported the same legislation, 
as H.R. 4312, during the 115th Congress and testified in support on 
September 5, 2018.\4\ Since its creation in 1919, The American Legion 
has been dedicated to preserving the memories of our fallen and we will 
continue to do so whenever possible.
---------------------------------------------------------------------------
    \4\ https://archive.legion.org/  bitstream/handle/  20.500.12203/  
11937/  aa007254.pdf?sequence=1&isAllowed=y

---------------------------------------------------------------------------
The American Legion supports H.R. 1424 as currently written.

  H.R. 1911 - ``SFC Brian Woods Gold Star and Military Survivors Act''

    To amend titles 10 and 38, United States Code, to expand certain 
benefits for survivors of members of the Armed Forces who die in line 
of duty, and for other purposes.

    No family of a servicemember ever wants to receive the dreaded 
knock at the door informing them that their loved one has paid the 
ultimate sacrifice. Dealing with such loss can be a life long struggle, 
and every available resource must be at the family's disposal to help 
them try to heal. Unfortunately, the loss of a servicemember means a 
change in status for the surviving spouse and dependent children which 
often leads to loss of certain benefits and access to the military 
community they have been a part of.
    After the passing of a servicemember, the surviving spouse will 
lose access to military installations and on-base facilities such as 
the commissary and post exchange. Loss is not only access, but 
potentially monetary as well. Under current policy a surviving spouse 
is entitled to Dependent Indemnity Compensation (DIC) through the 
Department of Veteran Affairs, however, they will lose this benefit if 
they chose to remarry prior to age 55. The American Legion believes 
that surviving spouses are being unfairly cut off from their military 
community, facilities and are being unduly harmed by taking away their 
monetary benefits.
    Another issue is the transportation of their loved one's remains. 
Under current policy all in-theater KIA's are flown to Dover Air Force 
Base. The Department of Defense (DoD) will then transport the remains 
to a location of the families choosing. The problem is that some 
families want to add another location for transport by DoD. An example 
would be if the service member is from California, but their wishes 
were to be buried at Arlington National Cemetery (ANC), the family can 
request the remains be flown to California for a memorial service but 
must pay out of pocket to transport their loved one to ANC for burial.
    The bill would alleviate the aforementioned issues by:

    <bullet>  Allowing survivors that remarry to continue to have 
access to on-base facilities if they have dependent children;
    <bullet>  Allowing surviving spouses of servicemembers who were 
killed while on duty to continue to receive DIC or SBP should they 
remarry and ensures survivors that remarried before the bill becomes 
law are eligible to collect benefits moving forward;
    <bullet>  Directing the Pentagon to pay the transportation costs of 
remains for those killed in combat back to their hometown for any 
memorial services AND to a national cemetery of the surviving family's 
choice (current law only authorizes one trip); and
    <bullet>  Authorizing the Pentagon to extend the existing child 
care service assistance program (for civilian providers) to survivors 
of servicemembers that die in the line of duty.

    We can never fully repay the debt we owe to a Gold Star family, but 
we can try do what is possible to support them after their loss. The 
American Legion, through Resolution 85: Support for Military Quality of 
Life Standards, supports H.R. 1911 in its endeavors to address the 
issues that reduce the quality of life of America's Gold Star 
Families.\5\
---------------------------------------------------------------------------
    \5\ https://archive.legion.org/  handle/20.500.12203/10004

---------------------------------------------------------------------------
The American Legion supports H.R. 1911 as currently written.

    H.R. 4165 - ``Improving Benefits for Underserved Veterans Act''

    To direct the Secretary of Veterans Affairs to publish a report 
regarding veterans who receive benefits under laws administered by the 
Secretary, disaggregated by sex and minority group member status.

    The provisions of this bill fall outside the scope of established 
resolutions of The American Legion. The American is a resolution based, 
grassroots organization that takes positions on legislation based on 
resolutions passed by the membership or in meetings of the National 
Executive Committee. The American Legion has no current position on 
H.R. 4165. With no resolutions addressing the provisions of the 
legislation, The American Legion is researching the material and 
working with our membership to determine the course of action which 
best serves veterans.

The American Legion has no current position on H.R. 4165.

 H.R. 4183 - The ``Identifying Barriers and Best Practices Study Act''

    To direct the Comptroller General of the United States to conduct a 
study on disability and pension benefits provided to members of the 
National Guard and members of reserve components of the Armed Forces by 
the Department of Veterans Affairs, and for other purposes.

    The United States military has increasingly relied on its reserve 
components to meet the national security demands during the War on 
Terror and the current security environment. This has required 
increased commitments from reservists and their families as the nation 
has moved from a strategic to an operational reserve. However, those 
serving in these reserve components do not receive the benefits they 
deserve to account for these increased responsibilities. This is 
compounded by the fact that Guard and Reserve veterans have 
historically been at a disadvantage when seeking VA compensation and 
disability benefits due to poor reporting and documentation of injuries 
which occur during a period of reserve or Active Duty for Training 
(ADT).
    The American Legion believes that all veterans should be afforded 
the benefits they have earned regardless of service component and that 
veterans should not be hindered in their attempts to gain access to VA 
benefits. The American Legion supports legislation to provide the 
military reserve components with greater benefits befitting of the 
increased role they play in the security of the nation and the greater 
commitments they must sustain. H.R. 4183, the ``Identifying Barriers 
and Best Practices Study Act'' would direct the Comptroller General of 
the United States to conduct a study on disability and pension benefits 
provided to members of the National Guard and members of reserve 
components of the Armed Forces by the Department of Veterans Affairs. 
The American Legion Resolution No. 17: Position on the Operational 
Reserve urges Congress to reform the laws and policies governing the 
reserve components to provide them programmable sustainability as an 
operational force.\6\
---------------------------------------------------------------------------
    \6\ https://archive.legion.org/  handle/20.500.12203/5500

---------------------------------------------------------------------------
The American Legion supports this legislation as currently written.

           H.R. 4360 - ``VA Overpayment Accountability Act''

    To amend title 38, United States Code, to improve due process 
accorded veterans with respect to recovery of overpayments made by the 
Department and other amounts owed by veterans to the United States, to 
improve the processing of veterans benefits by the Department of 
Veterans Affairs, and for other purposes.

    VA overpays hundreds of thousands of veterans yearly. During fiscal 
year 2018, VA made a total of $1.6 billion in overpayments.\7\ The most 
common reasons for overpayments include a change of status in a 
veteran's income, dependents, school attendance, military drills, or 
incarceration. Most concerning is that a large portion of VA 
overpayments are created due to lack of integration between IT systems 
used by VA. The overpayment will be forwarded to the Debt Management 
Center in Saint Paul, MN, for collection action. If a veteran is 
receiving an active benefit, it will be garnished to repay the amount 
owed. If the overpayment is not payed, it will be referred to the 
Department of Treasury for collection. Due to overpayments by the VA, 
thousands of veterans are potentially being placed in financial 
hardship situations which might include loss of an active benefit or 
damage to a veteran's credit history.
---------------------------------------------------------------------------
    \7\ https://www.militarytimes.com/  news/  pentagon-congress/2019/
09/19/va-concedes-its-debt-collection-systems-  leave-veterans-
confused-frustrated/
---------------------------------------------------------------------------
    The proposed legislation contains three key elements that are aimed 
at protecting veterans during the overpayment and debt collection 
process. Firstly, it introduces measures to correct erroneous 
information sent to credit reporting agencies about a debt incurred by 
a veteran as a result of their participation in a benefits program. 
Secondly, it requires the VA to improve the notification system once a 
veteran has incurred a debt and requires tracking of metrics associated 
with the overpayment process. Thirdly, it requires VA to conduct an 
audit to study the metrics previously mentioned and examine how a 
multitude of factors, to include vacancies at VA, contribute to 
perpetuating the issue.
    The American Legion, through Resolution No. 228: Timely Processing 
of Overpayments for Reserve Components and/or Active Duty Pay, supports 
efforts to ``place greater emphasis on processing of these 
overpayments.''\8\ Debt caused by VA overpayments are a major concern 
for The American Legion. Since 1978, The American Legion has retained a 
dedicated staff member at the Debt Management Center for the sole 
purpose of advocating on behave of veterans and their dependents facing 
garnishment. Too often, we have seen unnecessary financial burdens 
placed on veterans and their families as a result of bureaucratic 
errors.
---------------------------------------------------------------------------
    \8\ https://archive.legion.org/  bitstream/handle/  20.500.12203/
5558/  2016N228.pdf?  sequence=4&isAllowed=y
---------------------------------------------------------------------------
    The American Legion most recently testified on this issue on 
September 19, 2019, and we are encouraged to see that many of the 
recommendations made by the Veteran Service Organization (VSO) 
community are included in pieces of legislation like H.R. 4360.\9\ If 
passed, this legislation would greatly improve the way VA manages debt 
collection while minimizing the negative impact for veterans.
---------------------------------------------------------------------------
    \9\ https://www.legion.org/legislative/  testimony/247102/  
``preventing-harm-veterans-examining-  vas-overpayments-and-debt

---------------------------------------------------------------------------
The American Legion supports H.R. 4360 as currently written.

                           Draft Legislation

    To amend title 38, United States Code, to permit appellants to 
appear in disability compensation cases before the Board of Veterans' 
Appeals by picture and voice transmission from locations other than 
facilities of the Department of Veterans Affairs.

    Historically, veterans have had long wait times to go before the 
Board of Veterans Appeals (BVA) and have suffered from barriers based 
on the locations they could go for a hearing. BVA has made great 
strides and seeks to reduce the backlog and decide appealed cases in 
under 365 days. Among these options to reduce the backlog is to utilize 
a video or tele-conferencing option which would allow greater access to 
resources to accommodate veterans hearing requests. However, under 
current law, the Veterans Law Judge who presides over a given hearing 
must do so from inside the BVA building in Washington, D.C., and the 
veteran must travel to a VA regional office or local Veterans Health 
Administration facility to join the video conference. The veteran's 
representative must be with the veteran in person, or at a similar 
facility. This places unnecessary burdens on both the veterans and VA 
staff.
    The American Legion believes that veterans should not be unduly 
burdened with cost, time, and physical limitations when attempting to 
make their case before a Veterans Law Judge at the BVA. The American 
Legion supports legislation that would decrease wait times and remove 
barriers for veterans during the appeals process. This draft 
legislation would permit veterans to appear in disability compensation 
cases before the BVA by picture and voice transmission from locations 
other than VA facilities. Through Resolution No. 377: Support for 
Veteran Quality of Life, The American Legion urges Congress and the VA 
to enact legislation and programs within the VA that will enhance, 
promote, restore or preserve benefits for veterans and their 
dependents.\10\
---------------------------------------------------------------------------
    \10\ https://archive.legion.org/  handle/20.500.12203/5696
---------------------------------------------------------------------------
    The American Legion supports this legislation as currently written, 
but would strongly encourage the draft legislation be amended to 
include all veterans' appeals before the BVA, not just disability 
compensation cases. The American Legion believes all veterans and the 
VA would greatly benefit from utilizing a video or tele-conferencing 
option outside of VA facilities, not just disability compensation 
cases. Additionally, the need for security regarding transmission and 
atmosphere should be considered as policies for implementation are 
developed.

The American Legion supports this draft legislation but strongly 
    encourages the amendment noted above.

CONCLUSION

    Chair Luria, Ranking Member Bost, and distinguished members of the 
Subcommittee, The American Legion thanks you for your leadership on 
these matters and for allowing us the opportunity to explain the 
positions of our nearly two million members. Questions concerning this 
testimony can be directed to Mr. Lawrence Montreuil, Legislative 
Associate, National Legislative Division at (202) 861-2700, or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f9f8fafbe1e7f0e0fcf9d5f9f0f2fcfafbbbfae7f2bb">[email&#160;protected]</a>

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
